                                                                      1nspectorb Lenera
                                                                         rn   -   -




                                                                        Departmer




i
 srepo
     rt,aswel
            lasa
               uditr
                   epo
                     rta
                       ndtes
                           ti
                            monytex
                                  t,a
                                    reav
                                       ail
                                         abl
                                           eontheI
                                                 nte
                                                   rneta
                                                       t:www.
                                                            dodi
                                                               g.mi
                                                                  l
  Addi
     tionali
           nfo
             rmat
                iononorc
                       opi
                         esoft
                             hisr
                                epo
                                  rtmaybeobt
                                           aine
                                              dbywri
                                                   tingorc
                                                         ont
                                                           act
                                                             ing
                                                               :
            OﬃceoftheI
                     nspe
                        ctorGenera
                                 loftheDepa
                                          rtmento fDef
                                                     ens
                                                       e
              Oﬃc eofCommunica
                             tionsandCongre
                                          ssi
                                            onalLiai
                                                   son
               400ArmyNa v
                         yDr i
                             ve,Arl
                                  ingt
                                     on,VA 22202-4704
               Mr
                .Jo
                  hnR.Cr
                       ane 703-
                              604-
                                 8324;DS
                                       N 664-
                                            8324
Office of the Inspector General
              Department of Defense                                                  Department of Defense
                                                                                    Inspector General Hotline
                                     VISION
    One professional team strengthening the integrity, efficiency, and
    effectiveness of Department of Defense programs and operations.
                                                                                        DSN: 312-664-1151
                                   MISSION
                                                                                    Protect the Total Force
         The Office of the Inspector General promotes integrity,
     accountability, and improvement of the Department of Defense
    personnel, programs, and operations to support the Department’s
                 mission and to serve the public interest.


    Goal 1:
	       Improve the economy, efficiency, and effectiveness of
	       Department of Defense personnel, programs, and operations.


    Goal 2:
	       Eliminate fraud, waste, and abuse in the programs and
	       operations of the Department.                                        Military	 	 	 	 Contractors	 	 	 	 Civilians

    Goal 3:                                                                  Report: Fraud, Waste, and Abuse
	       Improve the efficiency and effectiveness of Inspector General
	       products, processes, and operations.                                                  Send written complaints to:
	                                                                                                  Defense Hotline
                     For additional copies of this report, please contact:                          The Pentagon
                                                                                              Washington, DC 20301-1900
                                     Jennifer Plozai
                   Department of Defense Office of the Inspector General,
                           400 Army Navy Drive, Room 1034                    Email: hotline@dodig.mil 					            www.dodig.mil/hotline
                                  Arlington, VA 22202
                                           foreword
	


	      T      he Global War on Terror (GWOT) is at the forefront of our national concerns, and continues to
be a priority for the Department of Defense (DoD) Office of the Inspector General (OIG).  We continue to
work with the Department and with Congress to provide the oversight needed to ensure Defense resources
are used effectively in the war against terrorism and to support U.S. Armed Forces in Iraq and Afghanistan.  
This Semiannual Report to the Congress includes an overview that highlights the GWOT-related work
and accomplishments of the DoD OIG, as well as the other DoD investigative, auditing and inspection
organizations.  

	       While GWOT remains a primary focus of our efforts, we remain fully engaged in other Defense
programs and activities and have maintained our commitments to criminal investigations; audits of a wide
range of DoD contractual and financial interests including systems acquisition, services, and retirement pay;
and inspections of programs and procedures throughout DoD.  At the same time, we must continue to address
unforeseen contingencies in response to concerns from both the Department and Congress on the management
and direction of Defense programs.

	       The demands on the OIG workforce are great and I am proud of the accomplishments highlighted in
this report, which include:

	      •	      Achieving over $1.9 billion in investigative recoveries,
	      •	      Attaining $21 billion in audit monetary benefits, and
	      •	      Preparing OIG managers and employees to implement the National Security Personnel System.

	       The fact that the DoD OIG has been able to accomplish so much in so many different areas, while
maintaining a high pace of operations, is a tribute to the dedication and professionalism of the men and women
of the Office of Inspector General and their commitment to promoting integrity, accountability and efficiency
within the DoD.

	




                                               Thomas F. Gimble
                                            Acting Inspector General
            Department of Defense Office of the Inspector General

                                                         Statistical Highlights

     The following statistical data highlights Department of Defense Office of the Inspector General activities and
                 accomplishments during the April 1, 2006 to September 30, 2006 reporting period.


Investigations

Total returned to the U.S. Government.....................................................................................................$1.9 Billion
	
	       Seizures and Recoveries..................................................................................................................$.6 Million
	       Civil Judgments.............................................................................................................................$1.6 Billion
	       Criminal Judgments...................................................................................................................$20.9 Million
	       Administrative Judgments........................................................................................................$335.6 Million
	
	       	
Investigative Cases
	       Indictments...............................................................................................................................................177
	       Convictions...............................................................................................................................................139
	       Suspensions.................................................................................................................................................14
	       Debarments.................................................................................................................................................34

Audit

Audit Reports Issued................................................................................................................................................56

Monetary Benefits

	          Recommendations Made on Funds Put to Better Use..............................................................$129.9 Million
	          Achieved Monetary Benefits (Funds Put to Better Use).......................................................$20,998.2 Million

Hotline Activities

Contacts.............................................................................................................................................................7,455

	          Cases Opened.........................................................................................................................................1,072
	          Cases Closed...........................................................................................................................................1,215




	         Includes investigations conducted jointly with other federal and Defense Criminal Investigative Organizations.
                      table of contents


chapter 1 — Global war on terror	                                                              1

chapter 2 — national security personnel system				                                            35

chapter 3 —Significant Accomplishments                          					                         39
	 Joint Warfighting and Readiness									                                                     39
	Human Capital											                                                                      45	
	Information Security and Privacy									                                                     48
	Acquisition Processes and Contract Management							                                          50	
	Financial Management										                                                                52	
	Health Care												                                                                       56
	
Chapter 4 — oig components								                                                            61	
	Deputy Inspector General for Auditing						             	 	                                   61
	Deputy Inspector General for Investigations								                                           63	
	Deputy Inspector General for Intelligence								                                             66	
	Deputy Inspector General for Policy and Oversight							                                      67
	Office of Communications and Congressional Liaison 						                                     69

appendices
	Appendix A — Reports Issued by Central DoD Internal Audit Organizations		                     71	
	Appendix B — DoD OIG Audit Reports Issued Containing Quantifiable Potential Monetary Benefits 84	
	Appendix C — Followup Activities								                                               	      85	
	Appendix D — Contract Audit Reports Issued							                                             87	
	Appendix E — Status of Action on Significant Post-Award Contract Audits				                   88	
	Appendix F — Status of OIG Reports More Than 12 Months Old With Final Action Pending	         89	
	Appendix G — Defense Criminal Investigative Organizations Statistics			                      111
 Inspector General Act Reporting Requirements
The Table below cross-references the specific pages in this semiannual report to the reporting requirements
prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended.

  IG Act                                               Reporting Requirements                                                    Page
 References
Section 4(a)(2)    “review existing and proposed legislation and regulations...make recommendations...”                          69-70

Section 5(a)(1)    “description of significant problems, abuses, and deficiencies...”                                            39-59

Section 5(a)(2)    “description of recommendations for corrective action...with respect to significant problems, abuses,         39-59
                   and deficiencies...”
Section 5(a)(3)    “identification of each significant recommendation described in previous semiannual reports on which          61-62
                   corrective action has not been completed...”
Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution and convictions which           39-59
                   have resulted..”
Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” (instances where        N/A
                   information requested was refused or not provided”
Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report issued..” showing dollar value of   71-82, 83
                   questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)    “a summary of each particularly significant report...”                                                        39-59

Section 5(a)(8)    “statistical tables showing the total number of audit reports and the total dollar value of questioned          84
                   costs...”
Section 5(a)(9)    “statistical tables showing the total number of audit reports and the dollar value of recommendations           84
                   that funds be put to better use by management...”
Section 5(a)(10)   “a summary of each audit report issued before the commencement of the reporting period for which no             84
                   management decision has been made by the end of reporting period...”
Section 5(a)(11)   “a description and explanation of the reasons for any significant revised management decision...”              N/A

Section 5(a)(12)   “information concerning any significant management decision with which the Inspector General is in             N/A
                   disagreement...”
Section 5(a)(13)   “information described under Section 804 [sic] of the Federal Financial Management Improvement Act             N/A
                   of 1996...” (instances and reasons when an agency has not met target dates established in a remediation
                   plan)
Section 5(b)(2)    “statistical tables showing the total number of audit reports and the dollar value of disallowed costs...”      85

Section 5(b)(3)    “statistical tables showing the total number of audit reports and the dollar value of recommendations           85
                   that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)    “a statement with respect to audit reports on which management decisions have been made but final             88-110
                   action has not been taken, other than audit reports on which a management decision was made within
                   the preceding year...”
Section 8(f)(1)    “information concerning the number and types of contract audits...”                                             86
                GLOBAL WAR ON TERROR




	       The Global War on Terror (GWOT) continues to be a priority of the Department of
Defense Office of Inspector General (DoD OIG).  Meeting the challenges of combating terrorism
and upholding our commitment to support the warfighter will continue to place stress on both
the OIG and the Department in regard to budgetary, manpower, and materiel resources.  Through
fiscal year (FY) 2006, Congress has appropriated a total of about $400 billion to DoD for the
GWOT.  Each dollar not prudently spent results in a dollar unavailable for GWOT priorities.  

	      The DoD OIG is supporting GWOT and the warfighter by conducting audits, inspections,
and investigations that seek to detect and prevent fraud, identify funds that can be used more
effectively, and improve the management of DoD programs.




                                                               
                                                               This chapter will provide information on
                                                               the GWOT-related oversight and operations
                                                               involving the following:

                                                             	        •  GWOT Highlights
                                                             	        •  DoD Office of the Inspector General
                                                             	        •  Army
                                                             	        •  Navy & Marine Corps
                                                             	        •  U.S. Air Force
                                                             	        •  Combatant Commands
                                                             	        •  Other DoD Elements




                                                       Department of Defense Office of the Inspector General 
Global War on Terror


               DoD OIG GWOT Highlights
    The DoD OIG is committed to supporting
    the GWOT and has established the following
    goals:

    •  Expand the DoD OIG presence in
    Southwest Asia to work on priority issues
    directly supporting efforts for Operation
    Enduring Freedom and Operation Iraqi
    Freedom.

    •  Increase coverage of DoD GWOT-related
    contracting, programs, and operations.

    •  Increase support to the Joint Terrorism Task
    Forces and increase Project Shield America
    activities.




    The DoD OIG is highlighting the following
    efforts made during this reporting period to
    support the GWOT:

    •  Defense Criminal Investigative Service
    work with Joint Terrorism Task Forces

    •  Support to DoD Mission Operations

    •  DoD OIG Oversight Community

    •  DoD OIG Qatar Auditing Field Office

    •  Training Iraqi IGs

    • Establishment of DoD OIG Hotline for
    Southwest Asia

    •  Southwest Asia Leadership Visits



 Semiannual Report to Congress
                                                                                           Global War on Terror


 Joint Terrorism Task Forces                                                         DCIS participates in Joint
                                                                                     Terrorism Task Forces in
 Supporting the                                                                      the following locations:


 Global War on Terrror                                                                • National Joint Terrorism
                                                                                     Task Force
                                                                                     • New York, NY
                                               	       DCIS special agents           • Buffalo, NY
                                               continue to effectively combat        • Boston, MA
                                               terrorism through a teamwork          • Philadelphia, PA
                                               approach with the Joint               • Harrisburg, PA
                                               Terrorism Task Forces ( JTTF)         • Springfield, MA
                                               throughout the United States.         • Raleigh, NC  
                                                                                     • Jacksonville, FL
                                               	       JTTFs,      considered        • Atlanta, GA
                                               the nation’s “Front Line” in          • Tampa, FL
                                               battling terrorism have been          • Nashville, TN
                                               instrumental     in   breaking        • Miami, FL
                                               up terrorist cells such as            • Pensacola, FL
                                               the “Portland Seven,” the             • St. Louis, MO
                                               “Lackawanna Six,” and the             • Chicago, IL
                                               Northern Virginia jihad.              • Cleveland, OH
                                                                                     • Columbus, OH
                                                                                     • Covington, KY
                                                                                     • Dayton, OH
     “DCIS  has 32 special agents assigned                                           • Indianapolis, IN
                                                                                     • Minneapolis, MN
  	     	      full-time to JTTFs . . .”                                             • Kansas City, KA
                                                                                     • Merrillville, IN
	      The JTTFs, comprised of small groups of highly trained, locally               • Albuquerque, NM
based investigators, analysts, linguists, and other specialists from U.S. law        • Dallas, TX
enforcement and intelligence                                                         • Denver, CO
agencies, allow agents to use all                                                    • Phoenix, AZ
means and methods available                                                          • Oklahoma City, OK
to investigate crimes, conduct                                                       • Long Beach, CA
threat assessments, and access                                                       • Portland, OR
JTTF information relating to                                                         • Seattle, WA
DoD operations, programs, and                                                        • Los Angeles, CA
personnel.                                                                           • San Diego, CA
                                                                                     • Santa Ana, CA
	      DCIS has 32 special                                                           • Norfolk, VA
agents assigned full-time to                                                         • Richmond, VA
JTTFs throughout the country                                                         • Washington, DC
and 18 agents who act as part-time                                                   • Charlottesville, VA
DoD representatives at their local
JTTFs.

                                                                Department of Defense Office of the Inspector General 
Global War on Terror

                                  	      The DoD OIG is providing intensive
                                  support to the GWOT along with the the
                                  Army, Navy, and Air Force audit agencies,
                                  criminal investigative organizations, and
                                  inspectors general; the combatant command
                                  inspectors general; and inspectors general in
                                  other Defense Agencies.   These offices are
                                  working together to provide comprehensive
                                  oversight of DoD operations.

                                  	      The oversight community must play
                                  a vital role in helping to skillfully improve
                                  efficiency and enhance the effectiveness of
                                  DoD mission operations.




        DoD Mission Operations




 Semiannual Report to Congress
                                                                                   Global War on Terror




    DoD Oversight Community
	      The DoD OIG along with the other services and agencies listed to the left are providing
comprehensive oversight of DoD operations involving the GWOT, a few examples are listed in
the following table:
    DoD GWOT Operations Oversight       Description
    Acquisition of Equipment            Projects examine body armor, small arms, and medium tactical
                                        vehicles.
    Logistics Issues                    Projects examine the equipment status of deployed forces, the
                                        management of prepositioned munitions, repairing High-Mobility
                                        Multipurpose Wheeled Vehicles, and the use of comericial trans-
                                        ports.
    Joint Terrorism Task Forces         Investigative support provided by the Defense Criminal
                                        Investigative Organizations.
    Counterintelligence Operations      Investigative support provided by the Defense Criminal
                                        Investigative Organizations.
    Readiness                           Projects include regular inspections of units, personnel, equipment,
                                        and training.
    Contract Oversight                  Projects include reviews of contracts for information operations,
                                        potable water, the Logisitics Civil Augmentation Program, and use
                                        of blanket purchase agreements.
    GWOT Funding                        Planned and ongoing projects examine the Iraq Security Forces
                                        Fund, funds for the military helath system, and funds for military
                                        construction.




                                                         Department of Defense Office of the Inspector General 
Global War on Terror



                            GWOT Initiative

  The
DoD OIG
Qatar Auditing
 Field Office
                                  Flag of Qatar (left).

                                  IG personnel at the Auditing
                                  Qatar Field Office (below).




                                                                       The Office of the Inspector
                                                                 General established  a new field office
                                                                 in Qatar co-located with the U.S.
                                                                 Central Command (CENTCOM).  

                                                                       The Auditing Field Office -
                                                                 Qatar, is staffed by as many as eight
                                                                 auditors at a time, rotating in and out
                                                                 of the area after tours of four to six
                                                                 months.  The Auditing Field Office -
                                                                 Qatar is responsible for performing
                                                                 audits and other reviews as required
                                                                 throughout the CENTCOM area
                                                                 of responsibility.

 Semiannual Report to Congress
                                                                                             Global War on Terror



     Support to the Global war on terror

              DoD OIG Provides Assistance to Iraqi IGs
                                                                	       As part of its effort in the GWOT, the
                                                                DoD OIG is helping the Iraqi people develop
                                                                their own inspector general system.  The Multi
                                                                National Security Transition Command -- Iraq
                                                                (MNSTC--I) requested the DoD OIG Policy
                                                                and Oversight, Inspections and Evaluations
                                                                (I&E) directorate to assist in mentoring and
                                                                training Iraqi federal and military inspectors
                                                                general in the concepts and functions of the
                                                                IG system.  As a measure of the success of the
                                                                training, MNSTC--I has requested additional
                                                                training assistance.    Below are summaries of
                                                                the two P&O-I&E projects to mentor and train
                                                                Iraqi federal and military inspectors general in
                                                                the roles of the Iraqi IGs in promoting rules of
                                                                law, anicorruption and human rights.


    DoD OIG Support to the Iraqi Ministry of                             Iraqi Anti-Corrpution &
     Defense, Office of the Inspector General                        Principled Governance Initiative

	        The DoD OIG has detailed a full-time evaluator     	       This new project supports the Department of
to the Multi-National Security Transition Command           State (DoS) initiative to provide advisory support to the
- Iraq (MNSTC-I) in Baghdad to support the Iraqi            entire Iraqi Anti-Corrpution system, which includes
Inspectors General for the Iraqi Security Forces (ISF),     the 29 ministerial Inspectors General, the Commission
consisting of the Ministries of Defense (MOD) and           on Public Integrity, the Board of Supreme Audit and
Interior (MOI).   Working with other MNSTC-I                the Central Criminal Court of Iraq.   The DoD IG
advisors, the DoD IG representative provides advice,        will participate in the DoS IG’s plan for interested
mentoring, assistance, and training to the MOD and          President’s Council on Integrity and Efficiency (PCIE)
MOI IGs.   Also, these advisors have begun detailed         members to send advisors to Iraq on a rotational basis.
planning to deliver interim training to the MOD IG
staff.  The training will fill an immediate need until an
Iraqi-operated educational institution for professional
deveopment is established.




     Support to the Global war on terror
                                                                   Department of Defense Office of the Inspector General 
Global War on Terror


                 DoD OIG Southwest Asia




                                                                                                  Support to the Global war on terror
                    Hotline Posters
      	     In an effort to increase the ability of our military, contractors, and civilians in
      the Southwest Asia region to report allegations of fraud, waste and abuse, the DoD
      OIG has established a special Hotline program and is distributing 10,000 posters.




                               r a u d,
                      o r t : F buse
                 Rep and A
                  a s te,
                 W

                        Defense Hotline
                            DSN: 312-664-1151
                                                         Protect the Total Force

                Military		 *		Contractors		 *		Civilians

                Contact the Department of Defense
                            Inspector General Hotline
            	      Email: hotline@dodig.mil 	                         www.dodig.mil/hotline




                                        Send written complaints to:
                                             Defense Hotline
                                              The Pentagon
                                        Washington, DC 20301-1900



 Semiannual Report to Congress
                                                                                       Global War on Terror



Southwest Asia Leadership Visits




                                                                                                        Support to the Global war on terror
  	       While visiting Southwest Asia in late April and early May 2006, during this
  reporting period, Acting DoD Inspector General, Thomas F. Gimble met with senior
  leaders to get their input and recommendations on how the DoD OIG could better
  service their commands.  Below are some of the senior leaders with whom he met.




Gen. George W. Casey,          Lt. Gen. Peter Chiarelli,     Brig. Gen. William A.
Commander,                     Commanding General,           Chambers is Deputy
Multi-National Forces Iraq     Multinational Corps Iraq      Commanding General,
                                                             Combined Forces Command
                                                             - Afghanistan, U.S. Central
                                                             Command, Kabul Afghanistan




Lt. Gen. Martin Dempsey,      Maj. Gen. James A. Kelly,
head of training for Iraqi    Deputy Commanding General
security forces               for Operations, 3rd Army

                                                            Department of Defense Office of the Inspector General 
Global War on Terror

Office of the Inspector                                      also focused on the oversight of funds and evaluation
                                                             of internal controls relating to humanitarian relief
General                                                      and reconstruction efforts as well as the diligent
                                                             execution of FY 2005 supplemental funds to equip
	       The DoD OIG is committed to providing the
                                                             and train the Iraq security forces.  Many of the
resources necessary to this oversight effort.  All four of
                                                             DoD OIG audits were initiated at Congress’ request
the major components of the DoD OIG – Auditing,
                                                             after issues were brought to their attention, such as,
Investigations, Policy and Oversight, and Intelligence  
                                                             water quality for U.S. forces in Southwest Asia, the
are actively involved in supporting GWOT.
                                                             procurement policies for armored vehicles, and the use
                                                             of contractors for dissemination of information within
Audit                                                        the local community population.  A brief overview of
                                                             each audit is listed as follows:
	        The DoD OIG currently has four auditors
deployed in the “Green Zone” in Baghdad, Iraq, and           Equipment Status of Deployed Forces:  The DoD
as many as eight in the DoD OIG’s auditing field             OIG is reviewing whether U.S. forces in Iraq and
office in Qatar, which became operational in March           Afghanistan are equipped in accordance with mission
2006.  The Qatar Field Office, collocated with the           requirements.  The DoD OIG is evaluating whether
United States Central Command (CENTCOM), is                  units were provided the required items of equipment
responsible for performing audits and other reviews          and whether equipment modifications satisfied
as required throughout the CENTCOM area of                   mission requirements.  A team of auditors visited
responsibility (AOR), which covers most of Southwest         Kuwait, Bahrain, Qatar, Afghanistan, and Iraq. The
Asia.                                                        report is expected to be published during the 2nd
                                                             Quarter of FY 2007.

                                                             Information Operations in Southwest Asia:  For
                                                             this congressionally requested audit, the DoD OIG
                                                             is looking at the role private contractors are playing
                                                             when conducting information operations activities.  
                                                             Specifically, the DoD OIG is reviewing the use of
                                                             private contractors, to include but not limited to, the
                                                             Lincoln Group in conducting information operations
                                                             activities.  In addition, the DoD OIG is reviewing
                                                             the authority under which information operations
                                                             activities were conducted, whether those activities
                                                             conformed to applicable laws and regulations, and
                                                             whether contracts were proper.  The report is expected
                                                             to be published during the 1st Quarter of FY 2007.

                    Iraq, the Green Zone.                    Commander’s Emergency Response Program:  
                                                             The Commander’s Emergency Response Program
                                                             (CERP) helps local commands in Iraq and
Ongoing Audits                                               Afghanistan respond to urgent humanitarian relief
                                                             and reconstruction requirements.  The DoD OIG
	       The DoD OIG has 16 ongoing GWOT-                     is evaluating management’s administration of the
related audit projects involving critical readiness issues   CERP program, and determining whether the internal
that directly impact the warfighter such as personal         controls set up for CERP in the Afghanistan AOR
and operational equipment readiness; the sustainability      ensure protection of DoD assets.  The DoD OIG
of small arms programs, and resetting ground vehicles        Southwest Asia field office is performing the audit.
within the U.S. Army commands.  The DoD OIG is
10 Semiannual Report to Congress
                                                                                            Global War on Terror
The report is expected to be published during the 1st      water ensures protection of U.S. forces in Iraq.  
Quarter of FY 2007.                                        The DoD OIG will determine if the processes for
                                                           providing potable and nonpotable water to U.S. forces
Management of the Iraq Security Forces Fund,               are adequate.  The DoD OIG Qatar Field Office is
Phase I: The DoD OIG is reviewing management of            performing the audit.  The report is expected to be
the Iraqi Security Forces Fund to determine whether        published during the 3rd Quarter of FY 2007.
the $5.7 billion provided in the FY 2005 supplemental
for equipping, facility and infrastructure repair,         Inspection Process of the Army Reset Program
renovation and construction, supplying, and training       for Ground Vehicles for Units Returning from
the Iraq security forces was used appropriately.  The      Operation Iraqi Freedom: The DoD OIG is
DoD OIG is also assessing whether transfers to other       examining the Army Reset Program for Ground
DoD appropriations followed congressional intent and       Vehicles of the units that return from Operation
applicable appropriation law.  The report is expected to   Iraqi Freedom to determine the effectiveness of the
be plublished during the 1st Quarter of FY 2007.           inspection process of the vehicles after their tour.
                                                           The audit team will visit units in Iraq during the 1st
                                                           Quarter of FY 2007.  The report is expected to be
     “All four of the major components                     published during the 4th Quarter of FY 2007.
of the DoD OIG are actively involved in
         supporting GWOT.”                                 Conditional Acceptance and Production of Army
                                                           Medium Tactical Vehicles in Support of the Global
                                                           War on Terror:  The DoD OIG is evaluating whether
Management of the Iraq Security Forces Fund—               the Army is adequately protecting the government’s
Phase II: During the second phase of the Iraq              interest when it includes conditional acceptance
Security Forces Fund audit, the DoD OIG is                 provisions in production contracts for the Family
examining the obligations of the funds made by the         of Medium Tactical Vehicle Program.  In addition,
Multi-National Security Transition Command-Iraq.           the DoD OIG is evaluating whether management
The team of auditors deployed to Qatar and Iraq            is cost-effectively producing the Family of Medium
during September 2006.  The report is expected to be       Tactical Vehicles as funded in support of the GWOT.
published during the 2nd Quarter of FY 2007.               The report is expected to be published during the 3rd
                                                           Quarter of FY 2007.
Joint Service Small Arms Program Related to the
Availability, Maintainability and Reliability of Small     DoD Use of Global War on Terror Supplemental
Arms to Support the Warfighter:  The DoD OIG               Funding Provided for Procurement and Research,
is evaluating the initiatives of the Joint Service Small   Development, Test, and Evaluation: The DoD OIG
Arms Program to support and sustain the warfighter         is evaluating the adequacy of DoD financial controls
in the current operating environment.  The DoD             over use of GWOT supplemental funding provided
OIG is specifically assessing availability of small arms   for procurement and research, development, test, and
for meeting current requirements as well as whether        evaluation. The DoD OIG is also determining whether
adequate control measures are in place that will ensure    the funds were placed on contracts and used for
maintainability and reliability of fielded small arms      purposes stipulated in the congressionally-approved
weapons. The report is expected to be published during     GWOT supplemental funding.  A series of reports are
the 1st Quarter of FY 2007.                                expected to be published beginning in the 3rd or 4th
                                                           Quarter of FY 2007.
Potable and Nonpotable Water in Iraq:  The DoD
OIG is conducting the congressionally requested
audit to evaluate the contractor’s water quality testing
processes for effectiveness and determine whether the
internal controls set up for providing safe nonpotable


                                                                  Department of Defense Office of the Inspector General 11
Global War on Terror

Internal Controls Over Out-Of-Country Payments:             expected to be published during the 3rd Quarter of FY
The DoD OIG is evaluating whether internal                  2007.
controls over out-of-country payments supporting
GWOT provide reasonable assurance that payments             Management of Prepositioned Munitions: The
are properly supported and recorded.  The report is         DoD OIG is evaluating management of prepositioned
expected to be published during the 3rd Quarter of FY       munitions in the U.S. European Command and,
2007.                                                       specifically, the impact that the DoD transformation
                                                            and the GWOT have had on the readiness of
Procurement Policy for Armored Vehicles: The                prepositioned munitions.  The report is expected to be
DoD OIG is conducting this audit in response to a           published during the 3rd Quarter of FY 2007.
congressional request to review DoD procurement
policies for armored vehicles.  The DoD OIG is              Antideficiency Act Investigation of the Operation
reviewing the procurement history for armored               and Maintenance Appropriation Accounts 2142020
vehicle contracts to Armor Holdings, Inc., and Force        and 2152020: The DoD OIG audit is based on an
Protection, Inc., in support of GWOT.  The report is        investigation requested by the Army Inspector General
expected to be published during the 3rd Quarter of          relating to funding and contracting actions associated
FY 2007.                                                    with the construction of internment facilities at
                                                            Camp Bucca, Iraq.  The DoD OIG is determining
U.S. Transportation Command Compliance with                 whether an Antideficiency Act Violation occurred in
DoD Policy on the Use of Commercial Transport:              Appropriation Accounts 2142020 and 2152020.  The
The DoD OIG is conducting this audit in response to         report is expected to be issued during the 1st Quarter
an allegation relating to the use of commercial sealift     of FY 2007.
services made to the Defense Hotline.  The DoD
OIG is determining whether U.S. Transportation              Audit Research on DoD Contracts Awarded to
Command is complying with DoD policy on the use             Parsons Corporation and its Subsidiaries:  The DoD
of commercial transport during wartime and whether          OIG announced this project on September 29, 2006.
those policies effectively provide optimal and cost         The DoD OIG will determine which DoD entities
effective logistics to the warfighter.  The report is       have contracted with Parsons Corporation, the scope




                                   Since the beginning of military action in Iraq, U.S. Army disbursement
                                   sites in Iraq, Kuwait, Saudi Arabia, and Egypt have made at least $10.7
                                   billion in payments to contractors and vendors in the Middle East. The
                                   records are stored in Rome, NY, and are being audited by the DoD OIG’s
                                   Defense Financial Auditing Service. The title of the audit is “Internal
                                   Controls over Out-of-Country Payments.”


12 Semiannual Report to Congress
                                                                                          Global War on Terror

of the work being contracted, and the amount of funds    Afghanistan, Iraq, and FMF funds transferred to the
under contract.  The information may be used to select   FMS Trust Fund are being properly reported in the
specific contracts for a more in depth review.           DoD financial statements.  The DoD OIG plans to
                                                         begin the audit during the 2nd Quarter of FY 2007.
Planned Audits
                                                         Department of the Navy Military Pay in Support
	       On September 27, 2006, the DoD OIG               of the Global War on Terror:  The DoD OIG will
issued its FY 2007 Audit Plan, which identifies nine     evaluate whether Department of the Navy (DoN)
planned GWOT-related audits.  The audits will            military payroll disbursed in support of GWOT
further answer congressional questions regarding         is paid in accordance with established laws and
procurement policies; evaluate requirements and          regulations.  The DoD OIG will also review DoD
training ranges for urban warfare training; and          Special Pay disbursements to determine whether the
focus on a wide-range of funding issues including        Marine Corps military personnel on active and reserve
the management of emergency supplemental funds,          duty status are paid accurately and timely.  The DoD
the transfer of appropriated funds into the Foreign      OIG plans to begin the audit during the 1st Quarter
Military Sales (FMS) program, and special military       of FY 2007.
pay disbursements.  A brief overview of each planned
audit is listed as follows:                            Global War on Terror Funding (Medical): The DoD
                                                       OIG will evaluate how the military health system
Procurement Policy for Body Armor:  The DoD OIG justified and used supplemental funds to support the
will conduct this audit in response to a congressional GWOT.  Specifically, the DoD OIG will determine
request.  The DoD OIG will review DoD procurement whether the military health system has implemented
policies for and efffectiveness of body armor acquired sufficient controls over the use of these funds as
and used in support of GWOT.  The DoD OIG plans directed by DoD guidelines.  The DoD OIG plans to
to begin the audit during the 1st Quarter of FY 2007. begin the audit during the 1st Quarter of FY 2007.

DoD’s Military Operations in Urban Terrain               Management of the Afghanistan Security Forces
(MOUT) Training:  The DoD OIG will evaluate              Fund: The DoD OIG will evaluate whether the
whether requirements and training ranges for urban       $1.285 billion provided for the Afghanistan Security
warfare training have been identified and whether they   Forces Fund in Public Law 109-13, “Emergency
are adequate to meet the current and future needs of     Supplemental Appropriations Act for Defense, the
U.S. land forces.  The DoD OIG plans to begin the        Global War on Terror, and Tsunami Relief, 2005,”
audit during the 1st Quarter of FY 2007.                 May 11, 2005, for FY 2005 and FY 2006 is managed
                                                         efficiently and effectively and whether the use of the
Afghanistan and Iraq Appropriated Funds Processed        funds complies with the legislative intent.  The DoD
Through the Security Assistance Program:  The            OIG plans to begin the audit during the 3rd Quarter
DoD OIG will determine whether the Afghanistan           of FY 2007.
and Iraq appropriated funds are being properly
managed.  Specifically, the OIG DoD will look at         Military Construction Funds Related to the Global
whether the transfer of the Afghanistan and Iraq         War on Terror:  The DoD OIG will determine
appropriated funds from the Army’s accounts into the     whether the military construction funds identified
FMS Trust Fund was properly authorized; whether          related to the GWOT were used for their intended
funds for the Foreign Military Financing (FMF)           purposes.  The DoD OIG plans to begin the audit
Program being used on the Afghanistan and Iraq           during the 2nd Quarter of FY 2007.
cases are being properly accounted for and being used
for their intended purpose; whether Afghanistan and      DoD Support to North Atlantic Treaty
Iraq appropriated funds are being properly accounted     Organization Transformation Efforts: The DoD
for and used for their intended purpose; and whether     OIG will evaluate DoD support of the North Atlantic

                                                                Department of Defense Office of the Inspector General 13
Global War on Terror

Treaty Organization’s transformation efforts to          	        DCIS currently has 37 active investigations
meet evolving security challenges and combat the         directly relating to Operation Enduring Freedom
GWOT.  Specifically, DoD OIG will evaluate DoD           (OEF) and Operation Iraqi Freedom (OIF).  Ten of
support to the North Atlantic Treaty Organization’s      these cases are being investigated in the Southwest
transformation in areas including, but not limited to,   Asia theater of operations.  The latter number
organization, training, materiel, and personnel.  The    will significantly increase as more agents arrive in
DoD OIG plans to begin the audit during the 1st          theater.  Current cases involve bribery, defective or
Quarter of FY 2007.                                      substandard products, labor mischarging, defective
                                                         pricing, kickbacks, false claims/false statements, illegal
Selected Appropriated Funds Processed through            technology transfer, theft (including explosives/
the Security Assistance Program: The DoD OIG             grenades/bombs), terrorism, conflict of interest, and
will determine whether selected appropriated funds       gratuities, and there are two projects focused on
processed through the Security Assistance Program        developing more procurement fraud and kickback
and the FMS Trust Fund are properly managed.             cases.  A total of 27 agents, representing every DCIS
Specifically, the DoD OIG will focus on whether the      field office, are engaged in these cases. 	
FMF Program, Counter Narcotics Programs, Global
Peace Operations Initiative, Coalition Solidarity, and   DCIS Investigations relating to Operation Enduring
Drawdown appropriated funds are properly accounted       Freedom and Operation Iraqi Freedom
for and used for their intended purpose.  The DoD                  Open Investigations on OEF/OIF
OIG plans to begin the audit during the 4th Quarter                                                            37
of FY 2007.                                                    Open Investigations in  Southwest Asia
                                                                                                               10
Investigations                                             DCIS Agents Assigned to OEF/OIF Investi-
                                                                           gations                             27
                                  	 On September
                                  22, 2006, the
                                                                    DCIS Agents in Southwest Asia*
                                  Defense Criminal
                                                                  (2 agents in Iraq / 2 agents in Kuwiat)       4
                                  Investigative
                                  Service (DCIS), the
                                                         *As of October 30, 2006
                                  investigative arm
                                  of the DoD OIG,
                                  reestablished its      	       DCIS special agents continue to effectively
                                  presence Iraq.  Two    combat terrorism through a teamwork approach with
                                  DCIS special agents    the Joint Terrorism Task Force ( JTTF) throughout
                                  are now collocated     the United States.  In addition to the traditional work
with the U.S. Army Criminal Investigation Command        of ensuring U.S. warfighters have the best and safest
(CID) office at Camp Victory near the Baghdad            equipment available to accomplish their mission,
Airport.  Two more DCIS special agents are scheduled     DCIS special agents work with federal, state, and local
to deploy to Kuwait in the fall 2006, where they will    law enforcement agencies, other Defense Criminal
support investigative operations in Southwest Asia and   Investigative Organizations (DCIOs), such as, the
elsewhere.  A total of 17 DCIS special agents served     U.S. Army CID, the Naval Criminal Investigative
in Iraq from May 2003 to October 2004.  One of           Service (NCIS), and the U.S. Air Force Office of
those special agents was wounded and later received      Special Investigations (OSI) –  and the intelligence
the Secretary of Defense Medal for the Defense of        units that comprise the JTTFs, to ensure terrorism
Freedom.                                                 information is shared and investigations are completed
                                                         in a thorough and timely manner.




14 Semiannual Report to Congress
                                                                                         Global War on Terror

	        The four DCIOs provide investigative support   Homeland Security, the Defense Intelligence Agency,
to the GWOT.  A cadre of DCIO special agents            and the DoD Counterintelligence Field Activity,
are assigned to Federal Bureau of Investigation-        who are involved in the GWOT.  Additionally, DCIS
led JTTFs, located throughout the country.  The         special agents investigate Iraq-related criminal activity
JTTFs, comprised of small groups of highly trained,     and participate in task force investigations focusing
locally based investigators, analysts, linguists, and   on public corruption and fraud in the Southwest Asia
other specialists from U.S. law enforcement and         Theater.  In September 2006, DCIS agents began
intelligence agencies, allow agents to use all means    six-month details in Kuwait and Iraq to conduct
and methods available to investigate crimes, conduct    investigations in support of DoD operations in the
threat assessments, and access JTTF information         Southwest Asia Theater.  Investigations will primarily
relating to DoD operations, programs, and personnel.    involve procurement fraud and public corruption.
For example, DCIS currently has 32 special agents
assigned full-time to JTTFs throughout the
country and 18 agents who act as part-time DoD
representatives at their local JTTFs.  These agents
                                                                “Two DCIS special agents are now
investigate DoD-related leads, gather evidence, make        collocated with the U.S. Army Criminal
arrests, provide security for DoD-related special           Investigation Command office at Camp
events, conduct training, collect and share DoD-
related criminal information, and respond to threats          Victory near the Baghdad Airport.”
and incidents related to the DoD.  Special agents
ensure that issues that potentially impact the safety
                                                        Intelligence
of DoD employees or interfere with the operations
or administration of DoD programs are adequately
                                                        	        The DoD OIG’s Office of Intelligence has
investigated.  JTTFs, considered the nation’s “front
                                                        completed and is conducting several reviews of high-
line” in battling terrorism, have been instrumental
                                                        profile issues related to the GWOT.  These include:
in breaking up terrorist cells such as the “Portland
Seven,” the “Lackawanna Six,” and the Northern
                                                        Review of DoD-Directed Investigations of
Virginia jihad.
                                                        Detainee Abuse:  On August 25, 2006, the DoD
	
                                                        OIG published a report on the review to monitor
	        DCIS also shares information on a regular
                                                        allegations of detainee and prisoner abuse.  The review
basis with other federal law enforcement and
                                                        revealed that allegations of detainee abuse were not
intelligence agencies, such as the Department of
                                                        consistently reported, investigated, or managed in an
                                                        effective, systematic, and timely manner; interrogation
                                                        support in Iraq lacked unity of command and unity of
                                                        effort; and counterresistance interrogation techniques
                                                        migrated to Iraq, in part, because operations personnel
                                                        believed that traditional interrogation techniques
                                                        were no longer effective for all detainees.  The Army
                                                        G-2 concurred with the report, with comments and
                                                        the Director, Joint Staff noncurred with the findings
                                                        and recommendations pending release of other DoD
                                                        Directives on the subject.  Written comments are
                                                        still requested from the Secretary of Defense, the
                                                        Under Secretary of Defense for Intelligence and the
                                                        Commander, Joint Forces Command.


                  DCIS Agents in Iraq.

                                                               Department of Defense Office of the Inspector General 15
Global War on Terror

Report on Review of Testimony to the National              Carl Levin, Ranking Member, Senate Armed Services
Commission on Terrorist Attacks Upon the United            Committee.  The objective is to determine whether
States:  On September 12, 2006, the DoD OIG                personnel assigned to the Office of Special Plans
published a report resulting from a joint review with      from September 2002 through June 2003 conducted
the Department of Transportation OIG based on              unauthorized, unlawful, or inappropriate intelligence
allegations made by the National Commission on             activities.  The report is expected to be published
Terrorist Attacks Upon the U.S. that DoD and Federal       during the 2nd Quarter of FY 2007.
Aviation Administration officials at a Commission
hearing made certain statements knowing them to be         U.S. Government’s Relationship with the Iraqi
false.  The review did not substantiate that statements    National Congress: The DoD OIG is performing an
to the Commission were intentionally false, but did        evaluation of the U.S. Government’s Relationship with
conclude that DoD reported inaccurate information          the Iraqi National Congress in response to direction
on the air defense response to the September 11, 2001      from the House Appropriations Committee through
hijackings.                                                                           the Office of the National
                                                                                       Counterintelligence
Investigation into                                                                     Executive.  On June 12,
Alleged Misconduct by                                                                  2006, the DoD OIG
Senior DoD Officials                                                                   published a report on
Concerning the Able                                                                    Phase One of the project.  
Danger Program and                                                                     The report on Phase Two
Lieutenant Colonel                                                                     is expected to be published
Anthony A. Shaffer,                                                                    during the 2nd Quarter of
U.S. Army Reserve:                                                                     FY 2007.
On September 18,
2006, the DoD OIG                                                                       Review of Congressional
published a report                                                                      Concerns Regarding
addressing allegations                                                                  the Rendon Group:  The
that Senior DoD officials                                                               DoD OIG is performing
mismanaged a DoD                           Sword Arch in Baghdad, Iraq.                 an audit regarding the
antiterrorist program, known                                                     Rendon Group as requested
as “Able Danger” and that                                                        by Representative Walter
in doing so, sought to end the military and civilian      Jones.  The overall objective is to assess the activities
career of a key proponent of Able Danger, Lieutenant      undertaken by the Rendon Group for DoD from FY
Colonel Anthony A. Shaffer, a member of the U.S.          2000 to FY 2005.  Specifically, the audit will examine
Army Reserve, who also held a civilian position as a      the contracts between the Rendon Group and the
Senior Intelligence Officer in the Defense Intelligence DoD to determine whether the activities involved in
Agency.  The report addressed nine allegations raised     these contracts complied with DoD policy and legal
by the members of Congress including assertions           requirements.  The report is expected to be published
that the Able Danger Team identified Mohammed             during the 2nd Quarter of FY 2007.
Atta and other 9/11 highjackers before 9/11 but were
prevented from sharing that information with law          Policy and Oversight
enforcement agencies.  The nine allegations were not
substantiated.                                            	       The DoD IG’s Office of Policy and Oversight
                                                          has played a key role in ongoing efforts in Southwest
Office of Special Plans:  The DoD OIG is                  Asia to develop and promote the establishment of
performing an evaluation of the Office of Special         effective oversight and security organizations in
Plans as requested by Senator Pat Roberts, Chairman, Afghanistan and Iraq.  Some of these projects have
Senate Select Committee on Intelligence and Senator been conducted jointly with the Department of

16 Semiannual Report to Congress
                                                                                          Global War on Terror
State (DoS) and have provided critical assessments
and detailed recommendations aimed at helping the
fledgling democracies in those countries to counter
crime, corruption and other threats to include
terrorism.  Here are summaries of those projects.

Follow-up Evaluation of the Department of State/
Department of Defense Interagency Assessment
of Iraq Police Training Program Report: On July
15, 2005, the Inspectors General of the Department
of State and Department of Defense published
an Interagency Assessment of the Iraq Police
Training Program.  DoD is responsible for 21
recommendations, DoS for 7, and DoD and DoS have
a shared responsibility for 2.  The follow-up process                   Police training in Afghanistan.
concluded that 15 of the 21 DoD recommendations
have been implemented, 5 more were being                 comments and the final report is scheduled for release
implemented, and 1 is deferred.  The implemented         in November of 2006.
recommendations are improving the overall quality
of the program.  For example, basic training courses     Interagency Assessment of the Counter Narcotics
are expanded and advanced training programs have         Program in Afghanistan: In September 2006, the
been institutionalized.  Other improvements include      Inspectors General of the Department of State and
transfer of recruiting and vetting responsibilities to   Department of Defense initiated an interagency
the Ministry of Interior, improved administrative        assessment of the U.S. Government (USG)-funded
processes and procedures, selection policies             counter narcotics program in Afghanistan.  The
for officer training, and implementation of a            Offices of the Inspectors General for the Department
Readiness Reporting System.  One of the shared           of Justice and the U.S. Agency for International
recommendations requiring centralized administrative     Development are also contributing resources to this
procedures and development of standard operating         evaluation.  The team is using the U.S. Government’s
procedures has been implemented, while the second        Five Pillar Strategy for the Afghanistan Counter
shared recommendation is deferred until a new            Narcotics Program as a framework for this assessment
National Security Presidential Directive (NSPD)          and is specifically examining the following areas:
replaces NSPD-36, “United States Government
Operations in Iraq.” 	                                   • Concept, conduct, and management of the USG-      
                                                            funded counter narcotics program in Afghanistan.
Department of State/Department of Defense                • Organization, coordination, and direction of   
Interagency Assessment of Afghanistan Police                interagency participation.
Training: In May 2006, the Inspectors General            • Effectiveness of Embassy Kabul’s policy direction.
of the Department of State and Department of             • Interaction with the Afghan government on counter 	
Defense initiated an interagency assessment of              narcotics issues.
the U.S. Government-funded programs to train             • Impact, effectiveness, and prospects of counter
and equip the Afghanistan National Police. The              narcotics actions and programs.
assessment also examined police recruiting and vetting   • Contract management and internal controls over
programs, sustaining institutions and organizations,        financial, physical, and personnel resources.
roles and responsibilities, oversight and internal
control mechanisms, security challenges, interagency     	      The final report is scheduled for release in
collaboration and cooperation indicators, and support    January 2007.
contracts.  The draft report is out for management


                                                                Department of Defense Office of the Inspector General 17
Global War on Terror
DoD OIG Support to the Iraqi Ministry of Defense,
Office of the Inspector General: The DoD OIG has
detailed a full-time evaluator to the Multi-National
Security Transition Command-Iraq (MNSTC-I) in
Baghdad to support the Iraqi Ministry of Defense
(MoD), OIG.  Working with other MNSTC-I
advisors, the DoD OIG representative provides advice,
mentoring, assistance, and training to the MoD IG.
The MNSTC-I advisory team has helped the Iraqis
establish policies and procedures for such areas as
(1) inspections of detainee facilities to curb detainee
abuses, (2) document control to ensure classified
documents are properly protected, (3) transparent
acquisition and procurement practices, (4) and
establishment of a military (uniformed) inspector
general system for the Joint Headquarters and all three
services.  The advisors also participate in inspections,
investigations, and audits to oversee and advise the
OIG staff, and to provide opportunities for on-the-job
training for Iraqi staff members.  Finally, the advisors
have begun detailed planning to deliver interim
training to the MoD OIG staff, training that will fill
an immediate need until an Iraqi-operated educational
institution for professional development is established.

Iraqi Anti-Corruption & Principled Governance
Initiative: The DoD OIG is supporting the DoS
OIG initiative to provide advisory support to the
entire Iraqi Anti-Corruption system, which includes
the 29 ministerial Inspectors General, the Commission
on Public Integrity, the Board of Supreme Audit
and the Central Criminal Court of Iraq.  The DoD
OIG will provide advisors who will deploy to Iraq
on a rotational basis and maintain a support cell at
Headquarters, Washington D.C.




pPhotos to the right show the following:

1 Members of ANPP Evaluation Team prepare to visit
Afghanistan National Police Training site in Kandahar.
2 DoD Acting Inspector General, Thomas F. Gimble with
OIG employees at Sather Air Base, Baghdad, Iraq.
3 OIG personnel flying from Camp Victory to Baghdad Inter-
national Zone on a Blackhawk helicopter.
4 Inspections and Evaluations team members at the Tomb of
the Unknown Soldier in Baghdad.




18 Semiannual Report to Congress
                                                                                           Global War on Terror

                Department of Defense Inspector General
                                    Iraq Projects — Ongoing
Audit Projects
                                                       Date
                  Project Title                                  Functional Area         Magnitude/Scope         Staff
                                                      Started
 Hiring Practices of the Coalition Provisional Au-                                      Estimated 1,250 em-
                                                     23-Oct-06    Human Capital                                     6
     thority in Iraq (D2007-D000LC-0051).                                               ployees in CPA staff

 Audit Research on DoD Contracts Awarded to
                                                                    Contract
Parsons Corporation and its Subsidiaries (D2006-     29-Sep-06                                  TBD                 5
                                                                  Administration
               D000CK-0273).  

  Antideficiency Act Investigation of the Opera-                                        6 contracts valued at
                                                                    Financial
  tion and Maintenance Appropriation Accounts        31-Aug-06                           approximately $30
                                                                   Management                                       7
 2142020 and 2152020 (D2005-D000FD-0300).                                                     million

                                                                 Maintenance and         About $25 Billion
 Inspection Process of the Army Reset Program                    Repair of Equip-       (Army/Marines) for
 for Ground Vehicles for Units Returning from 30-Aug-06          ment and Rebuild       FY 06 and about $20
                                                                                                                    6
Operation Iraqi Freedom D2006-D000LH-0246).                      and Overhaul of        Billion per year after
                                                                   Equipment                   FY 06

 U.S. Transportation Command Compliance with
 DoD Policy on the Use of Commercial Transport       28-Aug-06    Transportation                TBD
                                                                                                                    7
            (D2006-D000AB-0236).  

 Potable and Nonpotable Water in Iraq (D2006-                       Contract
                                                     25-Aug-06                                  TBD
               D000LQ-0254).                                      Administration                                    5

                                                                                          $5.7 Billion (P.L.
 Management of the Iraq Security Forces Fund—                       Financial            109-13 Emergency
                                                     21-Aug-06
      Phase II (D2006-D000LQ-0240).                                Management           Supplemental Appro-         9
                                                                                            priation Act)

    Management of Prepositioned Munitions
                                                     7-Aug-06        Readiness                  TBD
          (D2006-D000LA-0251).                                                                                      7

                                                                 Financial Manage-
  DoD Use of Global War on Terrorism Supple-                     ment; Procurement
                                                                                         577 Supplemental
  mental Funding Provided for Procurement and                      – Research and
                                                     7-Aug-06                            Line items totaling
  Research, Development, Test, and Evaluation                    Development; and                                  11
                                                                                            $28.7 Billion
           (D2006-D000AE-0241).                                  Contract Adminis-
                                                                       tration




                                                                 Department of Defense Office of the Inspector General 19
Global War on Terror

                                                                                      Of the $17.2 Billion
 Conditional Acceptance and Production of Army
                                                                  Major Systems Ac-    procurement, $2.5
 Medium Tactical Vehicles in Support of the Glob-     24-Jul-06
                                                                      quisition        Billion came from        10
  al War on Terrorism (D2006-D000AE-0225).  
                                                                                      GWOT supplemental

     Procurement Policy for Armored Vehicles                                          14 Contracts totaling
                                                      22-May-06      Procurement
            (D2006-D000CK-0210).                                                       about $1.6 Billion       9

                                                                                         Of the 183,486
                                                                                        vouchers totaling
   Internal Controls Over Out-Of-Country Pay-                         Financial        about $10.7 Billion,
                                                      15-May-06
          ments (D2006-D000FL-0208).                                 Management        we are sampling 789      9
                                                                                        vouchers totaling
                                                                                        about $3.5 Billion

                                                                                        $5.7 Billion (P.L.
  Management of the Iraq Security Forces Fund—                        Financial        109-13 Emergency
                                                      3-May-06
          Phase I (D2006LQ-0184).                                    Management       Supplemental Appro-       7
                                                                                          priation Act)

                                                                                      3 Contracts with total
     Information Operations in Southwest Asia                        Information
                                                      7-Feb-06                         value of  $37.4 Mil-
             (D2006-D000LA-0139).                                     Operations                                8
                                                                                                lion

                                                                                        Interviewed about
  Equipment Status of Deployed Forces (D2006-                                          1,100 Service mem-
                                                      17-Nov-05   Forces Management
               D000LA-0092).                                                          bers and reviewed the     7
                                                                                        equipping process

                                                                                     DoD uses 33 types of
                                                                                      small arms.  During
                                                                                     October 2003 through  
 Joint Service Small Arms Program Related to the                  Forces Management
                                                                                        September 2005,
   Availability, Maintainability and Reliability of               and  & Maintenance
                                                      29-Jun-05                        1,852 Army Units
  Small Arms to Support the Warfighter (D2005-                       and Repair of                              10
                                                                                      deployed supporting
                  D000LH-0232).                                        Equipment
                                                                                     Operation Iraqi Free-
                                                                                      dom and Operation
                                                                                      Enduring Freedom.

*Assigned to ongoing audit projects are 101 individuals; some are assigned to multiple projects.

Policy and Oversight Projects
                                                        Date
                    Project Title                                  Functional Area     Magnitude/Scope         Staff
                                                       Started
                                                                                       Affects all wounded/
  DoD/VA Interagency  Care Transition (D2006-                                         injured troops return-
                                                      2-Aug-06
             DIP0E2-0245.000)                                        Health Care       ing from OIF/OEF.        11
                                                                                      20,000 troops to date.



20 Semiannual Report to Congress
                                                                                           Global War on Terror

                                                                                        Building capacity for
  Interagency Iraqi Anti-Corruption Initiative                                         29 Iraqi ministries and
                                                   23-Aug-06           Other
          (D2006-DIP0E3-0256.000)                                                      entire anti-corruption       2
                                                                                               system.

                                                                                            Approximately
Follow-Up on the DoS/DoD Interagency Assess-
                                                   17-Feb-06           Other             135,000 members of         2
         ment of Iraq Police Training
                                                                                        the Iraq police service.
                                                                                         Building institutional
Support to Iraqi Security Force (MOD and MOI)
                                                   15-Jul-05           Other              capacity for 2 Iraqi
      OIGs (D2006-DIP0E3-0038.000)                                                                                  6
                                                                                              ministries.




Intelligence Projects

                                                     Date
                 Project Title                                   Functional Area         Magnitude/Scope           Staff
                                                    Started
                                                                                          Activities between
Government Relationship with the Iraqi National                  Intelligence and
                                                   14-Feb-05                              January 2002 and
                  Congress                                           Security                                       4
                                                                                           December 2004

                                                                                         Activities between
                                                                 Intelligence and
             Office of Special Plans               16-Nov-05                            September 2002 and          5
                                                                     Security
                                                                                             June 2003

                                                                 Intelligence and         All DoD Rendon
            Rendon Group Review                    9-Feb-06
                                                                     Security                 Contracts             3




               Department of Defense Inspector General
                                       Iraq Projects — Planned

Audit Projects
                                                    Planned
                  Project Title                                   Functional Area         Magnitude/Scope           Staff
                                                   Start Date
       Procurement Policy for Body Armor.          1st Quarter      Procurement                   TBD
                                                                                                                     6
                                                    FY 2007
   DoD’s Military Operations in Urban Terrain                                            87 Urban Operations
                                                   1st Quarter   Forces Management
   (MOUT) Training (2007-D000LH-0115).                                                      Training Sites           6
                                                    FY 2007

  Afghanistan and Iraq Appropriated Funds Pro-
                                                                 Security Assistance
  cessed Through the Security Assistance Program   2nd Quarter                                    TBD
                                                                      Program                                        5
              (2007-D000FD-0041).                   FY 2007



                                                                 Department of Defense Office of the Inspector General 21
Global War on Terror

                                                                                         Estimated FY 2007
                                                                                          Marine Corps Ac-
                                                                                          tive duty personnel
                                                                                        175,000; Reserve duty
                                                                                           personnel 39,600;
                                                                  Military Pay           Estimated FY 2007
 Department of the Navy Military Pay in Support
                                                                  and Benefits           Military Personnel-
 of the Global War on Terrorism (2007-D000FC-     1st Quarter
                                                                  and Financial           Marine Corps ap-                      5
                     0051).                        FY 2007
                                                                  Management            propriation (17-1105)
                                                                                         $9.3 Billion; Reserve
                                                                                          Personnel-Marine
                                                                                         Corps appropriation
                                                                                           (17-1108) $550.9
                                                                                                Million

                                                                                        Approx. $1.15 Billion
                                                                                         in Supplemental for
   Global War on Terrorism Funding (Medical).     1st Quarter      Health Care           FY 06.  Researching
                                                                                                                                7
                                                   FY 2007                              other funding used for
                                                                                           medical support

                                                                                          $2  Billion in funds
   Military Construction Funds Related to the                       Military              identified as MIL-
                                               2nd Quarter
 Global War on Terrorism (2007-D000CK-0117).                      Construction            CON for Iraq/Af-                      5
                                                FY 2007
                                                                                               ghanistan

  Selected Appropriated Funds Processed through                 Security Assistance
                                                  4th Quarter                            Approx. $500 Million                   6
          the Security Assistance Program.                           Program
                                                   FY 2007

Intelligence Projects
                                                    Date
                    Project Title                               Functional Area           Magnitude/Scope                 Staff
                                                   Started
  Intelligence Support to CENTCOM and US
                                              January 2007       Intelligence and            CENTCOM,
 Special Operations Command in Operations En-
                                               (Estimate)            Security              SOCOM & DoD                          7
  during Freedom and Iraqi Freedom (Planned)
                                                                                         Intelligence Activities




                                                                                  A Marine assigned to the DoD OIG travels to
                                                                                        Southwest Asia aboard a C-130




22 Semiannual Report to Congress
                                                                                          Global War on Terror

U.S. Army                                                owned operational rations it destroyed.  In addition,
                                                         the government did not ensure that rations Army
                                                         veterinarians recommended for destruction were
                                                         destroyed in a timely manner or that expired products
                                                         were removed from the prime vendor’s warehouse,
                                                         both of which resulted in excess storage fees. The
                                                         government also shipped operational rations with
                                                         inadequate shelf life to Kuwait to replenish stock in
                                                         theater and maintained excess inventory of operational
                                                         rations at the prime vendor’s warehouse which exceeds
                                                         the Army’s safety stock level of 3 months.

                                                         Cost-Effectiveness of Transitioning Task Order
                                                         66—Kuwait Naval Base Camp Support From
                                                         Contingency to Sustainment Contracting,
                                                         LOGCAP Operations in Support of Operation
                                                         Iraqi Freedom – Phase II (Kuwait): AAA evaluated
                                                         the cost-effectiveness of the transition of requirements
                                                         to sustainment contracting from the LOGCAP task
                                                         order 66 supporting the Kuwait Naval Base Camp.
                                                         AAA conducted this audit as part of its multilocation
                                                         audit of LOGCAP Operations in Support of
                                                         Operation Iraqi Freedom. It performed the audit
                                                         at the request of the Commander, Coalition Forces
                                                         Land Component Command. The transition of work
                                                         was not cost-effective.  The AAA analysis of selected
Army Audit Agency                                        requirements that transitioned showed that these
                                                         requirements cost the Army over $4.9 million more
	       For the 6-month period that ended on             than costs under the contingency contract.
September 30, 2006, the Army Audit Agency (AAA)
had 31 auditors working on audits of GWOT-               	      AAA continued to provide audit support with
related Army missions. In particular, AAA provided       three ongoing audits in support of Operation Iraqi
audit support for Operation Iraqi Freedom and as of      Freedom:
September 30, 2006, AAA had 10 auditors working in
the area of operation, 6 in Iraq at Camp Victory and 4
in Kuwait at Camp Arifjan.  During the
6-month reporting peiod, AAA published nine reports
including the following:

Subsistence Prime Vendor Contract, Logistics Civil
Augmentation Program (LOGCAP) Operations
in Support of Operation Iraqi Freedom: AAA
reported the bulk storage warehouse for subsistence
items under the prime vendor contract to dining
facilities the LOGCAP contractor operates did not
have an inventory location identification system
for providing inventory locations to the Warehouse
Management System.  The prime vendor did not
maintain an adequate audit trail for the government-
                                                                Department of Defense Office of the Inspector General 23
Global War on Terror

Logistics Civil Augmentation Program (LOGCAP): States.  CID agents ensure that vital Army law
AAA is evaluating the adequacy of LOGCAP                 enforcement information and sources are fused with
throughout the Iraq area of operation.                   other intelligence to provide a comprehensive picture
                                                         of the domestic terrorist threats. CID agents assist
Retrograde Operations in Southwest Asia: AAA is          the FBI and other agencies in the conduct of criminal
evaluating the retrograde and redistribution of military investigations against terrorist targets to eliminate
property resulting from restructuring military forces    their threat to DoD assets and resources.
and the attendant contractor support.
                                                         	       Army CID, along with NCIS and OSI,
Procedures for Managing Overage Reparable Items actively participates on the Criminal Investigation
Lists in the High-Mobility Multipurpose Wheeled          Task Force (CITF), a joint enterprise of criminal
Vehicle (HMMWV) Refurbishment Program:                   investigators, attorneys, and support personnel whose
AAA is evaluating the contractor’s management            major task is to investigate war crimes and develop
of repair parts at the Tactical Wheeled Vehicle          prosecutable trial reports against terrorist suspects held
Refurbishment Center in Kuwait.                          at Guantanamo Bay Cuba.  The Army’s CID provides
                                                         leadership to the task force, with a deputy from
Army Criminal Investigation                              NCIS.  CITF agents in Iraq are actively supporting
Command                                                  the Central Criminal Court of Iraq by investigating
                                                         and assisting in the prosecution of terrorists under
                                 	          U.S. Army    the Iraqi judicial system.  There have been over
                                 Criminal Investigation 106 successful prosecutions, 4 of which resulted in
                                 Command (CID)           death sentences and 51 resulted in life confinement
                                 agents and support      sentences.
                                personnel are providing
                                crucial investigative,    	        Similarly, the CID has joined with U.S.
                                intelligence and          Army military intelligence community in closing
                                protective services       gaps and seams that existed between foreign and
                                to the U.S. Army          counterintelligence information and law enforcement
                                personnel and assets      and domestic intelligence.  In order to further bolster
worldwide in support of the GWOT.  Over 120               the integration of law enforcement information into
agents, currently deployed to Iraq, Afghanistan, and      the fight against terrorism, CID is expanding its
elsewhere in the world in support of the GWOT and         criminal intelligence capabilities to better provide
the U.S. Army, are committed to that mission.             commanders with the force protection information
                                                          they need to protect and defend the personnel and
	        Almost 95 percent of all reserve CID soldiers    vital assets under their commands.
– over 330 – as well as about 75 percent or 600 of
all active duty CID soldiers in the field have been       	        As an outgrowth of the need to better fuse
deployed since 9/11.  These agents have conducted         criminal intelligence with foreign intelligence, CID
sensitive site exploitations of suspected terrorist       has joined DoD’s Joint Improvised Explosive Device
habitations in Afghanistan and Iraq, have investigated    (IED) Defeat Organization to combat the threat
and interviewed suspected terrorists in preparation       IEDs pose to coalition forces in Iraq and Afghanistan,
of judicial proceedings, and collected and preserved      to identify the perpetrators, the manufacturing points,
evidence to help ensure successful prosecutions.          the supply routes, and the financing used to fund these
                                                          efforts.  The CID criminal intelligence efforts will be
	       CID agents have also joined with other            similar to those used to combat organized crime.
federal and DoD agencies in supporting the Federal
Bureau of Investigation’s (FBI) regional and national
JTTFs, to combat terrorism in the continental United

24 Semiannual Report to Congress
                                                                                            Global War on Terror

	      Because of the increased threat from terrorists,    chemical surety agents; and Army schools using
the number of DoD officials being protected by the         Army-provided chemical surety materials to train
CID, in the United States and abroad, has almost           soldiers.  The division conducted 2 biological and 10
doubled.  Further, because of the need for increased       chemical surety inspections.
and more in-depth protection, protective service
personnel assigned to the various principals has           Navy and Marine Corps
dramatically increased.  These protective service
agents perform a vital mission in safeguarding those
DoD leaders who are directing the GWOT, from the
Pentagon to field commands in Afghanistan and Iraq.

Army Inspector General

	      The U. S. Army Inspector General Agency
(USAIGA) has conducted numerous inspections in
support of GWOT as follows:

•  USAIGA conducted two inspections on Detainee
Operations, visiting 14 CONUS and 16 OCONUS
locations and interviewing in excess 1,000 soldiers
involved in detainee operations.  Additionally,
USAIGA conducted inspections on the Army’s
Physical Disability Evaluation System and a
special Inspection on Deployment Mental Health             Naval Audit Service
Screening.  Both of these inspections are ongoing
and focus primarily on soldier health issues to            	       The Naval Audit Service (NAS) supports
include compliance with DoD and Army policies,             GWOT goals for the DoN.  It does that by auditing
the execution of the Medical Hold System, the              selected policies, procedures, and activities to assure
impact of other administrative areas on the Army           they achieve the stated objectives and maximize
Physical Disability Evaluation System, the Army            efficiencies.  The Naval Inspector General publishes
Suicide Prevention Program, soldier awareness of and       a DoN Risk Assessment each year.  NAS includes in
willingness to use Army Mental Health programs,            its audit plan topics based on the risks and areas of
and Command Mental Health Evaluation referral              vulnerability identified in the risk assessment with
processes.                                                 respect to GWOT.

•  The USAIGA Technical Inspections Division               	       In the past few years, NAS audited Emergency
conducts inspections of the Army’s Nuclear, Biological,    Action/Continuity of Operations Planning in the
and Chemical Surety programs.  The purpose of              intelligence community, fund control in classified
these inspections is to ensure facilities are complying    programs, oversight of intelligence, compartmented
with stringent safety and security requirements and        programs, sensitive activities, and controls over
that the employees working therein meet the highest        communication security equipment. In addition to
standards of personnel reliability. Facilities inspected   those audits, NAS is conducting a series of audits on
include the Army’s nuclear reactor; government and         antiterrorism and force protection as well as auditing
civilian laboratories working with DoD-provided            intelligence related contracting and classified financial
biological select agents and toxins; munitions storage     reporting.
depots; chemical weapons demilitarization facilities;
government and civilian laboratories performing
chemical defense research with DoD-provided

                                                                  Department of Defense Office of the Inspector General 25
Global War on Terror

Naval Criminal Investigative                                 •  Nine special agents supported the specially created
Service                                                      Joint Criminal Investigations Task Force – High
                                      	   The Naval          Value Individuals ( JIATF – HVI) – Iraq, comprised
                                 Criminal Investigative      of agents from the FBI, Bureau of Alcohol, Tobacco,
                                 Service (NCIS), through     and Firearms, Drug Enforcement Administration
                                 its Combating Terrorism     (DEA), Air Force Office of Special Investigations,
                                 Directorate, directs        the Department of Homeland Security, and the
                                 its support for efforts     U.S. Marine Corps Criminal Investigation Division.  
                                 aimed at detecting,         The JIATF- HVI collects case facts and evidence
                                 deterring, and disrupting   on individuals deemed as high value targets so this
                                 terrorism against the       information can be utilized for prosecution of those
                                 DoN personnel and           individuals by the Central Criminal Court of Iraq.
                                 assets worldwide. The
Combating Terrorism Directorate brings a wide array          •  Twelve NCIS special agents deployed with Navy
of offensive and defensive capabilities to the mission of    Special Warfare (SPECWAR) Units within the
combating terrorism.  Offensively (counterterrorism),        Iraqi theater of operations where they provided
NCIS conducts investigations and operations aimed            assistance with sensitive site exploitations, collection
at interdicting terrorist activities.  Defensively           of evidence, interrogations of detainees, and other
(antiterrorism), NCIS supports key DoN leaders               counterintelligence related matters.
with protective services and performs vulnerability
assessments of military installations and related
facilities—including ports, airfields, and exercise areas
to which naval expeditionary forces deploy.

	      NCIS special agents have deployed around
the globe to support counterterrorism efforts.  For
instance, during this reporting period:

•  Twenty-one special agents supported Strategic
Counterintelligence Directorate – Afghanistan,
conducting operational and strategic
Counterintelligence (CI) missions and providing CI
support to unified and specified commands within
that area of operation.

•  Thirty-nine special agents supported the Strategic
Counterintelligence Directorate – Iraq, fulfilling
                                                               NCIS special agents in Haditha, Iraq, as part of an
operational and strategic CI requirements and                  investigation.
providing CI support to the unified and specified
commands within that area of operation.
                                                         •  Seventy special agents conducted GWOT support
•  Forty special agents were deployed to Iraq to provide missions to war fighters in Iraq, the Horn of Africa
a criminal investigative support element for the         and Maritime Interdiction Operations in the
Marine Expeditionary Forces/Marine Expeditionary         Gulf, following investigative leads; and conducting
Forces Special Counterintelligence Officers (I MEF       Protective Service Operations in Singapore and
and II MEF).  Seven NCIS special agents served as        Nicaragua and Force Protection vessel support visits in
Special Counterintelligence Officers on I MEF and II Jamaica and Venezuela.
MEF staffs in the Iraqi theatre of operations.

26 Semiannual Report to Congress
                                                                                           Global War on Terror

	      Through various programs and activities, NCIS      suspected sniper events, and sites of attacks; recovered
agents and analysts provide valuable support to the       documents; and improvised explosive devices.  These
GWOT.  Some examples follow:                              efforts have identified hundreds of individuals as
                                                          scientifically linked with the item and event in
•  The Directorate of Intelligence watch conducted        question, thereby establishing an absolute connection
24-hour monitoring of classified threat streams related   that can be used for criminal prosecution, intelligence
mainly to terrorism concerns.  As a result, seven         targeting, or both.
reports were issued to the Navy and Marine Corps
forwarding indications and warnings that were general     •  NCIS psychologists provide direct consultations on
in nature, but at locations where DoN assets have         behavior-based assessments of terrorist activity to the
operational interest. Additionally, 425 Daily Threat      Singapore Home Team.  These consultations greatly
Summary articles were issued during this time period.     enhance the partnership with the Singapore Police and
                                                          Security Service, having a direct impact on the overall
•  Intelligence analysts and special agents supported     level of force protection to Navy assets in Singapore
several ship deployments and exercises.  As a             and throughout Southeast Asia.
result of multi-source analysis of port locations
throughout the world in support of Navy and Marine        •  Meeting the mandate of the Intelligence Reform
Corps deployments, 512 Threat Assessments were            and Terrorism Prevention Act of 2004, a state of the
transmitted directly to the deployed assets and           art law enforcement information sharing system,
Combatant Commands to assist in force protection          LInX, was successfully implemented.  With over 40
planning.                                                 million structured and free text law enforcement
                                                          records incorporated into regional data warehouses,
•  Intelligence analysts provided support for several     LInX is the only information sharing capability in
investigations of subjects believed to have ties to       the U.S. that has successfully bridged the gap between
international Islamic extremist terrorism.  They also     federal and local law enforcement agencies seeking to
completed the annual Foreign Terrorist and the            share information related to the GWOT.
Foreign Intelligence Threats reports for the DoN.
                                                          Marine Corps Inspector
•  NCIS provides technical surveillance and               General
investigative equipment support, armory services,                                           	     Officially
and wireless/radio communications capabilities for                                          designated the Deputy
the GWOT effort.  Deployed personnel have also                                              Naval Inspector
upgraded field reporting communications networks,                                           for Marine Corps
allowing agents to conduct real-time data and voice                                         Matters, the Inspector
communications from remote areas under tactical                                             General of the Marine
conditions.                                                                                 Corps (IGMC)
                                                                                            answers directly to
•  Biometrics and forensics personnel supported the                                         the Commandant
II Marine Expeditionary Force (II MEF) after it                                             of the Marine
recognized that a vast amount of information was                                            Corps and promotes
being lost that could potentially reduce the detainee                                       Marine Corps
“catch and release” phenomenon.  Additionally, the                                          combat readiness,
NCIS partnered with the Joint Chiefs of Staff and                                           integrity, efficiency,
the Biometric Fusion Center to create a “pilot project”                                     effectiveness, and
forensic Latent Print Laboratory at Camp Fallujah,                                          credibility through
Iraq.  The laboratory receives, examines, and recovers    impartial and independent inspections, assessments,
latent prints from commonly submitted items, such         inquiries, and investigations.  This mission has never
as, small arms and rocket launchers from caches,          been of greater importance than in today’s challenging

                                                                 Department of Defense Office of the Inspector General 27
Global War on Terror

environment of multiple, continuous overseas combat             in-place and planned equipment support structures
deployments.  Confronted with an operational tempo              are adequate to provide repairs and replacements
the likes of which has not been seen in decades,                due to combat losses and expected usage factors.;
the Marine Corps relies on the IGMC to provide                  (4) if the equipment is properly accounted for; and
oversight and recommendations on the multitude of               (5) if the equipment readiness reporting system is
challenges, both home and abroad, brought on by the             sufficient to facilitate service level decisions.  The
GWOT.                                                           report to the Commandant, completed in May 2005,
                                                                was instrumental in facilitating a variety of changes
                                                                that have had a direct impact on the long term
                                                                sustainability of Marine forces and equipment in Iraq
                                                                in support of the GWOT. 	

                                                                	       IGMC followed up the May 2005 report with
                                                                a Ground Equipment in Iraq assessment completed
                                                                in May 2006. While the primary objective was to
                                                                document and evaluate the implementation of the
                                                                prior year’s recommendations, the assessment was
                                                                expanded to assess the support provided to Marine
                                                                units assigned to support the training of Iraqi forces.
                                                                IGMC recommendations provided a way ahead
                                                                to improve the process for disposing of damaged,
                                                                destroyed and excess equipment and improve parts
     Mr. Thomas F. Gimble, Acting Inspector General, presided   requisition, stockage, and distribution processes.
     over the Sunset Parade at the Iwo Jima Memorial at the
     request of Major General David F. Bice,
     Inspector General of the United States Marine Corps        	       Equipment overseas is not the only area of
                                                                readiness IGMC has impacted in support of GWOT.
	       When the marines were ordered back to Iraq              Due to the inordinate amount of equipment needed
for Operation Iraqi Freedom II, the equipment used              to support Marine forces overseas, particularly in
in the original thrust to Baghdad had barely made               communication and mobility, home station challenges
it back to their home station units.  Maintenance               in respect to training and personnel readiness became
and reconstitution efforts were in the midst of being           evident.  A January 2006 report made detailed
implemented.  The Maritime Propositioning Squadron              recommendations in respect to the distribution,
equipment was in the process of being evaluated and             tracking and reporting of home station equipment
reconditioned.  Much of the same equipment used                 shortfalls.  Additionally, the report supported the
in Operation Iraqi Freedom I was redeployed with I              Marine Air-Ground Task Force Training Center
Marine Expeditionary Force in support of Operation              position that the exercises Mojave Viper and Desert
Iraqi Freedom II in the fall of 2003.  With the                 Talon be fully outfitted with the latest equipment
impending deployment of II Marine Expeditionary                 marines would be expected to operate with overseas.
Force in early 2005, questions arose in regard to               This recommendation has now been implemented
equipment accountability and sustainability in the              with the resultant being marines deploying to GWOT
harsh combat environment.                                       with knowledge and experience on the latest high-
                                                                speed equipment available for the fight.
	       The Commandant dispatched an assessment
team led by IGMC in April 2005 to determine; (1)                	       The GWOT has exposed other areas of
if the Equipment Density List was adequate to meet              concern in which IGMC has taken an active role in
the OIF strategy and concept of operations; (2) if              resolving.  Both combat medical support and combat
the current condition of equipment will support                 and noncombat casualty tracking are two specific
the long term operational requirements; (3) if the              areas of operations which have not been significantly

28 Semiannual Report to Congress
                                                                                            Global War on Terror

challenged since the Vietnam War.  A February              Air Force Audit Agency
2006 report reviewed the functionality and ability of
current systems to effectively track and treat marines     	      During the 6-month period that ended
and sailors evacuated from overseas. The strain due to     September 30, 2006, the Air Force Audit Agency
heavy patient load and the absence of a comprehensive,     (AFAA) completed three audits supporting GWOT.
universal tracking system led to significant challenges    The United States Central Command Air Forces
for individual marines and their commands.  IGMC           (CENTAF) requested two audits—one on blanket
recommendations have resulted in better coordination       purchase agreements (BPAs) and one on cash and cash
between Health Services Division and Manpower and          equivalents in the CENTAF.  In the audit on BPAs,
Reserve Affairs to ensure the proper care, tracking and    AFAA audited 120 BPAs valued at nearly $64 million
disposition of every marine, whether a combat or non-      and determined that CENTAF AOR officials did
combat evacuee.                                            not properly record, support, or validate BPA funds,
                                                           purchases, and payments.
	        IGMC has also influenced the quality of
combat care received by casualties in the precious         	        In the second audit, AFAA evaluated cash and
immediate minutes following an injury.  A May 2006         cash equivalents in the CENTAF AOR.  The audit
report detailed the capabilities of Level I and Level      revealed that while personnel properly accounted
II treatment facilities in Iraq.  The report concluded     for cash, they could strengthen physical controls and
that the care and capabilities were sufficient for that    improve procedures for computing cash requirements.
level of medical care.  However, recommendations           As a result, about $24.2 million was at increased
were made for improving the diagnosis and treatment        risk of theft or mismanagement.  Also, cash on hand
of head and neck trauma, specifically brain injury         averaged $23.9 million more than requirements for
and neurosurgical treatment.  Additionally, the report     the six AOR locations.  Unannounced cash counts
recommends improving and upgrading medical                 of approximately $24.2 million conducted at six air
facilities and establishing Al Asad as a direct transfer   bases in the AOR disclosed no material overages or
base for patient movement to Landstuhl, Germany.           shortages, but personnel did not always have required
                                                           controls in place to protect cash.  More specifically,
	       Training, equipment, and personnel readiness       personnel did not always install and test intrusion
remain the focus of the IGMC in support of the             equipment, conduct self-inspections of office security
GWOT.  The office is uniquely qualified to inspect,        measures, properly identify cash areas, maintain lists
monitor and assess the varied and distributed measures     of authorized individuals to handle cash, and perform
of effectiveness throughout the readiness spectrum.        required surprise cash counts.
Providing the Commandant of the Marine Corps
and the Secretary of the Navy an objective view of the     	       Another AFAA audit not in the AOR
issues and challenges faced by the operating forces, the   reviewed Weapons of Mass Destruction (WMD)
IG is able to make specific recommendations that have      Emergency Medical Response Capabilities and
had, and will continue to have, a profound impact on       concluded that officials at a Military Treatment
the Marine Corps ability to prosecute the GWOT.            Facility did not train the minimum number of
                                                           detection team personnel for Bioenvironmental
U.S. Air Force                                             Engineering on key equipment.  Without an adequate
                                                           number of trained personnel on specialized equipment,
                                                           management has no assurance emergency response
                                                           teams will be able to effectively respond to and
                                                           properly support WMD emergencies.  Also, WMD
                                                           emergency medical response teams were not properly
                                                           equipped. Without the required equipment and
                                                           supplies, emergency response teams may be unable to
                                                           effectively respond to WMD emergencies.

                                                                  Department of Defense Office of the Inspector General 29
Global War on Terror
	       An additional 14 GWOT-related AFAA                 follow-on action by OSI to, among others, the Army,
audit efforts are either ongoing or planned, 8 in the      special operations forces, host nation police; and
CENTAF AOR (Contract Management, Ground
Fuel Management, Readiness Training for Deployable         3.)  Capture or neutralization of 186 individuals.
Communication Packages, Intra-Theatre Airlift,
Small Arms Weapons, Patient Movement Items                 • Supported the Joint Interrogation and Debriefing
[PMI] Program, Predator Asset Accountability and           Center, Abu Ghraib, Iraq, in its search for Sgt Keith
Maintenance, and Prepositioned Mobility Bags) and 6        Maupin, a U.S. Army member missing after an attack
outside the AOR (Civilian Deployments, Contingency         on a convoy.  Information developed by OSI during
Contracting Effectiveness, Air National Guard              this effort included the identification of individuals
(ANG) Emergency Response Teams, Civil Air Patrol           that participated in the attack, as well as individuals
Support, Follow-up Audit, Individual Deployment            responsible for planning the attack.
Process, and Deployed Aircrew Training).
                                                           •  Obtained and verified information that led to the
Air Force Office of Special                                arrest of individuals involved in the highly publicized
Investigations                                             kidnapping of Christian Science reporter Jill Carroll.

                            	 Air Force Office of          •  Stood-up and led an analytical cell supporting
                            Special Investigations         the Strategic Counterintelligence Directorate
                            (OSI) conducts complex         – Afghanistan activities. Shared vital intelligence
                            felony-level investigations    with multiple national level agencies, ensured timely
                            and provides military          dissemination of information, and eliminated
                            commanders and agencies        numerous intelligence gaps identified by CENTCOM.
                            with vital intelligence
                            needed to successfully         •  Completed a Mara Salvatrucha (MS-13) gang
                           conduct and sustain military    threat assessment, determining that MS-13 had only
operations in support of the GWOT.  During this            peripheral impact on the Air Force.  The assessment
period, 298 personnel, representing 21 percent of          provides commanders with information on warning
OSI’s total deployable force, were deployed or assigned    signs of gang activity and the ability head off emerging
to various positions located in the Gulf region.  The      problems. FBI headquarters lauded the assessment and
vast majority of these personnel generate real-time        sent it to FBI field offices as required reading.
intelligence used by battlefield commanders to
successfully execute all-Service military operations in    •  Published a threat assessment regarding homemade
support of Operations Iraqi Freedom and Enduring           explosives, detailing information pertaining to threat
Freedom.   Here are some examples of OSI GWOT              posed from IEDs containing Triacetone Triperoxide
efforts:                                                   (TATP) and Hexamethylene Triperoxide Diamine
                                                           (HMTD), also known as “poor man’s TNT.”  This
• Executed 45 separate operations in Southwest             is the same material used in the London subway
Asia in support of OIF and OEF, resulting in the           bombings, Madrid rail bombings, and others.  The
following:                                                 assessment provided senior-level military leadership
                                                           with the requisite information needed to determine
1.)  Identification of 2,729 potential threats–  groups,   the threat posed by TATP/HMTD against the U.S.
or intelligence services who represent a threat  to        Air Force, as well as the ability to properly determine
military installations and/or resources;                   the need for additional force protection measures.

2.)  Compilation of 169 Target Packages-                   •  Provided pre-exercise support and 10
comprehensive packets of tactical-level                    comprehensive threat assessments detailing the
counterintelligence targeting information provided for     criminal, counterintelligence and terrorism threats


30 Semiannual Report to Congress
                                                                                            Global War on Terror

facing U.S Air Force personnel participating in joint      •  Polygraph examiners from NCIS and OSI worked
military exercises in Malaysia, Ghana, Turkey, Bolivia     together to support the Naval Special Warfare Task
Bosnia-Herzegovina, and other locations.  The threat       Group (NSWTG) Iraq while presenting their case to
assessments enabled supporting OSI agents to provide       the Iraqi Criminal Courts.  These examiners conducted
current situational awareness to deploying Air Force       polygraph examinations during detainee interrogations
personnel and allowed the deployed commander to            and provided polygraph support to special missions.
take appropriate force protection measures once on the
ground.                                                    Air Force Inspector General
•  Published 37 Integrated Threat Assessments (ITA)        	       In 2006 the Air Force continued to focus
responsive to Air Force program and technology             on readiness evaluations of its units and its airmen.
protection planning to concerning acquisition systems      Currently, over 85 percent of active duty airmen are
and RDT&E initiatives and facilities. Each ITA             postured to deploy in our expeditionary Air Force,
detailed foreign intelligence threats to developing        with nearly 30,000 Airmen currently deployed in
technologies, threats to research, and threats to          support of the GWOT and support to contingency
systems, and were used by system program managers          operations.  This requires the Air Force to be at peak
and technology directors in conjunction with OSI,          readiness, and a key component of readiness is timely
Air Force Intelligence, and Air Force security, to build   evaluations.
defensive countermeasures for program protection
under research and technology protection.

•  Supported RED EYE, an interagency task force
that has significantly mitigated the efforts of foreign
adversaries to illegally acquire critical U.S. and DoD
technology.  Investigative and analytical efforts have
led to arrests and indictments. The interagency task
force has been successful because of the real-time
information sharing between law enforcement and
counterintelligence agencies.

•  Conducted two cyber operations designed to
identify, report, and assess how terrorists use the
internet to recruit jihadists, solicit funding, spread
propaganda, and influence beliefs.  The information
discovered during theses operations allow the
intelligence community and military commanders to
formulate strategies designed to combat the radical
beliefs by many U.S. adversaries in the GWOT.

• Participated in a major task force operation credited
with foiling a domestic terrorism plot to attack
military facilities and other targets in the greater Los
Angeles area.  As a result of task force efforts, four
men have been indicted by a federal grand jury in
Santa Ana, CA for their alleged roles in the plot.




                                                                  Department of Defense Office of the Inspector General 31
Global War on Terror

	        The Air Force requires that all units undergo    Combatant Commands
a readiness inspection a minimum of every 60
months. Each major command (MAJCOM) IG team
tailors the readiness exercises to the mission of their   United States Central
command.  The inspection is weighted for a unit to        Command
perform their wartime mission in a deployed theater,
so relevant GWOT-supporting skills can be evaluated.
During the past 12 months, 63 readiness evaluations
were conducted, across 9 MAJCOMs, with over
98 percent of units meeting or exceeding readiness
standards.

       “During the past 12 months, over 81
    compliance inspections were conducted,
throughout 9 MAJCOMs, with over 99 percent
                                           	    The United States Central Command
       meeting or exceeding standards.”    (USCENTCOM) has a small IG staff that performs
                                                          all traditional IG functions: inspections, investigations,
	       The Air Force also exercised and evaluated        and assistance.  The FY 2006 Command Inspection
the ability of units to respond to simulated stateside    program focused on assessing the operational
emergency scenarios, allowing the relevant GWOT-          readiness of nine security assistance organizations
supporting skills of airmen to be evaluated.              (SAOs) within the USCENTCOM AOR, as
                                                          well as the Special Operations Command Central
	        Air Force units also undergo a compliance        (SOCCENT).  The Command Inspection results
inspection a minimum of every 60 months.                  were further incorporated into the Command’s
Compliance inspections are conducted to assess areas      annual Manager’s Internal Control Program findings.
mandated by law, as well as mission areas identified      The SAO Command Inspections assess how each
by senior Air Force and MAJCOM leadership as              office is performing traditional security assistance
critical or important to assess/assure the health and     functions such as commercial and foreign military
performance of organizations.  During the past            sales case management, end use monitoring and third
12 months, over 81 compliance inspections were            party transfers, and host nation yraining program
conducted, throughout 9 MAJCOMs, with over 99             management.  The IG inspection teams also assess
percent meeting or exceeding standards.                   administrative, security, logistics, force protection,
                                                          communications, fiscal, legal and medical programs, as
	       Additionally, the Air Force also conducts         well as review plans and policy unique to the SAO.  
Special Interest Inspections (SII) during 2006 to
focus management attention, gather data, and /or          	       During FY 2006, USCENTCOM inspected
evaluate the status of specific programs and conditions   Security Assistance Offices in Bahrain, United Arab
in the field. From October 1, 2005 to September 30,       Emirates, Egypt, Jordan, Oman, Qatar, Yemen,
2006, an SII was conducted on Unit Air and Space          Ethiopia, and Djibouti. It also conducted a Command
Expeditionary Forces (AEF) Management to place            Inspection at Headquarters, SOCCENT (Tampa,
special emphasis on unit management of Air and            Florida) in coordination with United States Special
Space Expeditionary Forces processes and guidance.        Operations Command.  In FY 2007, they will lead
During the year, 68 units were assessed, across 9         10 SAO Command Inspections, as well as conduct
MAJCOMs, on their ability to manage the AEF               Intelligence Oversight Inspections within our
process and prepare their Airmen for deployments.         Command Headquarters and SOCCENT, and any
The results of this SII showed that the AEF process       special inspections directed by the CENTCOM
was well managed and understood.                          Commander.  USCENTCOM’s subordinate joint task

32 Semiannual Report to Congress
                                                                                           Global War on Terror
forces also conducted special inspections during FY       2006).  Both joint task forces are direct reporting
2006. 	                                                   units to USOUTHCOM.  Here is a summary of
                                                          USSOUTHCOM’s activities during this reporting
• The Inspector General, Combined Forces                  period:
Command–Afghanistan (CFC-A), inspected local
national service and construction contracts to assess     • Attended the Joint Interagency Conference at
compensation to local nationals (LN) who were             USSOUTHCOM on GWOT efforts within
killed or injured, as applicable to the Defense Base      USSOUTHCOM AOR.
Act (DBA) and the War Hazards Compensation
Act (WHCA).  During this inspection, CFC-A                • Daily contact with JTF-GTMO in conduct of
reviewed local national contracts to determine whether    GWOT efforts include follow up efforts to ensure
the DBA clause was included in LN contracts, and          property accountability and replacement of IT
reviewed the compensation process to determine            equipment. Command directed Annual Joint IG
application of the DBA and WHCA.                          inspections conducted of JTF-GTMO, every year
                                                          since 2004. IG oversight and monitoring of DoD
• The Inspector General, Multi-National Force–Iraq        IG reports on Detainee issues continue. Oversight of
(MNF-I) conducted two special inspections. The            Trafficking in Person issues occurring.
MNF-I Trafficking in Persons Inspection addressed
hiring and employment practices, as well as the           • For FY 2007 Joint IG inspections of units within
condition of worker life support areas operated by        USSOUTHCOM’s AOR, USSOUTHCOM IG is
contractors/subcontractors supporting DoD contracts       conducting coordination with DoD IG personnel for
in Iraq.  The inspection focused on the “Third Country    participation of DoD personnel in the conduct of the
National” workforce, to ensure fair and ethical           Intelligence Oversight inspections.
treatment by employers, and inspect for evidence
of human trafficking activity.  The MNF-I IG also         United States Special
conducted an Access Control Inspection, looking           Operations Command
at badge vetting, issuance and control procedures at
forward operating bases in Iraq.  The focus of this
                                                                                       The United States Special
inspection was to: evaluate the adequacies of policies,
                                                                                  Operations Command
procedures and the use of technologies; to determine
                                                                                  (USSOCOM) maintained
if force protection and badge issuing personnel
                                                                                  high standards for the Special
understood access control requirements and processes;
                                                                                  Operations Forces (SOF)
and to determine if existing procedures were adequate
                                                                                  through rigorous and continuous
or overly restricted the movement of contract workers.
                                                                                  verification of command policies
                                                                                  and procedures, such as:
United States Southern
Command                                                   • Ensured training and equipment needs were
                         United States Southern           adequate for theater Special Operators as they
                    Command Inspector General             prosecuted the GWOT.
                    (USSOUTHCOM IG) staff
                    and personnel from the Office of      • Implemented an aggressive joint inspection program
                    the Assistant to the Secretary of     at all Theater Special Operations Commands under
                    Defense (Intelligence Oversight)      the Unified Combatant Commanders.  Recent
                    conducted Joint Intelligence          inspections of Special Operations Command Central,  
                    Oversight Inspections of JTF-         Europe, and Korea ensured training and equipment
                    Bravo, Soto, Honduras ( June          needs were adequate. for theater Special Operators as
                    2006) and JTF-GTMO (August            they prosecute the GWOT.


                                                                 Department of Defense Office of the Inspector General 33
Global War on Terror

Other DoD Elements
Defense Commissary Agency

	    The Defense Commissary Agency (DeCA)
OIG has expanded its current inspections since the
GWOT started to include the following areas:


• Level I Anti-terrorism Awareness Training
• Information Assurance Vulnerability Assurance   
   (IAVA) alerts
• Security Awareness Training
• IA Officers Training
• Review for ALLFOODACT compliance at DeCA
   facilities (food defense issue)
• Visitor logs to limited access areas
• Defense Information Technology Portfolio Register
   as reviewed for JCS

	       The following is scheduled for future
inspections/evaluations:

• DeCA facilities’ participation in anti-terrorism/force
   protection (AT/FP) emergency and related exercises.

• Review of vulnerability assessments for DeCA
   facilities.

• Review of personnel conducting IA functions
   supporting the DoD Global Information Grid.

National Guard Bureau

	        The National Guard has active component
officers assigned to all 54 states and territories as
inspectors general.  These colonels and lieutenant
colonels have staffs made up of National Guard
officers and noncommissioned officers.  Their
responsibilities include conducting inspections/
assessments of the readiness and training of National
Guard Units who are mobilized in support of
the GWOT.   They also do the same for units
that support Homeland Security and Homeland                1 DCIS special agents and Iraqi police.
Defense, which also supports the GWOT.  These              2 DoD OIG and DoS personnel deployed on a joint
                                                           assessment of police training in Afghanistan.
IGs provide oversight for the Army/National                3 OIG personnel at the Combined Forces Command
Guard Organizational Inspection Program which is           Afghanistan.
inspections done by the Command.

34 Semiannual Report to Congress
National Security Personnel System


DoD Inspector General Overview
	      The Department of Defense (DoD) began implementing its new civilian human resources management
system, the National Security Personnel System (NSPS), through a spiral deployment.  Effective April 30, 2006,
some 11,000 civilian employees assigned to Spiral 1.1 activities moved into NSPS.  Between October 1, 2006,
and February 2007, some 66,000 more DoD civilians will come under NSPS.  The DoD Office of Inspector
General (OIG) is among the Spiral 1.2 organizations and is preparing to deploy NSPS effective January 21,
2007 to all of its approximately 1,400 civilian employees who are not members of the Senior Executive Service.

	       NSPS is a performance-based, market-sensitive personnel system.  A cornerstone of NSPS is
performance management.  Under NSPS employees and supervisors are compensated and retained based on
their performance and contribution to mission.  Therefore, job objectives and performance expectations must be
defined clearly and must align with the organization’s and component’s strategic plans and goals, which in turn
align with the Department’s strategic plan and mission requirements.  

 	      As a first step in preparing for NSPS, the DoD OIG undertook a comprehensive revision of its
overarching strategic plan.  Each DoD OIG Component then revised its strategic plan to align it with the
new DoD OIG plan.  After the revised plans were in place, the DoD OIG, through the Office of Personnel
Management’s Training and Management Assistance program, contracted for support in:  developing straw
man performance plan templates for 16 DoD OIG occupations, conducting coaching workshops to support
DoD OIG supervisors and managers in identifying job objectives and defining performance expectations, and
providing a quality review of employee performance plans.  All DoD OIG civilian employees will receive new
written performance plans that are results-oriented, mission-focused, and aligned with organization mission and
goals before the DoD OIG comes under NSPS.

	      The changes that NSPS brings to the DoD for civilian
compensation and classification, staffing and employment,
workforce shaping, and performance management are the
most extensive to civilian human resources management in the
Federal Government in decades.  Given the importance and
magnitude of the NSPS initiative, the Acting DoD Inspector
General designated three groups to move the DoD OIG
toward NSPS:  the OIG NSPS Project Management Team,
the OIG NSPS Executive Steering Committee, and the OIG
NSPS Component Implementation Team Representatives.  

Teams and Committees
                                                                          NSPS Project Management Team
•  The Project Management Team is comprised of
representatives from the five largest components of the DoD
OIG and has responsibility for planning, organizing, guiding, overseeing, and advising the Executive Steering
Committee on the design and deployment of NSPS throughout the DoD OIG.  Recommendations are based
on NSPS requirements and flexibilities found in statute, the DoD implementing issuances, and the DoD Fourth


                                                                Department of Defense Office of the Inspector General 35
National Security Personnel System
Estate volumes.  The chair of the Project Management Team is a direct report to the Acting Principal Deputy
Inspector General and serves as the DoD OIG NSPS Program Manager.

•  The Executive Steering Committee is the decision-making body.  The Chair and members (respectively, the
Acting Principal Deputy Inspector General, and the Deputy Inspectors General and the Assistant Inspectors
General who report to the Acting Principal Deputy or Acting Inspector General) decide DoD OIG NSPS
policy and design issues presented by the Project Management Team.  The Executive Steering Committee also
assigns action items to the DoD OIG Components to accomplish NSPS implementation.  

•  The Implementation Team representatives liaison with the Project Management Team, Executive Steering
Committee, and their respective components.

Implementation and Training
                                                                             	      The DoD OIG took the following steps to inform
                                                                             its managers, supervisors, employees, and assigned
                                                                             military members about NSPS.  All DoD OIG personnel
                                                                             were encouraged to complete NSPS 101, a web-based
                                                                             introduction to the new personnel system.  Informational
                                                                             e-mails were sent to all DoD OIG personnel, and a page
                                                                             on the DoD OIG Intranet was dedicated to NSPS.  NSPS
                                                                             At-A-Glance on the DoD OIG Intranet was developed
                                                                             as an internal tool that lists tasks, events, and milestones
                                                                             for implementing NSPS at the DoD OIG, and is updated
                                                                             weekly.  


                                                   	     Numerous briefings and presentations on NSPS
                                                   were conducted for DoD OIG managers, supervisors, and
      NSPS Implementation Team Representatives
                                                   employees at DoD OIG headquarters and field locations.  
                                                   DoD OIG senior leaders received regular updates and
formal briefings on NSPS.  The DoD NSPS Deputy Program Executive Officer and the DoD Director of
Administration and Management recently spoke on NSPS issues at the DoD OIG Senior Leader Offsite.  
Topics included the challenges of implementing NSPS and the importance of senior leader involvement in
ensuring the successful implementation of NSPS in the DoD OIG.  Attendees at the offsite included Senior
Executive Service members and GS-15 managers and supervisors assigned to the DoD OIG.

	       A lesson learned from the Department’s 25 years of experience with personnel demonstration projects
was the value of training.  The DoD OIG began formal training on NSPS in mid-April 2006.  NSPS
Transition/Change Management was mandatory for all civilian employees and military members assigned to the
DoD OIG.  This course enabled participants to identify major elements of NSPS, discuss the potential impact
of NSPS changes on themselves and their work unit, and identify strategies to assist them with the transition to
NSPS.  The second formal training initiative, NSPS Soft Skills Supervisory Training, began in May.  All DoD
OIG civilian supervisors and military members who supervise civilian DoD OIG employees must complete this
training before being qualified as a rating official under NSPS.  As of September 30, 2006, 1,396 DoD OIG
personnel completed NSPS Transition/Change Management training, and 281 supervisors completed the NSPS	
Soft Skills Supervisory Training.
	        The DoD Fourth Estate comprises all organizational entities in the Department of Defense that are not in the Military Departments or the Combatant Com-
mands and invludes the DoD OIG.



36 Semiannual Report to Congress
                                                                             National Security Personnel System
	            Training DoD OIG personnel in the operational aspects of NSPS was another requirement.  The
DoD OIG NSPS Project Management Team and Implementation Team Representatives looked into several
options for delivering the NSPS human resources elements and performance management curricula (“NSPS
functional training”) to DoD OIG personnel.  The DoD OIG NSPS Executive Steering Committee approved
the recommendation to hire an NSPS Training Manager.  Responsibilities of the incumbent include to oversee
the delivery of all functional training before the DoD OIG converts into NSPS in January 2007, train a cadre
of DoD OIG component staff in NSPS, partner with the trained trainers in delivering the NSPS functional
training, develop a plan to sustain the DoD OIG NSPS training program after implementation, and present
other NSPS training (e.g., pay pool management), as required.  The DoD OIG NSPS Training Manager
instructed 34 DoD OIG component trainers in the NSPS human resources elements and performance
management for managers and supervisors courses.  DoD OIG component trainers scheduled NSPS functional
training sessions at headquarters and field locations to begin the first week in October and continue through
November 2006.  

	       To ensure that DoD OIG human resources and general counsel staff became knowledgeable and valued
advisors on NSPS, the DoD OIG sent its civilian personnel management and labor law practitioners to formal
training offered by the DoD NSPS Program Executive Office.  The classes covered human resources elements,
performance management, and pay pool management under NSPS.  

	      NSPS, the Department’s new human resources management system, does not come without a price.  The
DoD OIG is tracking and reporting actual costs and obligations associated with NSPS consistent with DoD
requirements.  During the period April 1 through September 30, 2006, the DoD OIG obligated $584,386 on
NSPS for training (including course delivery and travel to attend training), contractor support, and program
operations.  



 Department of Defense Office of the Inspector General employees attend NSPS training.




                                                                     Department of Defense Office of the Inspector General 37
38 Semiannual Report to Congress
           Significant Accomplishments



	       This chapter highlights significant accomplishments of the Office of Inspector General (OIG) as well
as the Department of Defense (DoD) audit, investigative, and inspections communities.  Accomplishments are
discussed by the DoD management challenge areas identified by the OIG.  The OIG annually assesses the most
serious management and performance challenges faced by the DoD based on the findings and recommendations
of audits, inspections, and investigations conducted during the year.  The Inspector General Summary of
Management Challenges is included in the DoD Performance and Accountability Report.  For the Fiscal Year
2006 Performance and Accountability Report, the following challenges were identified:

	      	       	       •  Joint Warfighting and Readiness
	      	       	       •  Human Capital
	      	       	       •  Information Security and Privacy
	      	       	       •  Acquisition Process and Contract Management
	      	       	       •  Financial Management
	      	       	       •  Health Care

Joint Warfighting and Readiness
	        The challenge of joint warfighting and readiness is to provide the right force, personnel, equipment,
and supplies in the right place at the right time, and in the right quantity, across the full range of military
operations.  To meet this challenge, the Department is transforming its logistics capabilities to support fully
integrated, expeditionary, networked, decentralized, and adaptable forces.  The Department is also transforming
its infrastructure through base realignment and closures to an efficient, cost-effective structure.  In making
recommendations for realignment and closure, the Department gave priority consideration to military value,
particularly mission capability and the impact on operational readiness, joint warfighting, and training.  

Audit

	       In addition to the joint warfighting and readiness audits previously discussed in the GWOT chapter, the
Department of Defense Audit community issued other reports on joint warfighting and readiness, logistics, and
base realignment and closure.  Some of those reports are discussed below.

	       The DoD OIG issued a report that discusses implementation of performance-based logistics (PBL)
for the Joint Surveillance Target Attack Radar System (STARS).  The System Program Manager for Joint
STARS had not fully implemented PBL initiatives for the Joint STARS weapon system so the System Program
Manager could not support that the Joint STARS weapon system achieved desired outcomes of PBL, such as
reducing life-cycle costs and increasing system availability.

	      The DoD OIG also issued a report on the H-60 SeaHawk helicopter PBL Program and the benefits
the Department derived from teaming with industry for PBL support.  Because the Navy aggressively adopted
and implemented a well-developed, sound H-60 SeaHawk PBL strategy, the Program Office realized benefits
from the strategy, which included reported increases in availability and reliability, training opportunities, Navy
depot workload, and product improvements.  The Program Office and Naval Inventory Control Point could


                                                                  Department of Defense Office of the Inspector General 39
Significant Accomplishments

improve their effectiveness in managing the PBL          	        AAA reported that U.S. Army, Europe and
contracts by documenting contract activity and efforts   Seventh Army (USAREUR) needed to improve
to demonstrate whether H-60 SeaHawk PBL contract         the processes it used for identifying and monitoring
incentive payments were accurate and reduced total       program execution and costs associated with its
ownership costs                                          General Support Reconstitution Maintenance
                                                         Program. Although it identified General Support
                                                         maintenance requirements, USAREUR did not
                                                         develop a process that could identify the actual costs of
                                                         its reconstitution maintenance activities. USAREUR
                                                         received inaccurate cost data from lower command
                                                         levels for organic and contracted maintenance. In
                                                         addition, the 21st Theater Support Command had not
                                                         effectively executed maintenance operations at organic
                                                         maintenance facilities because the command repaired
                                                         equipment to a higher standard than the Department
                                                         of the Army (DA) and USAREUR directed for
                                                         reconstitution efforts.

                                                         	       AAA also reported that of the six operational
                                                         projects identified for Army Pre-positioned Stocks
    DoD OIG auditors inspect minesweeping equipment.     (APS) in Europe, two would not effectively support
                                                         responsibilities in the European theater and
 	      DoD OIG focused significant resources on         Army transformation goals.  Each of the existing
several efforts related to oversight of implementation   projects had insufficient quantities of equipment
of the recommendations for Base Realignment and          on hand, and much of the equipment on hand was
Closure (BRAC) 2005.  One project focused on             in an unserviceable condition.  During the audit,
the BRAC requirement that the DoD Inspector              Headquarters DA canceled unneeded operational
General certify to the President and Congress by June    projects, directed subordinate activities to perform
1, 2006, whether the Commonwealth of Virginia            required reviews and revalidations of valid projects,
and the municipal governments of Virginia Beach          and initiated action to redistribute excess stocks to fill
and Chesapeake, Virginia, had taken six specified        $4.4 million of requirements in other APS.  In that
actions that would reduce or eliminate encroachment      same report, AAA also states that the Army had in
around Naval Air Station Oceana, Virginia.  The          place effective processes in place for identifying and
Commonwealth of Virginia and municipal                   disposing of excess major equipment and supplies.
government actions were part of the BRAC-directed
process to potentially realign Navy East Coast Master    	        NAS reported that the Antiterrorism Risk
Jet Base functions.  In a report to the President        Assessment Management Approach for Navy Region
dated May 24, 2006, the DoD IG states that while         Hawaii discloses the following problems—required
the Commonwealth of Virginia and the municipal           assessments were not always performed, critical asset
governments implemented a number of commendable          lists were not developed uniformly, justification for
actions, he could not certify Commonwealth or            funding requirements was not adequately documented,
municipal compliance with BRAC criteria because          and local emergency management plans were not
the actions did not satisfy the criterion to establish   comprehensive and updated. A second report on the
a program to condemn and purchase all the                same subject at Navy Region Gulf Coast also discloses
incompatible use property located within the Accident    that required assessments were not always performed;
Potential Zone 1 areas surrounding the Naval Air         justification for funding requirements were not
Station Oceana.                                          adequately documented; local emergency management
                                                         plans were not comprehensive and updated; chemical,

40 Semiannual Report to Congress
                                                                                   Significant Accomplishments

biological, radiological, nuclear, and high yield           reviewed, base personnel could not identify or account
explosives exercises were not conducted annually; an        for foreign visitor entry to unit installations.  Base
emergency disaster planning officer was not designated      personnel also could not provide the Air Force Office
in writing; and antiterrorism working groups were not       of Special Investigations the appropriate information
always established.                                         on foreign visitors.  Air Force officials also did not
                                                            always correctly monitor the activities of assigned
	       In an audit on Department of the Navy               foreign military personnel.
Antiterrorism Management at Facilities in Korea,
Japan, Singapore, and Guam, NAS reported that the           	       AFAA determined that logistics personnel
Navy did not always:  perform required assessments,         within the Air Force Materiel Command established
develop uniform critical asset lists, update and review     inaccurate or invalid condemnation percentages
antiterrorism plans, establish antiterrorism working        for spare parts reviewed. Those inaccurate or
groups, and describe in the plan of action and              invalid condemnation percentages contributed to
milestones identified during risk assessments.              misstatements of the requirements for spare parts that
                                                            totaled $917 million ($905 million in overestimates
	        NAS also reported that while Department            and $12 million in underestimates). Auditors
of the Navy established controls in the system              identified opportunities for saving $893 million.
for managing development of BRAC Military
Construction (MILCON) projects, isolated cases              	       Another AFAA product reports that Air Force
still occurred in which those controls did not achieve      logistics personnel did not always ensure that additive
proper scoping on all projects.  Of 10 projects, the        requirements for unserviceable spare parts were valid
Commander for the Navy Mid-Atlantic Region                  when calculating the requirements for spare parts.  
canceled 3 because the BRAC Commission did not              By reducing overstated requirements, the Air Force
approve the recommended closure or realignment              could have put $32.8 million to better use.  Logistics
of the bases involved; requirements were valid and          personnel established and retained invalid Credit
properly scoped for 1 project; and 6 projects had a         Due In From Maintenance records.  That action
valid need but did not have sufficient documentation        resulted in 1,635 invalid unserviceable spare parts
for determining the proper scope of the projects.           additives and resulted in $20.4 million in overstated
                                                            buy and repair requirements. In addition, logistics
	       The Air Force Audit Agency (AFAA) reported          personnel improperly adjusted unserviceable spare
that controls over Air Force support to civil authorities   parts additives, resulting in buy and repair requirement
needed improving. Although 4 of 15 installations            errors totaling $15.7 million ($12.4 million in
reviewed Full Spectrum Threat Reduction plans, the          overstatements and $3.3 million in understatements).
plans did not contain elements that helped deliver
support to civil authorities because the plans were         Investigations
not always current and properly executed. The Air
Force could have recouped $16 million in the cost for       	       The Defense Criminal Investigative
emergency support but did not seek reimbursement            Organizations (DCIOs), comprised of the Defense
during 2002 through July 30, 2005. Effective                Criminal Investigative Service (DCIS), a component
reimbursement control measures would mean a                 of the OIG DoD; the U.S. Army Criminal
potential monetary benefit of at least $41.8 million        Investigation Command (CID); the Naval Criminal
over the 6 year Future Years Defense Plan.                  Investigative Service (NCIS); and the Air Force Office
                                                            of Special Investigations (AFOSI), support each of
	        An AFAA report on Foreign National Access          the Secretary of Defense Management Challenges.  
to Air Force Information and Facilities states that         Highly trained special agents, forensic experts,
Air Force foreign disclosure officers did not always        analysts, and support personnel protect the military
effectively identify or control foreign national visitor    and civilian men and women of the Department by
access.  At two of seven locations the Air Force            combating crimes, both domestic and overseas.  

                                                                   Department of Defense Office of the Inspector General 41
Significant Accomplishments




                    DCIS, SIGIR, and Army CID special agents participate in joint investigations in Iraq.


Examples of the DCIOs’ mission initiatives and                 military characteristics to the general public, such as
investigative accomplishments are detailed under the           weapon systems and associated materials, prior to the
nine management challenges.                                    demilitarization (i.e., rendering the equipment useless
                                                               for its originally intended purpose)
	        The four DCIOs provide investigative
support and special agents lend their assistance in            Examples follow.
humanitarian efforts around the world. The DCIOs
actively participate in worldwide joint terrorism task         •  An example of a joint warfighting and readiness
forces, sharing and acting on information, and relying         case is Eagle Global Logistics (EGL), a Defense
on the unique skills and investigative specialties of          subcontractor, agreed to pay the U.S. Government
the participating organizations to ensure no potential         $4 million as a result of a civil settlement to resolve
threat goes unchecked.                                         allegations that Christopher Joseph Cahill, a former
                                                               EGL vice president, submitted false claims to prime
	        The DCIOs conduct investigations into fraud,          DoD contractor Kellogg, Brown, and Root. He was
waste, and abuse in logistics support operations for           sentenced to 30 months in prison, 2 years supervised
supplies, transportation and maintenance. DCIS                 release, and a $10,000 criminal penalty. Mr. Cahill
continues to focus significant resources to investigate        inflated 379 transportation invoices for a total of
fraud, theft, and other criminal activities that               $1.1 million by including a non-existent “war-risk”
potentially threaten the integrity of DoD logistics            surcharge for items transported for EGL-Dubai to
systems, involving the Defense Reutilization and               Iraq. EGL had earlier been suspended from further
Marketing Service (DRMS). DRMS is the entity                   contracting with any agency of the U.S. Government.
within DoD that is primarily responsible for disposing
of military equipment and supplies that are no
longer required. Of particular concern to DCIS
is the illegal sale or release of items with inherent

42 Semiannual Report to Congress
                                                                                    Significant Accomplishments

•  To promote interagency cooperation and the                of supervised release; Xiu Ling Chen, Manten’s
exchange of criminal intelligence, DCIS formed its           purchasing manager, was sentenced to 18 months in
own National Security Program.  Agents assigned to           prison, and 24 months supervised release; and Kwan
the program provide oversight technology protection          Chun Chan, Manten’s comptroller, was sentenced to 6
and homeland security/terrorism-related efforts              months in prison, and 24 months probation.
and conduct liaison with other agencies that share
investigative jurisdiction over these matters.               •  Kal Nelson Aviation, Inc., a DoD subcontractor,
                                                             pled guilty to violations of the Arms Export Control
•  The DCIS participated in investigations related to        Act and was fined $1 million.  A joint investigation
Hurricanes Katrina and Rita.  During this period,            revealed that Kal Nelson shipped International
they received 22 criminal allegations and opened 8           Trafficking in Arms Regulations controlled F-5 Tiger
cases dealing with bribery, kickbacks, false claims,         fighter aircraft components, F-14 fighter aircraft, and
and possible product                                                                        Hawk military missile
substitution related to                                                                     parts to a company
hurricane damage.  The                                                                      located in Southeast Asia
DCIS serves as the law                                                                      without the required
enforcement liaison with                                                                    export licenses.   
the Hurricane Katrina
Fraud Task Force and                                                                          •  Ko-Suen “Bill” Moo,
briefs its members                                                                            a Taiwanese national,
on their investigative                                                                        pled guilty to charges of
efforts.  DCIS also                                                                           conspiracy to violate the
has conducted over                                                                            Arms Export Control
40 mission and fraud                                                                          Act and the Foreign
awareness briefings at                                                                        Agent Registration Act
the U. S. Army Corps          Mr. Thomas F. Gimble, Department of Defense Acting Inspector and attempted bribery
of Engineers debris           General (DoD IG), participated in the Hurricane Katrina Fraud   of a public official.  He
collection and Blue Roof      Task Force (HKFTF)  Conference.                                 was sentenced to 78
distribution sites.  DCIS                                                                     months imprisonment
provided awareness briefings to Corps and contractor           and 36 months of supervised release, fined $1 million,
employees on potential fraud, bribery, and kickback            and ordered to forfeit $350,000 seized during the
schemes.                                                       investigation.  Moo was attempting to acquire and
                                                               trans-ship export controlled U.S. military technology
•  In a joint investigation with other Federal Agencies, to the People’s Republic of China (PRC).  The
information obtained from a proffer by the defendant           investigation determined that Moo was a covert
of an unrelated joint investigation disclosed that             People’s Republic of China agent who was negotiating
Teng Fang Li, president of UNITEK International                for the acquisition and delivery of various export
Corporation, aka Universal Technologies Inc.(UTI),             controlled U.S. military articles to the People’s
and others in his corporation, were illegally exporting        Republic of China.   He also attempted to bribe a U.S.
controlled commodities to a research institute in the          Attorney in a bid to be released from incarceration.  
People’s Republic of China (PRC). Teng Fang Li pled
guilty to charges of false statements and was sentenced •  ABL Aerospace, Inc., a DoD subcontractor, pled
to 12 months probation. Xu Weibo, president of                 guilty to violating the Arms Export Control Act and
Manten Electronics – a corporation established to              the International Trafficking in Arms Regulations
circumvent export control regulations – was sentenced (ITAR).  The company president, Alicia Hed-Ram,
to 44 months in prison, and 24 months of supervised            also pled guilty to conspiracy to violate the ITAR.  
release. Hao Lin Chen, Manten’s vice president, was            ABL and Hed-Ram were sentenced to 5 years
sentenced to 30 months in prison, and 24 months                probation each and the company was fined $500,000.  

                                                                    Department of Defense Office of the Inspector General 43
Significant Accomplishments

During a joint investigation, ABL Aerospace was             Inspections
identified as selling, without the required export
licenses, export controlled U.S. Military (Munitions)       	       The DoD IG’s Office of Policy and Oversight
List items, including F-4, F-5, C-130 and HAWK              (P&O) continues to be involved is a number of
missile components, to the People’s Republic of China.      projects that have a direct impact on the welfare and
                                                            safety of DoD personnel.  Here are some examples
•  A joint investigation, Operation High Bidder,            from this reporting period:
surfaced an eBay auction site that was selling stolen
U.S. military items. The investigation uncovered a          •  DoD Standards for Inspector General Operations
theft ring involving Staff Sergeant Arthur Smith the        in Combatant Commands.  The DoD IG completed
eBay auctioneer, and other soldiers stationed at Fort       this project with the publication of DoD Directive
Lewis, Washington, and found that Staff Sergeant            5106.04 “Inspectors General of the Combatant
Smith intentionally and knowingly conspired with            Commands,” June 19, 2006, and DoD Instruction
military co-conspirators to obtain large quantities of      5106.05 “Inspectors General of the Combatant
stolen military items, and subsequently re-sold the         Commands—Implementing Instructions.”  These
stolen DoD property for personal profit. Staff Sergeant     publications fill a long-term need for comprehensive
Smith and the other co-conspiritors were subsequently       policy, guidance, and training in the roles, missions,
apprehended.  Staff Sergeant Smith was subsequently         functions, and relationships of Combatant Commands.
sentenced to 8 years military confinement, a fine            	
of $150,000, forfeiture of all pay and allowances,          	        The directive and instruction standardize
reduction in rank from E-6 to E-1, and a Bad                policy and guidance to ensure consistent standards
Conduct Discharge for conspiracy to defraud, and            of COCOM IG support to their commands.   An
theft of government property.The co-conspirators were       integral part of this project was the establishment
sentenced to military confinement, reduction in rank,       of the Joint/COCOM IG course at the U.S. Army’s
and forfeiture of pay.                                      Inspector General University at Fort Belvoir, Virginia.  
                                                            During this report period, the third class for this
•  A qui-tam civil suit alleged that Swepco Tube            course was held from July 31 to August 4, 2006. The
Corporation was providing substandard pipe to the           DoD IG will continue its commitment to supervise
Department of Defense and was not performing                and support the program and sustain the quality of
the required contractual quality testing, welding,          instruction and curriculum.
and inspection procedures.  Swepco agreed to pay
a civil settlement and fine totaling $762,750 to
resolve allegations of submission of false claims and
conspiracy to defraud the United States with respect
to claims.  Swepco and its former President, Alfred
Ridella, were debarred from Government contracting
until May 2008.

•  Honeywell International, Inc., a major DoD
contractor, entered into a settlement agreement to
pay the U.S. $2.6 million in response to allegations
contained in a qui tam suit.  A joint investigation
found that National Metallizing, a company
acquired by Allied Signal which was then acquired
by Honeywell, produced defective heat-sealable,
electrostatic protective, flexible barrier packaging. The
                                                            DoD OIG Policy and Oversight personnel arriving in
product was found to expose sensitive equipment to          Kandahar, Afganistan.
static electricity.

44 Semiannual Report to Congress
                                                                                  Significant Accomplishments

•  DoD Safety Program Evaluation.  Accidents not           Human Capital
only impact readiness through lost man-hours and the
unavailability of personnel but are estimated to cost    	        DoD employs more than 3.38 million civilian
the Department approximately $25 billion a year.  In     and military personnel and has a large contractor
May 2003, the Secretary of Defense challenged senior     presence.  Challenges for its Human Capital area
leaders within the Department to reduce in two years     include making sure that the military and civilian
the accident mishap rate by 50 percent.  In March        workforce are appropriately sized, well trained, well
2004, the Secretary challenged DoD managers to           supported operationally, and capable of supporting
reduce accidents 75 percent by 2008.                     current and future needs.  Another more prevailing
                                                         challenge is implementing the National Security
	       Overall responsibility for efforts to reduce     Personnel System (NSPS), with a more flexible pay-
preventable accidents was tasked to the Under            for-performance program.  NSPS changes how DoD
Secretary of Defense for Personnel and Readiness,        hires, evaluates, pays, rewards, and disciplines its
who chairs the Defense Safety Oversight Council          civilian workforce to more closely resemble private
(DSOC).  In November                                                                   sector personnel practices.  
2004, the OIG
announced an evaluation             “                                                  Human Capital challenges
                                         DoD employs more than 3.38 also include the continuing
plan that addresses all        million civilian and military personnel backlog of security
aspects of the safety                                                                  clearances and deficiencies
program-climate,                and has a large contractor presence.” handling and processing
leadership, policies,                                                                  security clearances, and
organizational structure,                                                              an acquisition force
resources, exceptional practices, and lessons learned.   that has declined by 25 percent while the dollars
                                                         spent increased by 78 percent and the number of
	       In March 2006, the Assistant Inspector           procurement actions increased by 14 percent (from 5.8
General for Inspections and Evaluations presented an     million to 6.6 million).
interim progress report to the DSOC and provided
preliminary recommendations for the “Way Ahead.”  
The DoD IG is using constructive engagement
                                                         Audit
techniques and interim progress reviews with DoD
                                                         	        The DoD OIG has an audit team dedicated
management to provide information, preliminary
                                                         to human capital issues and that team participates
findings, and recommendations to stimulate
                                                         with the military service audit agencies and the
continuous, ongoing corporate actions and safety
                                                         Government Accountability Office (GAO) on the
program improvements, rather than waiting for the
                                                         Human Capital Joint Audit Planning Group.
final report.  
                                                           	       Annually DoD counts personnel in the
• Evaluation of Defense Installation Vulnerability
                                                           acquisition workforce to support DoD acquisition
Assessments.  This report, issued on May 23, 2006,
                                                           workforce planning, estimating expenditures for
was requested by the Assistant Secretary of Defense
                                                           workforce training and development, and reporting to
for Homeland Defense (ASD(HD)).  We found
                                                           Congress.  A DoD OIG-audit reported that the FY
that doctrine and organization changes driven
                                                           2004 and previous acquisition workforce counts were
by the Global War on Terror were incomplete.  
                                                           unverifiable.  As a result, DoD acquisition workforce
Protection and assurance concepts were disjointed,
                                                           planning risks could increase because annual workforce
and coordination of associated programs could be
                                                           support and expenditures may be based on unreliable
improved.  We recommended that the ASD(HD)
                                                           data and may not accurately reflect the true DoD
clearly decouple unique Defense Critical
                                                           acquisition workforce.  
Infrastructure Protection efforts from Full Spectrum
Integrated Vulnerability Assessment development.  

                                                                  Department of Defense Office of the Inspector General 45
Significant Accomplishments

	        In another audit, the DoD OIG identified           ICPAs and employee supervisors did not encourage
that numerous activities have had difficulty processing     employees injured on the job to use Air Force Medical
requests for personnel security investigations.  The        Treatment Facilities to minimize the costs.  The Air
activities experienced delays in the security clearance     Force incurred an additional $3.4 million in medical
process.  The delays are likely to continue and could       costs for workman’s compensation during FY 2004
easily impact national security, completion of critical     and FY 2005 at the 12 locations reviewed.  A 50-
DoD missions, and support of the warfighter.  The           percent use rate throughout the Air Force achieved
management controls over the DoD Personnel                  over the 6-year Future Years Defense Plan would allow
Security Clearance Program were not sufficient              the Air Force to put almost $18.4 million to better use.  
and did not ensure that requesting activities could         Also, Air Force ICPAs did not maintain support for
efficiently and effectively process security clearance      more than $30.5 million in workman’s compensation
requests.  The DoD OIG reported that activities             costs and could not validate whether 178 employees
initiating requests for personnel security investigations   remained eligible for workman’s compensation
could not rely on the Joint Personnel Adjudication          benefits.  The Air Force spent an estimated $48 million
System for accurate and complete personnel data.            on unsupported reimbursements during FY 2004.
Further complicating the situation, the Office of
Personnel Management was rejecting personnel                	        An AFAA audit determined that their
security investigation requests and security personnel      Affirmative Employment Program did not achieve
did not always know about the process or systems for        minority and female representation in the Air
personnel security.                                         Force civilian workforce.  An effective Affirmative
                                                            Employment Program is essential for Air Force
	        The Secretary of the Army and the Chief            personnel to comply with the self-assessment
of Staff, Army directed 17 realignment actions for          requirements for Equal Employment Opportunity
consolidation of human resources organizations and          Commission Management Directive 715.  Air Force
processes of the Active, Reserve, National Guard, and       civilian workforce demographic data show that the
civilian Components of the Army.  An AAA audit of           number of minorities and females in grades General
those 17 consolidating actions showed that the Army         Schedule (GS) 13 and above were below the National
successfully implemented 6, were processing 7, and          Civilian Labor Force composition at each of the 12
were recommending rescinding 4.  After the Army             locations reviewed.  Effective hiring efforts and career
began the consolidation, the established infrastructure     progression would minimize under representation and
and necessary emphasis from Army leadership was             help the Air Force achieve its human capital goals and
significantly reduced.  Consequently, actions for some      objectives.
of the inprocess consolidations were delayed.	
                                                            Investigations
	       An NAS audit on Acquisition Workforce
Position Accountability determined that Department          	       The DCIOs have undertaken several initiatives
of the Navy positions in the acquisition workforce          to raise community awareness of fraud, waste, and
were not always consistently or properly designated         abuse against the DoD, and take proactive approaches
across the Navy.  Such inconsistency could prevent          to detect public corruption, internal weaknesses, and
the Director for Acquisition Career Management              systemic failures in an effort to combat corruption in
from effectively using training funds and from making       the Department.  They also investigate crimes against
informed decisions about the acquisition workforce.         persons.  Examples of their ongoing investigative
                                                            efforts are illustrated below:
	       An AFAA audit of Workman’s Compensation
concluded that although Injury Compensation                 	      A Navy Petty Officer received 54 months
Program Administrators (ICPAs) and supervisors              confinement, forfeiture of all pay and allowances,
effectively used programs for rehabilitating and            reduction in rank, and a bad conduct discharge, after
returning injured civilian employees to work,               being convicted at a general court-martial of assault.  

46 Semiannual Report to Congress
                                                                                    Significant Accomplishments

During interrogation, he admitted to violently shaking       	        An Air Force senior airman was sentenced to
his 3-1/2 month son on four separate occasions.              life in prison and discharged from the military under
                                                             other than honorable conditions after being convicted
	       In a general court martial, a Marine Corps           of homicide in the death of a 1-year-old child for
gunnery sergeant, was sentenced to life without              whom he was babysitting
parole, reduced to E-1, ordered to forfeit all pay and
allowances, and received a dishonorable discharge for        Inspections
the murder of his former girlfriend.
                                                             •  Revolving Door-Post Government Service
	        A Navy seaman was sentenced to life in prison       Employment Project.  Compliance with restrictions
after he admitted culpability in the bludgeoning death       on post-government employment activities is a
of a 56-year-old Japanese woman. He also admitted            challenge the Department faces as it strives to
to stealing a 10,000 yen note (approximately $86.00)         maintain a high standard of integrity and public
from the victim. The joint investigation resulted in trial   confidence.  Disclosure of a Pentagon acquisition
at a Yokohama District Court.                                official’s violation of post-employment guidelines
                                                             prompted members of Congress and senior level
	       A Navy petty officer, was convicted by general       DoD officials to question whether current training
court martial of child sexual abuse and disorderly           and information provided to employees are sufficient
conduct for forcing a 15 year old to have sex with           to prevent similar irregularities.  The Government
him. He was sentenced to seven years of confinement,         Accountability Office issued an April 2005 report
ordered to forfeit all pay and allowances, reduced           on the “Defense Ethics Program: Opportunities
in rank to E-1, given a dishonorable discharge and           Exist to Strengthen Safeguards for Procurement
required to register as a sex offender.                      Integrity,” which stated the DoD lacks information
                                                             to evaluate the DoD training and counseling process.
	      A Navy petty officer, was found guilty                The DoD OIG, in partnership with a civilian
by a general court martial, sentenced to 10 years            contractor, completed a Web based survey to measure
confinement, ordered to forfeit all pay and allowances,      the awareness and attitudes of DoD senior officials
reduced in rank to E-1, and given a bad conduct              and acquisition force regarding post-Government
discharge for child pornography. He admitted to              service employment restrictions.  The survey data has
subscribing to child pornography websites.                   been analyzed and briefed to the DoD Standards of
                                                             Conduct Office.  The DoD OIG will publish the final
	       A Marine Corps private, was convicted by             report in November 2006.
a special court martial, sentenced to 12 months
confinement, ordered to forfeit $10,176, and given a         •  Follow-up Evaluation of the DoD Chaplain
bad conduct discharge for indecent assault.                  Program.  We closed outstanding recommendations
                                                             from a previous evaluation requested by Congress.  
	       A Navy petty officer  was sentenced to three         Subsequent to our follow-up requests, the Deputy
years confinement and given a bad-conduct discharge          Under Secretary of Defense for Military Personnel
after being convicted of rape by a general court             Policy responded on July 19, 2006, that the Armed
martial.                                                     Forces Chaplains Board had approved criteria
                                                             and provisions for the removal or rejection of any
	       An Air Force lieutenant was sentenced to             individual or organization from participation in the
50-years confinement, capped by pretrial agreement           DoD Chaplain program if indicted or convicted of
to 25 years, ordered to forfeit all pay and allowance,       terrorist-related activities or affiliated with entities
and dishonorably discharged from the military, after         on the State Department List of Foreign Terror
pleading guilty to charges of homicide in the beating        Organizations.  The provisions satisfy the intent
death of his 5-week-old child.                               of recommendation in the “Evaluation Report on
                                                             the DoD Chaplain Program,” November 10, 2004.

                                                                    Department of Defense Office of the Inspector General 47
Significant Accomplishments

Information Security and                                  Audit
Privacy
                                                          	       Between August 1, 2005, and July 31, 2006,
                                                          GAO and the DoD audit community issued 28
                                                          reports that discuss information assurance (IA)
                                                          weaknesses persisting throughout DoD systems and
                                                          networks.  If those reported weaknesses continue,
                                                          they will impede DoD ability to mitigate risks
                                                          associated with a shared information technology (IT)
                                                          environment.  The risks that DoD needs to mitigate
                                                          include harm resulting from loss, misuse, unauthorized
                                                          access, and modification of information or information
                                                          systems.  The reports most frequently cite weaknesses
	       Ensuring that the Department has a robust
                                                          in the following areas:  access controls; certification
information security program continues to be a
                                                          and accreditation; security awareness, training and
challenge.  A robust information security program
                                                          education; and security policies and procedures.  In
includes periodic risk assessments; security awareness
                                                          the seven IA summary reports published from FY
training; effective security policies, procedures, and
                                                          1999 through FY 2005, the DoD OIG identified 45
practices; and tests of effectiveness.  A program
                                                          reports that were older than 12 months with final
should also include procedures that address handling
                                                          management action pending to correct agreed-upon
deficiencies and detecting, reporting, and responding
                                                          IA weaknesses.
to security incidents.  The Department also faces the
challenge of ensuring that advances in technology
                                                          	        The DoD OIG identified that the DoD
do not eclipse our efforts in protecting the privacy of
                                                          Chief Information Officer (CIO) began a major IT
departmental employees.  One major challenge that
                                                          acquisition initiative but did not adequately consider
the DoD OIG identified last year was implementation
                                                          IA implications for DoD of the technology being
of the Health Insurance Portability and Accountability
                                                          procured.  As a consequence, sensitive information
Act (HIPAA).  Challenges continue for protecting
                                                          in DoD was potentially vulnerable to unauthorized
sensitive personal and medical information as DoD
                                                          access.  Two additional audits reported that the
and the health care industry move toward health care
                                                          Missile Defense Agency (MDA) did not properly
records that are electronic.  
                                                          or consistently certify and accredit the Command
                                                          and Control Battle Management Communications
	       The Department did not make much
                                                          System and the Ground-Based Midcourse Defense
progress during FY 2006 in improving its posture for
                                                          Communications Network.  Also, MDA officials for
information security.  Recent losses of privacy data
                                                          the system and the network did not implement IA
by various Federal agencies—including components
                                                          controls that would protect the integrity, availability,
of the Department—and the lack of a clear DoD
                                                          and confidentiality of the system’s information.  As a
policy from the Assistant Secretary of Defense for
                                                          result, MDA may not be able to reduce the risk and
Networks and Information Integration (ASD[NII])
                                                          magnitude of harm from misuse or unauthorized
on protection of privacy data tends to exacerbate
                                                          access to or modification of the system’s information
unresolved issues.  The Department is, however,
                                                          or ensure the continuity of the system.
making progress implementing HIPAA.  The Federal
Government is working to use encryption capabilities
                                                          	      The DoD OIG determined that the Defense
more effectively.  Once that happens, the challenge
                                                          Logistics Agency (DLA) Chief Information Officer
should be eased.  The Administrative Simplification
                                                          (CIO) did not fully implement information security
Enforcement final rule, effective in March 2006,
                                                          operational controls at DLA.  It was, therefore,
covers civil penalties for violations of administrative
                                                          operating the system with vulnerabilities that could
simplification provisions of HIPAA.
                                                          present potential risks to DLA and DoD.  The

48 Semiannual Report to Congress
                                                                                   Significant Accomplishments
DLA CIO did not ensure the Business Systems                 criminal and fraud computer-evidence processing,
Modernization-Energy (Fuels Automated System)               analysis, and diagnosis in computer investigations and
was fully certified and accredited.  The CIO also did       computer forensics.  Various information technology
not address in the plans of action and milestones the       programs are depicted below:
weaknesses for system security.  Further, the CIO did
not ensure that adequate access controls for users were     	       In conjunction with its responsibility to
in place, did not consistently train users in annual        protect the integrity of the DoD procurement
security awareness, and did not complete and test           and acquisition process, DCIS increased its focus
system-wide continuity of operations plans.                 on investigating the illegal transfer and/or theft
                                                            of DoD-related technologies, weapons systems,
	        NAS reported that tenant activities at Naval       components and information as early as the mid-
Air Station Pensacola, Florida, did not properly            1990s.  The DCIS Technology Protection Program
recycle documents containing protected personal             oversees investigations of the illegal diversion,
information—putting individuals at risk for identity        theft, or movement of strategic technologies and
theft.  Auditors recommended establishing controls          U.S. Munitions List items to proscribed nations,
that would render protected personal information            and to terrorist organizations that pose a threat to
unrecognizable prior to disposal.                           national security. Technology Protection-related
                                                            investigations have grown to encompass approximately
	        In another security-related audit, AFAA            20 percent of DCIS’ active caseload.  DCIS is
concluded that the Air Force should improve processes       currently recognized by the Department of Homeland
for addressing security in systems acquisition and          Security, the Department of Commerce, the FBI,
development.  Managers were not always sure how to          and various members of the Intelligence Community
mitigate risk associated with software development          as the primary DoD criminal investigative element
and the Air Force commands and field operating              supporting the on-going battle against counter-
agencies did not effectively incorporate security           proliferation and illicit technology transfer.
requirements into software development.  Also, Air
Force management did not adequately mitigate
risks associated with contractors and subcontractors
developing and sustaining Air Force software.  
Consequently, Air Force systems were increasingly
vulnerable and could be exploited.  Auditors also
identified instances where Air Force officials did not
effectively comply with appropriation laws when
purchasing IT services through non-Air Force
activities.  Air Force managers improperly used $1.29
million to cover subsequent costs, and $4.88 million
remained available for management to reclaim and put
to better use.  In addition to not adequately mitigating
risks and not effectively complying with appropriations
law, management did not effectively ensure that the      DCIS special agents conduct computer investigations training.
systems the major commands and field operating
agencies operate on the Global Information Grid.         	       DCIS provides a full-time representative to
                                                         the Joint Task Force for Global Network Operations
Investigations                                           ( JTF-GNO) and the Law Enforcement and
                                                         Counterintelligence Center (LECIC).  The JTF-
                                                         GNO is tasked with defending the DoD’s Global
	        The DCIO agents regularly coordinate            Information Grid, while the LECIC works to
and train with other national intelligence and law       deconflict criminal and counterintelligence computer
enforcement agencies involving counterintelligence,      intrusion investigations among the DCIOs
                                                                   Department of Defense Office of the Inspector General 49
Significant Accomplishments
	        Additionally, 39 DCIS Special Agents have         also ordered to pay $138,000 in restitution to the
earned professional certifications from the Defense        Department of Defense.  A joint investigation found
Computer Investigations Training Program (DCITP).          that Mr. Maxwell used “botnets” to launch destructive
Current DCIS proficiency and continuing education          attacks, to send large quantities of spam across the
guidelines meet or exceed DCITP’s annual re-               internet, and to receive covert installations of adware.  
certification requirements.                                His actions damaged computer systems operated by
                                                           the Department of Defense and civilian organizations.
	       During this reporting period, action was
taken on two “botnet” or computer hacking cases.  A
“botnet” comprises a collection of cracked machines        Acquisition Processes and
running programs, usually referred to as worms, Trojan     Contract Management
Horses or backdoors, under a command and control
infrastructure.  “Botnets” serve various purposes,         	       The Department’s Acquisition and Contracting
including Distributed Denial of Service attacks,           management challenge is to provide to the Services
creation or misuse of Simple Mail Transfer Protocol        materiel and services that are superior in performance,
email relays for spam, click fraud, and the theft of       high in quality, sufficient in quantity, and reasonable in
application serial numbers, login IDs, and financial       cost despite the ever increasing volume and complexity
information such as credit card numbers.                   of purchases.  Each acquisition dollar that is not
                                                           prudently spent results in the unavailability of that
	       In the first ever prosecution of a “botnet”        dollar to fund the top priorities of the Secretary of
case, Jeanson Ancheta was sentenced to 57 months           Defense and wastes valuable taxpayer dollars.
confinement following
a conviction on charges
conspiring to violate the
                                     “ Each acquisition dollar that is not 	 During FY 2006, the
                                                                                          Department experienced
Computer Fraud Abuse             prudently     spent   results  in  the   unavail-        continued shortcomings
Act and the CAN-SPAM              ability of that dollar to fund the top in complying with the
Act.  He also was ordered                                                                 DoD 5000 series of
to forfeit three of his           priorities of the Secretary of Defense guidance and the Federal
computers, his BMW               and wastes valuable taxpayer dollars.” Acquisition Regulation
automobile and $335,000                                                                   (FAR).  The DoD OIG
previously seized from                                                                    identified instances where
his bank account. After confinement, Mr. Ancheta           Army acquisition officials misused appropriated funds
was ordered to serve 3 years of supervised probation       because they had not complied with that guidance.  
and is not allowed to use a computer or connect to         The Department also has significant challenges
the Internet without his parole officer’s approval.  A     regarding purchases made for the Department through
joint investigation found that Mr. Ancheta wrote           other agencies.  Last year, Military Interdepartmental
malicious computer code, spread that code to infected      Purchase Requests valued at about $406 million used
computers, and sold access to the infected computers       to make purchases through other agencies did not
for the purpose of launching distributed denial of         comply with the appropriations law and the FAR.
service attacks and sending spam emails.  He used
the programs to infect computers at various Defense        	       The Department should continue with its
locations.                                                 vigilant investigations of allegations of corrupt
                                                           criminal and administrative acquisition.  Undoubtedly,
	       In another computer hacking case, Christopher the work of a few to undermine the integrity of the
Maxwell was sentenced to 37 months confinement             acquisition process can set back the success of millions
following conviction on charges for conspiring             of acquisition actions within the Department.  The
to intentionally cause damage to a protected US            Department also needs to strike a proper balance
Government computer and computer fraud.  He was            between reducing the time for awarding procurements


50 Semiannual Report to Congress
                                                                                Significant Accomplishments
and maintaining adequate controls for safeguarding       	       DoD is challenged to contract for IT that
scarce departmental resources.  Use of initiatives for   includes IA and all contracting clauses that Federal
streamlining acquisitions such as buying commercial      and DoD regulations require for safeguarding its IT
items makes sense.                                       infrastructure.  Although the Department developed
                                                         five priorities for IA (protecting information,
Audit                                                    defending systems and networks, providing situational
                                                         awareness, improving the capabilities of IA, and
	       A DoD OIG audit of procurement procedures        creating a professional IA workforce), a plan did not
for the Next Generation Small Loader disclosed           exist for assessing the effectiveness of initiatives.
that Air Force procurement officials used improper
procurement procedures.  The then-Principal Deputy      	       The Department made little progress during
Assistant Secretary of the Air Force for Acquisition    FY 2006 to improve its IA posture and address
and Management decided to use an aggressive strategy    key policy issues pertaining to that posture.  On
to procure the Next Generation Small Loaders as         November 8, 2005, DoD assured the Director of the
commercial items.  Air Force test results indicated     Office of Management and Budget (OMB) that the
that the Small Loaders could not meet Air Force         Department would resolve issues such as applicability
operational requirements for reliability and that a     of National Institute of Standards and Technology
contract should not have been awarded.  Between 2000    standards and guidelines to the Department, yet
and 2005, the Air Force procured 345 Small Loader       the lack of standard definitions for reporting and
vehicles under a commercial item contract at a cost of  inventory of information systems remain unresolved.  
$151.5 million.                                         The DoD OIG reported in April 2006 that DoD
                                                        issued a request for proposal for an IT indefinite
	       Another DoD OIG acquisition audit showed        delivery/indefinite quantity contract with a $13 billion
that internal control weaknesses existed in the program ceiling without including IA and required contracting
management of the Objective Individual Combat           clauses Federal and DoD acquisition policies require.  
Weapon (OICW) Increment I.  The OICW Program
Office awarded contracts for the XM8 Program            	       An AAA audit of Contracts for the Hurricane
(which later became the OICW Increment I) before        Protection  System in New Orleans showed that the
having an approved warfighter requirement, and it did U.S. Army Corps of Engineers (USACE) awarded
not obtain appropriate milestone decision approval      contracts to technically qualified businesses.  The
before initiating the acquisition.  The OICW Program audit also found that the Government paid reasonable
Office continued to develop the OICW Increment          prices for the work—averaging only 4 percent
I even though the Joint Requirements Oversight          higher than the independent Government estimate.  
Council had not approved warfighter requirements for USACE excelled at awarding contracts to small
Increment I.  Thus, the OICW Program Office had         and local businesses located in hurricane-affected
no assurance that Increment I would satisfy warfighter areas—awarding about 85 percent of contract dollars
requirements.  In addition, OICW contracting officials to Louisiana businesses and about 31 percent to small
did not comply with contracting requirements prior      or disadvantaged businesses.  Because of the stringent
to awarding contract modifications to the overall       demand for quality, contractors needed to provide
OICW.  Further, the then-Program Executive Officer      more comprehensive contractor quality control plans
Soldier issued an acquisition decision memorandum,      and be more diligent in the daily reporting of quality
without evident authority, that started an acquisition  control issues.
program for the XM8 carbine and authorized entry
of the program into the system development and          	       An AAA audit determined that during the 18
demonstration phase of the acquisition process.         month period ending June 30, 2006, Army activities
                                                        disbursed more than $1 billion for items ordered using
                                                        offline purchase systems of DLA and the General
                                                        Services Administration.  Disbursements totaling


                                                                Department of Defense Office of the Inspector General 51
Significant Accomplishments

$627.8 million were posted without prior obligations       Financial Management
in financial systems.  Fund control and materiel
managers didn’t know about the requisitions until bills    	       Financial statements in DoD remain large,
were processed against financial records.  Activities      complex, diverse and problematic.  The DoD OIG
that delayed recording obligations understated             issued reports on four DoD systems.  The auditors
execution and could not accurately track remaining         tested the design and operating effectiveness of the
available funds.  In addition, weaknesses in the overall   controls in operation.  The controls in place to ensure
control environment and breakdowns in management           compliance with DoD IA policies appeared to be
control activity left the Army vulnerable to fraudulent,   suitably designed, but tests of the design and operating
improper, and abusive purchases.                           effectiveness indicated inconsistencies in adherence
                                                           to DoD policies.  Design control weaknesses existed
	       An AFAA audit concluded that while some            regarding access controls for user and access rights,
Air Force levels implemented the Quarterly Enterprise      physical and logical controls to detect unauthorized
Buy (QEB) program to purchase desktops, laptop             access, and audit trails.  Additionally, tests of operating
computers, and monitors, the Air Force as a whole          effectiveness identified primary deficiencies in
did not achieve the objectives of the QEB program.         authorization, completeness, change controls, and
Increasing QEB program participation would mean            configuration management.
that the Air Force could put $326 million to better use
over the Future Years Defense Plan.  In addition, Air      Audit
Force personnel did not adequately manage waivers
when deviating from the approved Infrastructure             	       Along with the reports on internal control and
Technology Reference Model standards.                       compliance with laws and regulations, the DoD OIG
                                                            issued individual audit reports on the Department’s
	        AFAA also reported that although Air Force         compliance with specific laws and regulations,
personnel were aware of and complied with the               financial management processes, and the Department’s
Competition in Contracting Act and related FAR              compliance with the Prompt Payment Act of 1998.  In
requirements, they could improve some processes.            one audit, the DoD OIG reported that the Defense
Program officials allowed the Theater Battle                Finance and Accounting Service (DFAS) Columbus
Management Core System development contract to              did not comply with the Prompt Payment Act and
increase in cost and in performance period                             recommended correcting errors that resulted
without benefit of a Justification and                                   in incorrect interest payments and lost
Approval.                                          “    Financial          Federal interest in FY 2004 projected at
                                                  statements in               $850,000 and $919,000 respectively.  
	        The contract increased                                                 The Central Site Deputy Director,
by more than $450 million, and                 DoD remain large,
                                                                                 DFAS Columbus commented that
the contract performance period              complex, diverse and               the deficiencies would be corrected
exceeded the basic contract scope.  
Program management personnel
                                                  problematic. ”              by changing the Mechanization of
                                                                           Contract Administration Service process
took corrective actions during the audit                                 and providing refresher training to DFAS
to address some internal control issues                               personnel.
by revising procedures.  Air Force guidance on
applicability of Justification and Approvals required       	       The DoD OIG also issued a report about
clarification to reduce the risk of contractor protest,     $21.3 billion in unexplained abnormal balances in
embarrassment to the Air Force, and the need to ratify the trial balance submissions DFAS Indianapolis
future contracting actions.                                 used to prepare the third quarter FY 2005 Other
                                                           Defense Organizations Financial Statements.  The
                                                           DoD OIG recommended that DFAS Indianapolis
                                                           revise and improve guidance to the accounting offices

52 Semiannual Report to Congress
                                                                                  Significant Accomplishments

supporting the Other Defense Organizations that            for managing the financial resources of the MWR
require them to provide explanations in the footnotes      Program.  Transfer to a One Fund setup would be the
on the quarterly trial balance submissions; establish      best alternative for the Army to mitigate enterprise
and implement a process for identifying abnormal           risk; centralize treasury management; consolidate the
balances in the financial data supporting the Other        fund structure; and align the financial management
Defense Organizations financial statements; and            structure with the Army mission, vision, and other
disclose the financial statement disposition of those      initiatives.  Opportunities also existed for reducing
anomalies.  The Director of DFAS Indianapolis agreed       overhead and supporting costs, and increasing financial
to revise the existing year-end guidance and establish     transparency by centralizing the accounting functions
separate quarterly guidance to specifically require        and consolidating the fund structure.
accounting offices to provide explanatory footnotes
for all abnormal balances in the quarterly trial balance   	       NAS reported that the Navy’s process for
submissions.                                               reviewing unliquidated obligations (ULO) needed to
                                                           improve for the Navy to conduct efficient and effective
	       The Senate Select Committee on Intelligence        reviews consistent with DoD guidance.  Auditors
wanted audit opinions on the FY 2007 financial             recommended that the Assistant Secretary of the
statements for the Defense Intelligence Agency,            Navy for Financial Management and Comptroller
the National Security Agency, and the National             seek relief from the Office of the Under Secretary of
Geospatial-Intelligence Agency.  In anticipation of        Defense Comptroller from reviewing low-dollar ULO
that requirement, the DoD OIG issued classified            transactions (specifically, transactions of $1,000 or less)
reports with recommendations for improving the             and eliminate firm-fixed price contracts and ULO
financial management and internal controls at              transactions with delivery dates outside the review
the agencies to prepare for the FY 2007 financial          cycle.  Auditors further recommended that the Budget
statement audits.  Throughout FY 2006, the DoD             Submitting Offices recover excess ULO funds and put
OIG followed up on previous recommendations                them to other use, and maintain a list of firm-fixed
and conducted additional financial-related audits          price contracts and ULO transactions with delivery
and reviews of internal controls of those intelligence     dates outside the review cycle excluded from the
agencies.                                                  review process.

	       AAA reported that the U.S. Army Chemical           	        An AFAA audit concluded that DFAS and
Materials Agency (CMA) network that hosts the              Air Force personnel did not effectively perform the
Integrated Planning and Management System was              General Fund triannual review.  Personnel did not
not re-accredited in accordance with DoD and Army          correctly identify or adequately validate accuracy for
guidance because key agency personnel believed             110 of 225 (49 percent) selected ULOs, valued at $2.8
it was unnecessary.  CMA could manage funding              billion.  By the end of the audit, DFAS and Air Force
for the chemical stockpile storage mission—about           management located support for all but 25 ($1.35
$110 million for FY 2005—more efficiently if the           billion) obligations.  Management deobligated or
chemical depots and demilitarization activities didn’t     reapplied ULO funds totaling more than $5 million
have decentralized business management systems to          during the audit and will deobligate remaining funds
maintain funds.  Also, the Army should still document      as determined necessary upon completing obligation
the process it uses when allocating base operations        research.
requirements for chemical depots and shared
headquarters costs.                                        	       Another AFAA audit revealed that property
                                                           managers did not always adequately support, accurately
	       An AAA audit on the financial management           record, or timely process real property adjustments
structure for the Army Morale, Welfare, and                to the financial statements.  Without accurate real
Recreation (MWR) Program concluded that an                 property data, Air Force Financial Statements cannot
Army-wide One Fund is the appropriate alternative          be relied on, and senior officials cannot effectively


                                                                  Department of Defense Office of the Inspector General 53
Significant Accomplishments

make critical real property management decisions such        	        A joint investigation revealed that Precision
as funding acquisitions and maintenance requirements.        Machining Inc. (PMI), a major contractor, conspired
                                                             with National Materials Limited and Taber Metals,
Investigations                                               Defense subcontractors, to defraud the U.S.
                                                             government by making false claims and statements
	       The DoD loses millions of dollars annually           to receive progress payments. Taber Metals, through
because of financial crime, public corruption, and           National Materials Limited, claimed incurred
major thefts.  Through the investigative efforts of          costs of $1.9 million for non-existent aluminum
DCIO special agents, abuses in the procurement               extrusions.  PMI subsequently sought bankruptcy
process, such as the substitution of inferior products,      protection, and committed bankruptcy fraud by selling
overcharges, bribes, kickbacks, and cost mischarging,        and hiding assets and submitting false documents.  
are exposed.  Additionally, the DCIOs have partnered         Principals of PMI (et al) were convicted of  Federal
with acquisition and financial agencies to proactively       Tax Evasion, Fraud Against the United States, and
identify areas of vulnerability.  Some DCIO efforts to       Obstruction of Audit; sentenced to serve 24 to 29
combat financial threats to DoD follow.                      months confinement; and ordered to pay the Federal
                                                             government $10.2 million in restitution.  National
	       In August 2006, DCIS hosted an Interagency           Materials Limited and Taber Metals, as a result of a
Public Corruption Conference in Baltimore,                   civil settlement, agreed to pay the Federal Government
Maryland, attended by 150 Federal investigators,             $930,000.  All firms were debarred from Defense
attorneys, and senior law enforcement officials from         contracting.
over 30 Federal agencies from all over the country.  
The conference promoted the exchange of information,         	        Force Protection, Inc., a major contractor,
ideas and concepts that enhance efforts to investigate       reached a civil agreement agreeing to pay $1.8 in
and prosecute public corruption cases.  Speakers             restitution to the Federal government to resolve
included Deputy Attorney General Paul McNulty, U.S.          allegations of submitting false claims and violations
Attorney for the Middle District of Louisiana David          of the Anti-Kickback Act.  An investigation, based
Dugas, U.S. Attorney for Maryland Rod Rosenstein,            on multiple qui tam complaints, found that Force
and other senior officials from various Federal              Protection Inc. submitted false claims and statements
agencies.  The conference focused on topics relating to      involving the manufacture of the U.S. Army Buffalo
conflict of interest violations, bribery, and contingency/   Mine Resistant Vehicle and U.S. Marine Corps Mine
emergency contracting.                                       Resistant Vehicle (Cougar).  The joint investigation
                                                             identified non-conformance in ballistic qualities,
                                                             gunport assembly, metal consistency, vehicular body
                                                             and body components.

                                                             	        Under a Civil Agreement, KPMG Limited
                                                             Liability Partnership and Bearingpoint, Incorporated,
                                                             agreed in a civil settlement to pay $2.7 million and
                                                             $15 million respectively to the US Government to
                                                             resolve charges of submitting false claims and making
                                                             false statements. An investigation, based on a qui tam
                                                             complaint, revealed that KPMG entered into working
                                                             agreements with various travel service providers and
                                                             credit card companies, whereby KPMG would receive
                                                             all rebates thus reducing operating costs without
                                                             providing cost reductions to U.S. Government clients.  
  A DCIS special agent speaks at the Interagency Public
                                                             Bearingpoint subsequently entered into a working
  Corruption Conference hosted by DCIS in Baltimore.         agreement with the KPMG Travel Program to receive

54 Semiannual Report to Congress
                                                                                   Significant Accomplishments

rebates and reduce operating costs, with both firms        “financial education” training as “savings plans” when
knowingly submitting false claims to the government        in reality they were expensive insurance policies.  The
for inflated costs.                                        U.S. Government filed a civil action and injunction
                                                           against the company to settle the matter, which
	       In a combined settlement agreement for             resulted in 57,000 military members sharing a cash
two cases, The Boeing Company, a major Defense             payment of $10 million from which 53,000 individuals
contractor, agreed to a $565 million civil settlement      (military and non-military) will see an increased value
and a $50 million criminal fine.  The first case involved  in their policies upwards of $60 million.  The company
Boeing’s use of sensitive bid information from a           also agreed to change its future marketing conduct.
competitor to win rocket launch contracts.  The
sensitive bid information was provided by an engineer 	            Based on a civil settlement, Clark Atlanta
formerly employed by the competitor.  The second case University agreed to pay $5 million, $3.9 to the
involved conflict of interest on the part of Darleen       Federal Government and $1.1 to a qui tam relator, to
Druyun, former Principle Deputy Assistant Secretary        resolve allegations that it submitted false claims to the
of the Air Force for Acquisition and Management,           Government.  A joint investigation revealed that Clark
and Michael Sears, a Boeing official.  The conflict        Atlanta spent Federal monies, awarded as part of an
occurred when Boeing hired Mrs. Druyun’s daughter          agreement to assist other Historically Black Colleges
and (future) son-in-law                                                                   and Universities, to
while Mrs. Druyun was
actively involved in major
                                              “   The audit team referred                  develop curriculum and
                                                                                           pursue other activities
procurement negotiations        approximately $2.4 million of claims to DCIS that would enhance the
that influenced contracts                    for possible investigation.”                  overall goal of increasing
awarded to Boeing.  As                                                                     the number of minority
a part of the settlement,                                                                 students in environmental
Boeing’s Launch Systems, Launch Services, and              technology and waste management.  As part of the
Delta Program were suspended from government               settlement, Clark ensured that future Federal funds
contracting for 20 months.                                 will be managed properly.  

	       Age Refining, Incorporated, a major Defense        	        WEDJ Three C’s Inc., a Defense contractor,
contractor, entered a civil agreement, agreeing to         entered a civil settlement agreement and agreed to
pay the Federal Government $9 million to resolve           pay $840,000 to the Federal Government to resolve
allegations of violating the False Claims Act.  A joint    allegations of product substitution and submitting
investigation found that Age Refining falsely certified    false claims.  An investigation, based on a qui tam
its compliance with the provisions of the Historically     suit filed by a former employee, found that WEDJ
Underutilized Business Zone (HUBZone) program              utilized used and reconditioned components in air
in order to be entitled to a price evaluation preference   conditioning units used on the Landing Craft Air-
when bidding for jet fuel and other contracts with         Cushioned ships and environmental control units
the Department of Defense.  Age Refining was also          developed for the Patriot Missile Shelters, as well as
decertified for a specified period as a HUBZone            alleged falsification of test data on the environmental
company.                                                   control units. The company, which was debarred for
                                                           three years, additionally agreed to transfer possession
	       As a result of a civil settlement, American        and title of $170,000 in environmental control unit
Amicable Life Insurance Company, a major DoD               parts to the US Army.  The qui tam relator received a
contractor, agreed to pay the Federal Government           payment of $188,602.
$70 million to settle allegations that they engaged
in misleading business practices in the sale of life       	       Seven government and contractor employees
insurance to members of the United States Armed            at the Norfolk Naval Shipyard (NNSY), Portsmouth,
Forces.  The company promoted products during              Virginia, were convicted of various offenses

                                                                   Department of Defense Office of the Inspector General 55
Significant Accomplishments

including bribery and receiving and conspiracy to             Health Care
pay illegal gratuities. A transportation officer at
the NNSY received concurrent 44 and 24 month
jail sentences and 3 years probation, in addition to
making restitution in the amount of $543,055. An
investigation found that the transportation officer and
three other government employees were accepting
money and gifts from three contractors in exchange
for government business.  One of the contractors
was sentenced to 8 months in jail, 3 years probation,
and 180 days of home detention, and required to pay
$543,055 in restitution.  Another was given 3 years
probation and 150 hours home detention, and required
to pay $84,163 in restitution.  The third contractor
was sentenced to 6 months home detention, 200
hours community service, and 3 years probation, and           	        A major challenge to the Department is
required to pay $75,000 in restitution.  One of the           sufficient oversight of the growing cost of health care
government employees received 21 months in jail, 3            for military members.  The increased frequency and
years probation, and was required to pay $329,209             duration of military deployment further stresses the
in restitution.  Another government employee was              Military Health System (MHS) in both the Active
sentenced to 12 months in jail and 3 years probation,         and Reserve components.  The DoD budget for health
and was required to pay $84,163 in restitution.  The          care costs in 2006 was $38.4 billion, including $20.4
third government employee was sentenced to 3 years            billion in the Defense Health Program appropriation,
probation.  All were debarred from government                 $6.9 billion in the Military Departments’ military
contracting.                                                  personnel appropriations, $0.3 billion for military
                                                              construction, and $10.8 billion for contributions to the
	        General Electric Company (GE), on behalf             DoD Medicare-Eligible Retiree Health Care Fund to
of itself and subcontractors ALCOA and Precision              cover future costs of health care for Medicare eligible
Castparts, entered into a settlement agreement to             retirees, retiree family members and survivors.   Part
resolve allegations of product substitution, false claims,    of the challenge in delivering health care is combating
false statements, and major fraud, agreeing to pay a          fraud.  As of June 30, 2006, health care fraud
$11.5 million restitution.  An investigation, based           constituted 8 percent of the 1,595 DCIS open cases.
on a qui tam suit, found that GE conspired with
the subcontractors to supply the DoD with turbine               	        A challenge related to medical readiness
engines containing turbine blades and vanes non-                remains completion of a Medical Readiness Review
conforming to contract requirements.                            (MRR), which is overseen by a steering group that
                                                                the Under Secretary of Defense for Personnel and
	        Pratt & Whitney Aircraft Division (PWAD)               Readiness and the Director for Program Analysis
of United Technologies entered into an agreement                and Evaluation co-chair.  The MRR continues to
with the Department of Defense to pay $283 million              identify medical readiness and personnel management
in restitution to settle allegations of false certifications.   capabilities that the National Security Strategy and
A Defense audit found that PWAD excluded                        related warfighting transformation efforts require.  
significant financial information required during               Readiness of the medical staff and units includes
contract negotiations for Military contracts which              ensuring that medical staff can perform at all echelons
resulted in overpayments to PWAD of several hundred of operation and that the units have the right mix of
million dollars in indirect costs.  Criminal and civil          skills, equipment sets, logistics support, and evacuation
prosecutions were both declined in 1996, and the case and support capabilities.  MHS continues to face the
was referred for administrative action.                         challenge of increased joint operations/management.

56 Semiannual Report to Congress
                                                                                 Significant Accomplishments

Audit                                                     developed the Medical Communications for Combat
                                                          Casualty Care (MC4) infrastructure program.  The
	       DoD OIG resources focused on projects             Product Manager for MC4 had difficulty finding
relating to cost and quality challenges.  The DoD OIG     many of the key documents articulating changes to the
continued audits of the Controls Over the TRICARE         program’s baseline configuration, and many documents
Overseas Program, Third Party Collection Program,         on file lacked key information about the proposed
and Quality Assurance Review Procedures in the DoD        changes.  The Office of the Product Manager had not
Health System.                                            established a system development library to enhance
                                                          its configuration management.  A library and the
	       Phase one of the TRICARE Overseas                 preservation of the program’s baseline documentation
Program project identified improper payments              are critical for life-cycle management.
in one country.  The phase one audit concluded
that the TRICARE Management Activity should               	        An AFAA audit disclosed that opportunities
implement additional controls that would hold             exist for Air Force optometrists to increase the number
providers accountable for claims submitted themselves     of patients treated each day.  Increasing optometrist
or on their behalf, and to ensure that supplemental       productivity to treat an additional 9,465 patients at the
health insurance plans do not waive beneficiary co-       18 locations would let DoD put approximately $2.8
payments and deductibles.  The audit team referred        million to better use each year.  Statistically projecting
approximately $2.4 million of claims to DCIS for          results throughout the Air Force, auditors estimated
possible investigation.  The ongoing phase two project    increased provider productivity could allow MTFs
will expand the phase one effort to cover additional      to provide greater quantities of care in-house.  In
countries and evaluate the need for additional controls   addition, the Air Force could avoid purchasing private
such as price caps.                                       sector medical care costing approximately $45 million
                                                          over the 6-year Future Years Defense Plan.
	       The Assistant Secretary of Defense for
Health Affairs requested an audit of the Third Party      	       An AFAA audit concluded that the Air
Collection Program.  The DoD OIG is conducting            Force effectively achieved the goal of protecting
the audit jointly with AAA.  A statistical sample of      human health and the environment.  However,
outpatient billings that MHS administrators processed     opportunities existed for reducing groundwater
will determine whether DoD is maximizing its              cleanup cost.  Installation environmental engineers
collections for health care provided to beneficiaries     continued groundwater monitoring at 477 of 1,987
with health insurance other than TRICARE.                 (24 percent) wells reviewed after meeting groundwater
                                                          cleanup standards.  Groundwater monitoring of the
	       The Deputy Assistant Secretary of Defense         477 wells that were dry, uncontaminated, or that
for Clinical and Program Policy asked the DoD OIG         met Environmental Protection Agency standards
to audit the Quality Assurance Review Procedures in       cost the Air Force $1.1 million each year or $6.5
the DoD Health System.  Consistent with the Deputy        million over the 6-year Future Years Defense Plan.  
Assistant Secretary’s concerns, the ongoing audit         Although continued monitoring at some wells may be
focuses on whether healthcare managers have visibility    required to ensure protection of human health and the
over medical incidents that occur.                        environment, savings would be obtained by reducing
                                                          the monitoring frequency.
	      AAA issued a report on Information
Assurance for Medical Communications for Combat           Investigations
Casualty Care (MC4).  In response to a 1997 public
law mandating that the Military Services electronically   	       To ensure that DoD provides quality
document healthcare services soldiers receive before      patient care to DoD beneficiaries, the DCIOs have
or during deployment, DoD developed the Theater           aggressively pursued health care investigations
Medical Information Program and the Army                  involving “harm to patient,” corruption, kickbacks, and

                                                                 Department of Defense Office of the Inspector General 57
Significant Accomplishments

allegations with significant TRICARE impact.  Some        national interest” that include:  the Global War on
investigations highlighting their success follow.         Terrorism; Hurricane Katrina; and multi-billion
                                                          dollar acquisition systems.  Specific examples include:
	       In the largest single settlement in the nearly    opening an IG field office in Qatar; placing full-time
150-year history of the False Claims Act, Tenet           DCIS agents in over 50 FBI-led Joint Terrorism Task
Healthcare Corporation (Tenet), operator of the           Forces and Anti-Terrorism Task Forces; dispatching
nation’s second largest hospital chain, agreed to pay     an emergency IG response team to New Orleans to
the Federal Government $900 million plus applicable       provide on-scene assistance to local and state law
interest to settle allegations that it submitted false    enforcement authorities; and leading the Management
claims to TRICARE, Medicare, and other Federal            Accountability Review of the KC-767A tanker
health insurance programs.  The joint investigation was   aircraft.
the result of a qui tam suit.
                                                          Other awards were presented to the DoD OIG as
	       Dr. Thomas Gower Merrill, a TRICARE               follows:  
provider, was sentenced to life imprisonment, and
was ordered to pay $115,071 in restitution and a          •  Award for Excellence for Administrative Support:  
special assessment of $9,800, after conviction of wire    in recognition of exceptional support in the areas of
fraud, health care fraud and distribution of controlled   financial and human capital management within the
substances.  An investigation found that Dr. Merrill      Office of the Deputy Inspector General for Auditing.
prescribed excessive and inappropriate quantities of
controlled substances to his TRICARE patients.  Five      •  Award for Excellence, Audit:  in recognition of
patients died as a result of Dr. Merrill’s actions.       exceptional performance during the audit of the
                                                          “DoD Purchases Made Through the General Service
2006 PCIE Awards                                          Administration.”

	       Each year, the President’s Council on             •  Award for Excellence, Audit:  in recognition of
Integrity and Efficiency (PCIE) honors outstanding        exceptional performance during the audit of the
government employees for their contributions and          “Acquisition of the Objective Individual Combat
achievements.  Several DoD OIG employees and              Weapon.”
projects received recognition when the 2006 awards
were announced in September.                              •  Award for Excellence, Audit:  in recognition of
                                                          Exceptional Performance by the Puget Sound Naval
	        Acting DoD Inspector Thomas F. Gimble            Shipyard Mission-funded Prototype Audit Team.
is the recipient of the 2006 Alexander Hamilton           •  Award for Excellence, Audit:  in recognition of
Award, the highest honor bestowed by the PCIE.            exceptional performance during the Audit of “Controls
The Alexander Hamilton Award is given to an office,       Over Exports to the People’s Republic of China.”
group or individual who “Demonstrates outstanding
achievement in improving the integrity, efficiency or     •  Award for Excellence, Employee Protections:  
effectiveness of Executive Branch agency operations.”     presented to Ms. Jane Deese, Director, Military
                                                          Reprisals Investigations, in recognition of outstanding
	       At a ceremony on October 24, 2006, Mr.            service and dynamic leadership in strengthening
Clay Johnson III, Deputy Director of Management           and expanding the DoD Whistleblower Protection
for the Office of Management and Budget, acting           Program.
in his role as Chair of the President’s Council on
Integrity and Efficiency (PCIE), presented the            •  Award for Excellence, Evaluation:  in recognition
award.  Mr. Gimble was cited for his leadership in        of exceptional performance during the Interagency
focusing DoD IG resources on issues of “paramount         Evaluation of the Export Licensing Process for
                                                          Chemical and Biological Commodities.

58 Semiannual Report to Congress
                                                                                   Significant Accomplishments

•  Award for Excellence, Evaluation:  in recognition      •  Award for Excellence, Joint:  presented to the
exemplary performance by the Ana Belen Montes             Social Security Administration Philadelphia Earnings
Evaluation Team in identifying shortcomings               Integrity Team in recognition of inter-agency
in counterespionage information sharing and               cooperation to ensure the integrity of earnings related
investigations.                                           programs and operations at the Social Security
                                                          Administration, the Department of Defense (DOD),
•  Award for Excellence, Information Technology:          and the Internal Revenue Service (IRS)
in recognition of the exceptional its  performance
during the audit of the “Defense Information Systems
Agency Encore II Information Technology Solutions
Contract.”

•  Award for Excellence, Investigation:  in recognition
of investigative excellence and superior performance
by the San Diego Arms Strategic Technology
Investigations Group on the Multicore investigation.

•  Award for Excellence, Investigation:  presented
to Resident Agent-in-Charge John F. Kihn in
recognition of investigative excellence and superior
performance in support of the Defense Criminal
Investigative Service.

•  Award for Excellence, Investigation:  in recognition
of investigative excellence and superior performance by
the United Aircraft & Electronics Investigative Group.

•  Award for Excellence, Investigation:  in recognition
of investigative excellence and superior performance
on the Akeed Trading investigation.

•  Award for Excellence, Management:  presented to
Ms. Judith I. Padgett, Quality Assurance, Policy and
Electronics Documentation Branch, in recognition of
outstanding efforts in furthering the understanding of
the Managers’ Internal Control Program throughout
the Department of Defense.
                                                          1 Mr. Clay Johnson III presents Acting DoD Inspector General Thomas
•  Award for Excellence, Multiple Disciplines:  in        F. Gimble, at left, the PCIE’s Alexander Hamilton Award.
recognition of exceptional performance during the         2. Ms. Judy Padgett, Quality Assurance, Policy and Electronics
Department of Defense and Department of State             Documentation Branch, receives the Award for Excellence,
Inspectors General Interagency Assessment of the Iraq     Management.
Police Training Program.

•  Award for Excellence, Special Act:  in recognition
of the Department of Defense Hotline Staff for their
exemplary work and contributions to the successful
standup of the Hurricane Relief Fraud Hotline.

                                                                  Department of Defense Office of the Inspector General 59
60 Semiannual Report to Congress
                     DoD OIG Components



Deputy Inspector General for Auditing

	       The Office of the Deputy Inspector General for Auditing (ODIG-AUD) conducts audits on all
facets of Department of Defense (DoD) operations.  The work results in recommendations for reducing costs,
eliminating fraud, waste, and abuse of authority, improving performance, strengthening internal controls, and
achieving compliance with laws, regulations, and policies.  Audit topics are determined by law, by requests from
the Secretary of Defense and other DoD leadership, by Hotline allegations, congressional requests, and internal
analyses of risk in DoD programs.

DoD Audit Community

	       The defense audit community consists of the DoD Office of the Inspector General (OIG), the Army
Audit Agency, the Naval Audit Service, and the Air Force Audit Agency.  As a whole, the organizations issued
282 reports, which identified the opportunity for almost $1.47 billion in monetary benefits. Appendix A lists
reports issued by central DoD internal audit organizations.  Appendix B lists DoD OIG reports with potential
monetary benefits, and Appendix C statistically summarizes audit follow-up activity.

	       The Defense Contract Audit Agency (DCAA) provided financial advice to contracting officers in 19,656
reports during the period.  The contract audits resulted in more than $ 7.2 billion in questioned costs and funds
that could be put to better use.  Appendix D contains the details of the audits performed.  Contracting officers
disallowed $102.9 million (13.5 percent) of the $764.7 million questioned as a result of significant post-award
contract audits.  The contracting officer disallowance rate of 13.5 percent represents a significant decrease from
the average disallowance of 39.8 percent from the last reporting period.  Additional details of the amounts
disallowed are found in Appendix E.

Significant Open Recommendations

	       Managers accepted or proposed acceptable alternatives for 99 percent of the 384 DoD OIG audit
recommendations rendered in the last 6 months of FY 2006.  Many recommendations require complex and
time-consuming actions, but managers are expected to make reasonable efforts to comply with agreed upon
implementation schedules.  Although most of the 984 open actions on DoD OIG audit reports being tracked in
the follow-up system are on track for timely implementation, there were 203 reports more than 12 months old,
dating back as far as 1994, for which management has not completed actions to implement the recommended
improvements.  Significant open recommendations that have yet to be implemented follow.

•  Recommendations made in 1997 and subsequent years to make numerous revisions to the DoD Financial
Management Regulations; clarify accounting policy and guidance; improve accounting processes, internal
controls over financial reporting, and related financial systems compliance; and develop a plan for performance
characteristics and training requirements for the DoD financial management workforce have resulted in
initiatives that are underway to correct financial systems deficiencies and enable the Department to provide
accurate, timely, and reliable financial statements.  In addition, a recent ( June 2006) audit report states that
implementation of Army accounting systems needed to eliminate more than $71 billion in unsupportable

                                                                  Department of Defense Office of the Inspector General 61
DoD OIG Components
accounting adjustments and $1.2 trillion in                 •  Recommendations made in 2003, 2004 and 2005
unresolved abnormal balances has been delayed for           to address issues regarding information systems
the second year.  Originally scheduled for January          security including completion of the information
2005, the implementation of the Business Enterprise         security certification and accreditation process
Information Services (formerly the Defense Corporate        for various DoD systems and development of an
Information Infrastructure) for Army General Fund           adequate Plan of Action and Milestones to resolve
reporting is now scheduled for January 2007.                critical security weaknesses.  These actions need to
                                                            be completed to address requirements of the Federal
•  Recommendations from multiple reports in the             Information Security Management Act (FISMA) and
high-risk area of personnel security.  Some of the          related OMB guidance. Although some actions have
most significant of these include: development of a         been initiated, they are not adequate to correct the
prioritization process for investigations; establishment    identified deficiencies.
of minimum training and experience requirements and
a certification program for personnel granting security     •  Recommendations made in a 2004 report to develop
clearances; issuance of policy on the access by all         and deliver a contract compliant C-130J aircraft
contractors, including foreign nationals, to unclassified   and to increase amounts withheld to motivate the
but sensitive DoD IT systems; establishment of              contractor to deliver an aircraft that meets contractual
policy on access reciprocity and a single, integrated       requirements.  Currently awaiting definitization of C-
database for Special Access Programs; implementation        130J contract, which is expected in October 2006.  
of steps to match the size of the investigative and
adjudicative workforces to the clearance workload;          •  Recommendations made in 2004 in the Health
development of DoD-wide backlog definitions and             Care issue area.  These include improvements in the
measures; monitoring the backlog using the DoD-             acquisition of direct care medical services such as:
wide measures; and improvement of the projections           reviewing potential solutions to barriers of DoD
of clearance requirements for industrial personnel.         and Department of Veterans Affairs sharing; and
Progress on the unprecedented transformation of the         establishment of a pilot program and an oversight
personnel security program is slow but steady. Issues       process for acquiring direct care services; and
are being actively addressed by interagency working         improved implementation of requirements regarding
groups.                                                     Federal Insurance Contributions Act taxes.  Also, a
                                                            pharmaceutical returns contract is being developed
•  Recommendations made in 2004 to define network           that will ensure the costs for services provided are
centric warfare and its associated concepts; formalize      reasonable and the credits received are complete, and
roles, responsibilities, and processes for the overall      trends are analyzed to determine whether to modify
development, coordination, and oversight of DoD             inventory levels or ordering practices.  Implementation
network centric warfare efforts; and develop a strategic    of the improvements is ongoing.
plan to guide network centric warfare efforts and
monitor progress.  DoD guidance has been updated to         •  Recommendations made in 2004 regarding the
reflect relevant definitions that have been developed.      Performance-Based Logistics Program that include:
Revisions to the applicable DoD directive and               establishing guidance that defines the requirements,
instruction are in process.                                 process and procedures for developing a business
                                                            case analysis to determine potential performance-
•  Recommendations were made in 2004 to clarify             based candidates; finalizing a standardized data
guidance on the differences between force protection        collection format that contains all of the data fields
and antiterrorism in DoD policies and procedures and        determined necessary to accurately track the status of
to ensure that a force protection program has been          performance-based logistics efforts; and establishing
established throughout the U.S. Pacific Command.            requirements for quarterly reports or updates to all
Issuance of DoD guidance has been delayed.                  required fields of the standardized data collection
                                                            format.  

62 Semiannual Report to Congress
                                                                                          DoD OIG Components

Deputy Inspector General                                    Health Care Fraud
for Investigations                                          	       Reportable judgments on health care
                                                            investigations accounted for over $977 Million. These
	       The Office of the Deputy Inspector General          judgments resulted from a total of six investigations
for Investigations (ODIG-INV) comprises the                 involving individual health care providers, hospitals
criminal and the administrative investigative               and health care systems, and pharmaceutical
components of the DoD OIG. The Defense Criminal             companies.  One investigation was initiated in 1991,
Investigative Service (DCIS) is the criminal                two were initiated in 1998, and three were initiated
investigative component of the DoD OIG. The non-            from 2002 to 2004.  A single investigation initiated
criminal investigative units include the Directorate        in 2004 accounted for almost ninety percent of the
for Investigations of Senior Officials (ISO), the           returned monies and was the largest single settlement
Directorate for Military Reprisal Investigations            in the near 150-year history of the False Claims Act,
(MRI), and the Directorate for Civilian Reprisal            amounting to over $873.4 Million.  Of the total
Investigations (CRI).                                       amount returned to the U.S. Government, just over
                                                            $15.9 Million was returned to the Department of
Defense Criminal Investigative                              Defense TRICARE Management Agency.
Service
                                                            Public Corruption
	       DCIS is tasked with the mission to protect
America’s warfighters by conducting investigations in       	       Public corruption investigations accounted
support of crucial national defense priorities. DCIS        for over $621 Million of the returned monies and
conducts investigations of suspected major criminal         represented judgment in three DCIS investigations.
violations focusing mainly on terrorism, product            Of the three reported public corruption investigations,
substitution/defective parts, cyber crimes/computer         judgments against two major Department of Defense
intrusion, illegal technology transfer, and other crimes    aerospace contractors accounted for over ninety-nine
involving public integrity including bribery, corruption,   percent of the returned monies.
and major theft. DCIS activity in the Middle East
theater is discussed in Chapter 1.  DCIS also promotes      Financial Crimes
training and awareness in all elements of the DoD
regarding the impact of fraud on resources and              	       Investigations of non-conforming or defective
programs by providing fraud awareness presentations.        products and financial crime investigations resulted in
                                                            reportable adjudications totaling over $316 Million
	      During this reporting period, investigations         from thirteen DCIS investigations.  Homeland
conducted by the Defense Criminal Investigative             security and terrorism investigations resulted in
Service returned just over $1.9 billion to the              reported adjudications and seizures of over $3.6
U.S. Government through criminal, civil, and                Million from five investigations.
administrative judgments and seizures.  Civil
judgments accounted for over $1.6 billion of the total.     Directorate for Investigations
Criminal and administrative judgments and seizures          of Senior Officials
accounted for over $356.5 million.  Seizures and
recoveries totaled $.6 million.                             	       The IG DoD Directorate for Investigations
                                                            of Senior Officials conducts investigations into
	       The adjudications and recoveries reported for       allegations against senior military and civilian officials
this period were arrayed through the DCIS functional        and performs oversight of senior official investigations
program areas and resulted from twenty-seven                conducted by the Military Departments.
separate investigations.   


                                                                   Department of Defense Office of the Inspector General 63
DoD OIG Components
       Nature of Substantiated Allegations Against Senior Officials
                         During 2nd Half FY 06
                                         Other
                                       Misconduct                         Failure to Act
                                          17%                                  8%

                                                                                                Abuse of
                                                                                                Authority
                                                                                                  21%




          Misuse/Waste
             of Govt                                                           Sexual
                                            Improper                         Improprieties
           Resources
                                            Personnel                            12%
              30%
                                             Action
                                               12%

                               237 Cases Closed               43 Substantiated

                                                  Figure 1
	       Figure 1 (above) shows results of activity on        Whistleblower Reprisal Activity
senior official cases during the last 6 months of FY
2006.  Figure 2 (page 65) provides case statistics for       	       During the reporting period, MRI and
the past 6 fiscal years.  On September 30, 2006, there       the Military IGs received 264 new complaints of
were 186 ongoing investigations into senior official         whistleblower reprisal.  We closed 282 reprisal cases
misconduct throughout the Department, representing           during this period.  Of those 282 cases, 172 were
a decrease from March 31, 2006, when we reported             closed after preliminary analysis determined further
217 open investigations.  Over the past 6 months, the        investigation was not warranted and 110 were closed
Department closed 237 senior official cases, of which        after investigation.  Of the 110 cases investigated,
43 (18 percent) contained substantiated allegations.         32 (29 percent) contained one or more substantiated
                                                             allegations of whistleblower reprisal.
Directorate for Military
Reprisal Investigations                                      	       The MRI and the Military IGs currently have
                                                             429 open cases involving allegations of whistleblower
                                                             reprisal.  The following are examples of Substantiated
	       The DoD OIG Directorate for Military
                                                             Whistleblower Reprisal Cases:
Reprisal Investigations (MRI) investigates and
conducts oversight reviews of investigations conducted
                                                             	        An Air National Guard sergeant alleged her
by the Military Department and Defense Agency
                                                             flight chief curtailed her active duty tour in reprisal
Inspectors General (IGs).  The investigations pertain
                                                             for filing a gender discrimination complaint.  The Air
to the following:
                                                             Force substantiated reprisal and the State Adjutant
                                                             General issued a written counseling to the flight chief.
•  Allegations that unfavorable actions were
taken against members of the Armed Forces,
                                                             	        An Army staff sergeant alleged her supervisor
non-appropriated fund employees, and Defense
                                                             relieved her of supervisory responsibilities in reprisal
contractor employees in reprisal for making protected
                                                             for filing an Equal Opportunity (EO) complaint
communications.
                                                             against her supervisor.  The Army substantiated that
                                                             the supervisor relieved her in reprisal for filing the
•  Allegations that members of the Armed Forces were
                                                             complaint.  Corrective action is pending.
referred for involuntary mental health evaluations
without being afforded the procedural rights
prescribed in the DoD Directive and Instruction.

64 Semiannual Report to Congress
                                                                                               DoD OIG Components

                                DoD Total Senior Official Cases
                                       FY 2001 - FY 2006
                     578
   600
                                 503
               488                                                    503 489
   500                                 460        466                                          468
                                                        427                              430
                                                                                                                   416

   400
                                                                                                             327

   300

   200
                           89                                                                        86
   100                                       70
                                                              57                52
                                                                                                                         73



       0
                FY01              FY02             FY03                FY04                FY05               FY06

                                       Opened           Closed            Substantiated
           This chart shows the total number of senior official investigations
                     conducted in DoD over the past six fiscal years.
                                                        Figure 2

	       A Navy petty officer alleged her senior chief          for referring Service members for mental health
issued her an unfavorable evaulation report in reprisal        evaluations under DoD Directive 6490.1, “Mental
for reporting unfair treatment and a hostile work              Health Evaluations of Members of the Armed
environment to an inspector general.  The Navy                 Forces.”   We did not substantiate any allegations that
investigation substantiated the reprisal allegations.          a commander referred a service member for a mental
Corrective action is pending.                                  health evaluation in reprisal for the service member’s
                                                               protected communications.  
	         A former defense contractor employee
alleged she was suspended without pay and issued an            Directorate for Civilian
unfavorable performance evaluation in reprisal for             Reprisal Investigations
reporting contract mismanagement to a government
official.  MRI conducted an investigation and
substantiated the allegation.  Corrective action is            	         Between January 1, 2006 and July 1, 2006 the
pending.                                                       Civilian Reprisal Investigations Directorate (CRI)
                                                               accomplished two missions of note to the Congress.
Referrals for Involuntary Mental Health                        First, it took the lead in coordinating a DoD-wide
Evaluations: MRI closed thirty four (34) cases                 initiative to provide the means to investigate security
involving allegations of improper referrals for mental         clearance decisions when they are alleged to be reprisal
health evaluations during the reporting period.  In            against whistleblowers; second, it applied this new
14 (41 percent) of those cases, we substantiated               protocol in an investigation of the former Army
that command officials and/or mental health care               program known as “Able Danger.”
providers failed to follow the procedural requirements
                                                                      Department of Defense Office of the Inspector General 65
DoD OIG Components

Deputy Inspector General                                     Naval Criminal Investigative Service and the Defense
                                                             Contract Audit Agency completed 122 intelligence-
for Intelligence                                             related and other classified and sensitive reports. The
                                                             reports are categorized into the areas shown in Figure
	        The Office of the Deputy Inspector General
                                                             3 (below).  A listing and highlights of the 122 reports
for Intelligence (ODIG-INTEL) audits, reviews,
                                                             can be found in the Classified Annex to this report.
evaluates, and monitors the programs, policies,
procedures, and functions of the DoD Intelligence
Community and the intelligence-related activities            	       The Intelligence Community Inspectors
within the DoD Components, primarily at the DoD,             and Auditors General continued to coordinate and
Service, and Combatant Command levels, ensuring              share information to improve the effectiveness and
that intelligence and intelligence-related resources         efficiency of oversight of DoD intelligence activities.
are properly, effectively, and efficiently managed.          The Intelligence Community Inspectors General
The ODIG-INTEL also conducts oversight of                    Forum serves as a mechanism for sharing information
Service and Defense agency reviews of security and           among inspectors general whose duties include audit,
counterintelligence within all DoD test and laboratory       evaluation, inspection, or investigation of programs
facilities.                                                  and operations of Intelligence Community elements.
                                                             Within DoD, the Joint Intelligence Oversight
	       The DoD OIG, the IGs of the Department               Coordination Group comprises senior representatives
of the Air Force, Defense Intelligence Agency,               from the Office of the Secretary of Defense, the
National Geospatial-Intelligence Agency, National            inspectors general of the Defense intelligence agencies,
Reconnaissance Office, and National Security Agency/         and military department audit, evaluation, and
Central Security Service; the Army Audit Agency; the         inspection organizations. The objectives of this group
Naval Audit Service; the Air Force Audit Agency; the         are to improve the effectiveness and efficiency of DoD


                                   Intelligence Related Reports


    DoD Management                 DoD OIG    Defense Agencies Military Departments                  Total
      Challenge Area
     Joint Warfighting                5              26                          3                     34
       and Readiness
      Human Capital                   1                  6                       1                      8
        Information                   1                  9                       3                     13
    Security and Privacy
        Acquisition                   3                  9                       5                     17
       Processes and
          Contract
       Management
         Financial                    1                  9                       1                     11
       Management
        Health Care                   0               0                          0                      0
           Other                      2              28                          9                     39
           Total                     13              87                         22                    122


                                                  Figure 3

66 Semiannual Report to Congress
                                                                                         DoD OIG Components
oversight of intelligence activities by identifying areas   •  Quality Control Review of the FY 2004 Single
needing more emphasis and deconflicting oversight           Audit of American Society for Engineering Education
programs. See the Classified Annex to this report for       (D2006-6-005, August 10, 2006). (The Certified
information on meetings of these groups.                    Public Accounting firm was referred to the American
                                                            Institute of Certified Public Accountants for
                                                            inadequate work.)
Deputy Inspector General
for Policy and Oversight                                    •  Review of Contracting Official Corrective Actions
                                                            at Defense Contract Management Agency, Santa Ana
	       The Office of the Deputy Inspector General          District Branch (September 14, 2006)
for Policy and Oversight provides oversight and policy
for Audit and Investigative activities within DoD;          	        APO also participated on 13 DoD and
manages the DoD Hotline; conducts inspections               Government-wide working groups that address
and evaluations; provides technical, statistical, and       significant issues impacting DoD audit and
quantitative advice and support to OIG projects;            accountability professionals; provided significant
conducts data mining; monitors corrective actions           DoD comments on 10 draft auditing and accounting
taken in response to OIG and Government                     standards and policy documents from government
Accountability Office (GAO) reports; and serves as          and professional organizations to ensure policy
DoD central liaison with GAO on reports and reviews         guidance for all DoD auditors and accountants focus
regarding DoD programs and activities.                      on accountability and transparency; coordinated OIG
                                                            review of 19 revisions to the procurement regulations,
Audit Policy and Oversight                                  commenting on 3 to ensure the revisions do not
                                                            adversely impact DoD; and provided a staff member
	       The Office of Assistant Inspector General for       to assist the Government Accountability Office on
Audit Policy and Oversight (APO) provides policy            revisions to Government Auditing Standards to ensure
direction and oversight for audits performed by             an understanding of the changes to assist in proper
over 6,500 DoD auditors in 24 DoD organizations,            and timely implementation by the over 6,500 DoD
ensures appropriate use of non-federal auditors and         auditors.
their compliance with auditing standards and ensures
that contracting officials comply with statutory and        Audit Followup and GAO
regulatory requirements when resolving contract             Affairs Directorate
audit reports.  During the reporting period, APO
completed two hotline reviews, two reviews to               	       The Audit Followup and GAO Affairs
determine compliance with the Single Audit Act, and         Directorate monitors the progress of agreed-upon
one contract audit follow-up review.   The reviews          corrective actions being taken by DoD managers in
completed are:                                              response to OIG and GAO report recommendations.  
                                                            The Directorate obtains and evaluates documentation
•  Hotline Complaint Concerning Management Issues           of progress and completion and maintains a complete
Regarding the Defense Contract Audit Agency New             record of actions taken.  During this 6-month period,
York Branch Office (D-2006-6-003, April 5, 2006)            final action was completed on 83 reports and 457
                                                            recommendations.  The Directorate also oversees a
•  Review of FY 2004 Single Audit of the Civil Air          process to facilitate mediation of disputes regarding
Patrol, Inc. (D-2006-6-004, June 29, 2006)                  OIG recommendations to achieve agreement.  
                                                            Through this process, agreement was reached on 7
•  Hotline Completion Report on Allegations at Office       reports with 17 disputed issues during the period.
of the Inspector General Denver Audit Office (August
1, 2006)



                                                                  Department of Defense Office of the Inspector General 67
DoD OIG Components

	        The Directorate also serves as the DoD central     $4.6 million to the Federal Government during this
liaison with GAO on matters concerning GAO                  reporting period.  The DoD Hotline received 37
reviews and reports regarding DoD programs and              Congressional inquiries and 81 investigative referrals
activities.  This includes monitoring ongoing reviews to    from the Government Accountability Office.  The
facilitate appropriate DoD actions.  This also includes     DoD Hotline has also continued an aggressive
monitoring and facilitating the preparation of DoD          marketing campaign that has included responding
responses to GAO reports to ensure the responses            to 435 requests from DoD contractors and the
are appropriately coordinated before release.  The          military services for DoD Hotline fraud, waste and
Directorate also distributes information regarding          mismanagement posters.
GAO activities to DoD auditing and other oversight
organizations to facilitate identifying unnecessary
overlap or duplication.  During this 6-month period,
the Directorate processed 124 reviews and 219 draft
and final reports.  

Data Mining Directorate

	       The Data Mining Directorate continues its
primary mission of expanding and enhancing the
use of data mining with computer assisted auditing
techniques as analysis tools to combat fraud, waste and
abuse in DoD programs. During this reporting period
the Directorate worked jointly with:

•  DoD OIG and the Service Audit communities on
   11 audit reports.

•  DoD OIG and the Service MCIO communities on
                                                            Inspections and Evaluations
   38 investigations involving criminal activity.
                                                            Directorate
	      In addition, the Data Mining Directorate
supported 5 Federal OIGs in establishing selected data      	       The Office of the Assistant Inspector General
mining efforts.                                             for Inspections and Evaluations promotes positive
                                                            change by identifying opportunities for performance
                                                            and efficiency improvements in DoD programs and
DoD Hotline
                                                            operations. The Directorate conducts objective and
                                                            independent customer-focused management and
	       The DoD Hotline continues its primary
                                                            program inspections addressing areas of interest to
mission of providing a confidential and reliable means
                                                            Congress and the DoD.
for DoD civilian and contractor employees, military
service members, and the public to report fraud,
waste, mismanagement, abuse of authority, threats to        Investigative Policy and
homeland security, and leaks of classified information      Oversight Directorate
to the Department of Defense.  During this reporting
period, the DoD Hotline received 7,455 contacts             	       The Office of the Assistant Inspector General
from the public and members of the DoD community,           for Investigative Policy and Oversight evaluates the
initiated 1,072 investigations, and closed 1,215 cases.     performance and develops/implements policy for the
Investigations initiated by the DoD Hotline returned        DoD investigative and law enforcement community.
                                                            The Directorate also manages the IG Subpoena

68 Semiannual Report to Congress
                                                                                    DoD OIG Components

Program for the DCIOs and administers the                to and from Congress, and by serving as the DoD
DoD Voluntary Disclosure Program, which allows           OIG Public Affairs Office. The OCCL also includes
contractors a means to report potential internal civil   the Freedom of Information Act Requester Service
or criminal fraud matters.                               Center/Privacy Act (FOIA/PA) Office.  In addition,
                                                         the OCCL provides staff support and serves as the
Quantitative Methods                                     liaison for the DoD OIG to the President’s Council
Directorate                                              on Integrity and Efficiency and the Defense Council
                                                         on Integrity and Efficiency (DCIE). The DoD IG
	       The Quantitative Methods Directorate             established the DCIE in 2002 to ensure effective
ensures that quantitative methods, analyses, and         coordination and cooperation among oversight
results used in DoD OIG products are defensible.         agencies within the DoD.
The Directorate accomplishes this by providing
expert statistical/quantitative support and advice       Comments on Legislation / Testimony
to DoD OIG projects, and by assessing the
quantitative aspects of DoD OIG products prior           	       Section 4(a) of the Inspector General Act
to their release. Quantitatively defensible products     requires the Inspector General “to review existing
employ methodology that is technically sound             and proposed legislation and regulations relating
and appropriate for the objectives of the project,       to the program and operations of [the Department
employ analyses that are performed correctly and are     of Defense]” and to make recommendations
consistent with the methodology, and appropriately       “concerning the impact of such legislation or
present the quantitative results.                        regulations on the economy and efficiency in
                                                         the administration of programs and operations
                                                         administered or financed by [the Department] or
Technical Assessment
                                                         the prevention and detection of fraud and abuse in
Directorate                                              such programs and operations.”
	       The Technical Assessment Directorate             	      The DoD OIG is given the opportunity to
provides  technical advice to the DoD and conducts       provide information to Congress by participating in
assessments to improve the economy, efficiency, and      congressional hearings.
effectiveness of Defense programs, operations, and
oversight.  The directorate focuses on acquisition,      	       On August 3, 2006, Mr. Thomas F. Gimble,
program management, engineering, and information         Acting  Principal Deputy Inspector General
technology issues.  During the reporting period,         Department of Defense testified before the
the Directorate provided technical expertise and         Subcommittee on Federal Financial Management,
assessments that have expanded the audit coverage        Government Information and International
of systems engineering and information assurance.        Security Senate Committee on Homeland Security
As a result, Defense programs for systems                and Governmental Affairs regarding “Financial
engineering and information security are improved        Management at the Department of Defense.”  
in audited systems.                                      Mr. Gimble discussed the financial management
                                                         challenges that the Department of Defense faces;
Office of Communications                                 and the progress that the Department has made
and Congressional                                        in addressing the challenges and achieving the
                                                         goals established in the 2001 Quadrennial Defense
Liaison                                                  Review.
	     The Office of Communications and                   	      On June 21, 2006, Mr. Thomas F. Gimble
Congressional Liaison (OCCL) supports the DoD            Principal Deputy Inspector General Department of
OIG by serving as the contact for communications         Defense testified before the House Armed Services

                                                             Department of Defense Office of the Inspector General 69
DoD OIG Components

Subcommittee on Military Personnel and House
International Relations Subcommittee on Africa,
Global Human Rights and International Operations
regarding “Trafficking in Persons.”  Mr. Gimble
discussed past and ongoing efforts by the Office of
Inspector General in the area of combating Trafficking
in Persons.

	        On May 17, 2006, Mr. Thomas F. Gimble
Principal Deputy Inspector General Department
of Defense testified before the House Committee
on Government Reform regarding “Department
of Defense Personnel Security Clearance Process.”  
Mr. Gimble addressed how DSS could correct their             Mr. Gimble testifies before the House Government Reform
                                                                    Committee on the Department of Defense
current fiscal crisis and how to avoid similar scenarios               Personnel Security Clearance Process
in the future, and provided insights on ways to ensure   	
that the working relationship between DoD and OPM
is as efficient and effective as possible.               	       The DOD OIG holds monthly DCIE
                                                         meetings.  DCIE meetings are used as a forum
	        On May 10, 2006, Mr. Thomas F. Gimble,          to discuss issues related to the inspector general
Principal Deputy Inspector General Department of         community.  During the last reporting period the
Defense, before the Subcommittee on Government           DCIE discussed many topics including draft DoD
Management, Finance and Accountability House             Directives and Instructions, military and civilian
Committee on Government Reform regarding “After          whistleblower protections, and the hotline process.  
Katrina: The Role of the Department of Justice           In addition, at each meeting different member
Katrina Fraud Task Force and Agency Inspectors           organizations provide mission briefings which enable
General in Preventing Waste, Fraud, and Abuse.”  Mr. the DCIE members to better understand how their
Gimble detailed the DoD OIG ongoing oversight            oversight roles are related within the Department.  
work regarding Hurricane Katrina and provided
insight into planned projects.                           	       The DoD OIG also regularly reviews new and
                                                           revised regulations proposed by the Department of
	       On April 10, 2006, Mr. Thomas F. Gimble,           Defense. During this reporting period, the DoD OIG
Principal Deputy Inspector General Department              reviewed 136 draft issuances or re-issuances of DoD
of Defense, before the Subcommittee on Federal             directives, instructions, manuals, and policy guidance.
Financial Management, Government Information,
and International Security Senate Committee on             	       On March 1, 2006, in accordance with
Homeland Security and Governmental Affairs                 Presidential Executive Order (EO), 13392, “Improving
regarding “Management and Oversight of Federal             Agency Disclosure of Information,” the Department
Disaster Recovery: Operation Blue Roof.”  Mr.              of Defense, Office of the Inspector General (DoD,
Gimble addressed the DoD OIG ongoing oversight             OIG) Freedom of Information Act and Privacy
work regarding the U.S. Army Corps of Engineers’           Act (FOIA/PA) Office was redesignated the FOIA
Operation Blue Roof Program.  In addition, he              Requester Service Center/Privacy Act Office (FRSC/
described the ongoing close coordination with other        PAO).  The FRSC/PAO will serve as the first place
Inspectors General through the President’s Council on      that FOIA requesters can contact to seek information
Integrity and Efficiency (PCIE) Homeland Security          concerning the status of their FOIA request or to raise
Roundtable on Hurricane Katrina to ensure effective        concerns about the service they have received.  The
use of DoD oversight resources in the relief and           FRSC/PAO will also work with requestors to reduce
recovery efforts.                                          delays and resolve disputes.

70 Semiannual Report to Congress
                                         appendix a
                             REPORTS ISSUED BY CENTRAL DOD
                             INTERNAL AUDIT ORGANIZATIONS



Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and consulting reports
issued by the Army Audit Agency.

Copies of reports may be obtained from the appropriate issuing office by calling:

	      DoD OIG	      	       	          	       	       	        	       Army Audit Agency
	      (703) 604-8937	       	          	       	       	        	       (703) 681-9863
	      http://www.dodig.mil	 	          	       	       	        	       http://www.hqda.army.mil/aaaweb

	      Naval Audit Service	 	      	      	             	        	       Air Force Audit Agency
	      (202) 433-5525	      	      	      	             	        	       (703) 696-7904
	      http://www.hq.navy.mil/NavalAudit	 	             	        	       www.afaa.hq.af.mil

	      	        	       	       	       	       	

    Summary of Number of Reports by Management Challenge Area
                  April 1, 2006 - September 30, 2006


                                                                     DoD OIG           Military Depts.           Total
Joint Warfighting and Readiness                                          4                    64                   68
Human Capital                                                            3                    19                   22
Information Security and Privacy                                         8                     7                   15
Acquisition Processes/Contract Management                               16                    55                   71
Financial Management                                                    17                    79                   96
Health Care                                                              -                     8                    8
Other                                                                    -                     2                    2
  Total                                                                 48                   234                  282
For information on intelligence-related reports, including those issued by other Defense agencies, refer to the classified
annex to this report.

* Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix B)




                                                                                          Office of the Inspector General 71
Appendix A

JOINT                                  A-2006-0091-ALL  Audit of              A-2006-0128-ALM  Depot Level
                                       Management of the Theater              Maintenance for Secondary Items,
WARFIGHTING                            Transportation Mission (Task           Phase I - Repair Versus Procurement
AND READINESS                          Order 88), Audit of Logistics Civil    Decisions  (06/05/06)
                                       Augmentation Program Operations        A-2006-0132-ALR  Followup on
DoD OIG                                in Support of Operation Iraqi          Selected Stock Funded Depot Level
                                       Freedom  (04/04/06)                    Reparable Requisitions, Office of
D-2006-091  Department of                                                     the Project Manager, Apache Attack
Defense Inspector General’s Report     A-2006-0099-ALL Audit of               Helicopter  (06/08/06)
on the 2005 Defense base Closure       Program Management in the
and Realignment Commission’s           Iraq Area of Operations, Audit         A-2006-0136-ALL  Management
Report Recommendation #193             of Logistics Civil Augmentation        Controls Over Offline Purchases,
Regarding Naval Air Station            Program Operations in Support of       Office of the Deputy Chief of Staff,
Oceana, Virginia  (05/24/06)           Operation Iraqi Freedom  (04/25/06)    G-4  (06/13/06)

D-2006-095  FY 2006 Military           A-2006-0117-ALL  Humidity-             A-2006-0148-FFF  The Army’s
Identifier Data Within the             Controlled Storage Facilities, U.S.    Mobilization Station Process  
Department of Defense  (07/05/06)      Army Reserve Command, Fort             (06/28/06)
                                       McPherson, Georgia  (05/16/06)
D-2006-103  The H-60 Seahawk                                                  A-2006-0149-ALE  Military
Performance-Based Logistics            A-2006-0118-ALM  Depot Level           Construction Projects Supporting
Program  (FOR OFFICIAL USE             Maintenance for Secondary Items,       Army Prepositioned Stocks in
ONLY)  (08/01/06)                      Phase I - Repair Versus Procurement    Europe  (06/29/06)
                                       Decisions, U.S. Army Aviation and
D-2006-105  Implementation of          Missile Life Cycle Management          A-2006-0154-ALR  Project
Performance-Based Logistics for        Command  (05/30/06)                    Manager Assets - Tracked and
the Joint Surveillance Target Attack                                          Wheeled Vehicles, Office of the
Radar System  (08/09/06)               A-2006-0120-FFE  Followup              Project Manager, Combat Systems,
                                       Audit of Management of Active          Abrams Tank  (07/18/06)
                                       Army Reactor Facilities, U.S. Army
Army Audit Agency                      Test and Evaluation Command            A-2006-0155-ALR  Project
                                       (05/19/06)                             Manager Assets - Tracked and
A-2006-0054-ALR  Followup on                                                  Wheeled Vehicles Office of the
Recommendations 1 and 2, Audit         A-2006-0122-FFP  Followup              Project Manager, Combat Systems,
Report A-2003-0450-AMW,                Audit of Operational Project Stock     Bradley Fighting Vehicles System  
Annistion Army Depot  (07/17/06)       Requirements, Fort Shafter, Hawaii     (07/18/06)
                                       (05/11/06)
A-2006-0077-ALE  Reconstitution-                                              A-2006-0158-ALL  Report on Class
-General Support Maintenance           A-2006-0124-ALE  Contracting           IX (Aviation) Warehouse Staffing,
Within U.S. Army, Europe and           for Reconstitution Maintenance         Camp Anaconda, Audit of Logistics
Seventh Army  (06/02/06)               Support, U.S. Army, Europe and         Civil Augmentation Program
                                       Seventh Army  (05/19/06)               Operations in Support of Operation
A-2006-0088-FFI  Joint Network                                                Iraqi Freedom  (07/11/06)
Node Cost Estimate Spirals 2-4  
(04/13/06)                                                                    A-2006-0159-ALL  Followup Audit
                                                                              of Selected Asset Holding Projects,
                                                                              U.S. Army Materiel Command  
                                                                              (07/11/06)




72 Semiannual Report to Congress
                                                                                                     Appendix A

A-2006-0168-ALL  Report on           A-2006-0203-ALR  Tracking                 A-2006-0246-ALL  Audit of the
the Subsistance Prime Vendor         Administrative Lead Time, U.S.            Cost-Effectiveness of Transitioning
Contract, Audit of Logistics Civil   Army Aviation and Missile Life            Task Order 66 - Kuwait Naval Base
Augmentation Program Operations      Cycle Management Command                  Camp Support from Contingency
in Support of Operation Iraqi        (08/23/06)                                to Sustainment Contracting, Audit
Freedom  (08/04/06)                                                            of Logistics Civil Augmentation
                                     A-2006-0207-ALL  Offline                  Program Operations in Support of
A-2006-0173-ALR  Project             Purchases, U.S. Army Special              Operation Iraqi Freedom-Phase II
Manager Assets - Tracked and         Operations Command, Fort Bragg,           (Kuwait)  (09/27/06)
Wheeled Vehicles, Office of the      North Carolina  (08/31/06)
Project Manager, Force Projection,                                             A-2006-0253-ALL  Cost-
M9 Armored Combat Earthmover         A-2006-0209-ALR  Followup Audit           Effectiveness of Transitioning the
(08/10/06)                           of Aviation Tracked Components,           General Support Supply Support
                                     U.S. Army Aviation and Missile            Activity (Task Order 87) From
A-2006-0174-ALM  National            Life Cycle Management Command             Contingency to Sustainment
Maintenance Program Certificate      (08/29/06)                                Contracting, Audit of Logistics Civil
Process, U.S. Army Materiel                                                    Augmentation Program Operations
Command and U.S. Army Tank-          A-2006-0217-ALE  Followup Audit           in Support of Operation Iraqi
automotive and Armaments Life        of Consolidation of Maintenance           Freedom  (09/28/06)
Cycle Management Command             Activities, U.S. Army Installation
(08/11/06)                           Management Agency, Europe                 A-2006-0254-ALL  Procedures for
                                     Region  (09/20/06)                        Transferring Property During the
A-2006-0188-ALL  Asset Visibility                                              Base Closure Process in Support of
in Support of Operation Iraqi        A-2006-0227-ALM  Public-Private           Operation Iraqi Freedom  (09/29/06)
Freedom and Operation Enduring       Partnerships and Compliance with
Freedom, 10th Mountain Division      Depot Workload Reporting, Deputy
(Light Infantry), Fort Drum, New     Chief of Staff, G-4  (09/27/06)           A-2006-0255-FFI  Followup Audit
York  (08/11/06)                                                               of Federal Oversight of the National
                                     A-2006-0233-ALL  Clothing Issue           Guard  (09/29/06)
A-2006-0196-ALR  Project             Facilities, Audit of Logistics Civilian
Manager Assets - Tracked and         Augmentation Program Operations           Naval Audit Service
Wheeled Vehicles, Office of the      in Support of Operation Iraqi
Project Manager, Combat Systems,     Freedom  (09/22/06)                       N2006-0024  Department of the
Paladin  (08/21/06)                                                            Navy Antiterrorism Risk Assessment
                                     A-2006-0237-ALE  Funding                  Management Approach for Navy
A-2006-0197-ALE  Army                Reset of Aviation Assets in Europe,       Region Hawaii  (05/18/06)
Prepositioned Stocks in Europe       U.S. Army Aviation and Missile
(08/30/06)                           Command  (09/29/06)                       N2006-0025  Department of
                                                                               the Navy Antiterrorism Risk
A-2006-0198-FFD  Contracts for       A-2006-0245-ALL  Offline                  Management at Korea, Japan,
Hurricane Protection System in       Purchases, XVIII Airborne Corps,          Singapore, and Guam Facilities  
New Orleans, U.S. Army Corps of      U.S. Army Garrsion, Fort Bragg,           (05/18/06)
Engineers, New Orleans District--    North Carolina  (09/28/06)
Task Force Guardian  (08/22/06)                                                N2006-0028  Selected Reserve Billet
                                                                               Assignments  (05/26/06)
A-2006-0200-ALL Management
of Army Pre-positioned Stocks,                                                 N2006-0033  Models Used by
U.S. Army Materiel Command                                                     the Marine Corps to Determine
(08/23/06)                                                                     Requirements and Budget for
                                                                               Ammunition  (06/30/06)

                                                                                     Office of the Inspector General 73
Appendix A

N2006-0034  Emergency Action           F-2006-0008-FC4000  Due              D-2006-077  DoD Personnel
Plans Oversight  (CLASSIFIED)          Out to Maintenance Additives         Security Clearance Process at
(07/13/06)                             (08/22/2006)                         Requesting Activities  (04/19/06)

N2006-0039  Naval Air Facility         F-2006-0009-FC2000  F110-            D-2006-080  Use of Environmental
Atsugi Airfield Physical Security      GE-100/129 Engine Upgrades           Insurance by the Military
(CLASSIFIED)  (08/15/06)               (08/23/2006)                         Departments  (4/27/06)

N2006-0041  Department of              F-2006-0009-FC4000  Expired          Army Audit Agency
the Navy Antiterrorism Risk            Air Force Contractor Department
Management Approach at Navy            of Defense Activity Address Code     A-2006-0050-FFF  Followup Audit
Region Gulf Coast  (08/22/06)          Management  (09/05/2006)             of Training-Base and First-Term
                                                                            Soldier Attrition  (04/03/06)
N2006-0043  Verification of            F-2006-0010-FC4000  Adjusted
Department of the Navy’s Reporting     Stock Levels  (09/05/2006)           A-2006-0084-FFF  Followup Audit
of Depot Maintenance Workload                                               of Institutional Training of Reserve
Between Public and Private Sectors     F-2006-0006-FC1000  Property         Component Soldiers to Meet
(08/30/06)                             Management - Foreign Military        Qualification Goals  (05/02/06)
                                       Sales  (09/06/2006)
Air Force Audit                                                             A-2006-0116-FFF  Contract
                                       F-2006-0006-FD4000  Flight           Recruiting, U.S. Army Recruiting
Agency
                                       Training Ammunition  (09/06/2006)    Command, Fort Knox, Kentucky  
F-2006-0004-FC2000  Follow-                                                 (06/06/06)
                                       F-2006-0007-FC1000  Foreign
up Audit, T-38 Avionics Upgrade
                                       National Access to Air Force         A-2006-0138-ALM  Followup
Modification  (04/12/2006)
                                       Information and Facilities           Audit of Staffing and Capacity
                                       (09/12/2006)                         of Tables of Distribution and
F-2006-0005-FD3000  Air Force
Unit Type Code Management                                                   Allowances Maintenance Activities  
                                       F-2006-0011-FC4000  Logistics        (06/20/06)
(FOR OFFICIAL USE ONLY)  
                                       Support for Research, Development,
(04/18/2006)
                                       Test, and Evaluation Activities      A-2006-0142-FFF  Trainees,
                                       (09/15/2006)                         Transients, Holdees, and Students
F-2006-0006-FC4000  
Reparable Item Requirements -                                               Account Business Rules, U.S. Army
                                       F-2006-0008-FD3000  Air Force        Reserve  (06/20/06)
Condemnations  (04/18/2006)
                                       Support to Civil Authorities  
                                       (09/25/2006)                        A-2006-0147-FFF  Human
F-2006-0006-FC2000  Distribution
of Depot Maintenance Workload,                                             Resources Realignment Actions,
                                       F-2006-0009-FD3000  Air Reserve     Director of the Army Staff  
Fiscal Years 2004 - 2006  
                                       Components Space Forces Readiness   (06/21/06)
(05/10/2006)
                                       (CLASSIFIED)  (09/25/2006)
F-2006-0007-FC2000  J69 Engine                                             A-2006-0157-FFF  Followup
Management  (05/30/2006)               HUMAN CAPITAL                       Audit of Reserve Component Duty
                                                                           Military Occupational Specialty
                                                                           Qualification and Officer Basic
F-2006-0008-FC2000  Follow-up          DoD OIG
Audit, C-130 Aircraft Logistics                                            Course Training Requirements  
Support  (06/21/2006)                                                      (07/26/06)
                                       D-2006-073  DoD Acquisition
                                       Workforce Count  (04/17/06)
F-2006-0007-FC4000  Air Force                                              A-2006-0225-FFF  Followup Audit
Vehicle and Equipment Repair                                               of Distance Learning Facilities and
Reimbursements  (06/23/2006)                                               Hardware  (09/19/06)

74 Semiannual Report to Congress
                                                                                                  Appendix A

A-2006-0247-FFF  Followup Audit       F-2006-0010-FD1000  Air National      D-2006-096  Select Controls for
of Individual Ready Reserve and       Guard Base Realignment and            the Information Security of the
Individual Mobilization Augmentee     Closure Requirements Planning         Command and Control Battle
Soldiers  (09/28/06)                  (08/23/2006)                          Management Communications
                                                                            System  (FOR OFFICIAL USE
Naval Audit Service                   F-2006-0007-FD4000  Workman’s         ONLY)  (07/14/06)
                                      Compensation Program  
N2006-0029  Acquisition Workforce     (09/11/2006)                          D-2006-107  Defense Departmental
Position Accountability  (05/31/06)                                         Reporting System and Related
                                                                            Financial Statement Compilation
N2006-0030  Proposed Fiscal Year
                                      INFORMATION                           Process Controls Placed in
2006-2007 Department of the Navy      SECURITY AND                          Operation and Tests of Operating
Military Construction Projects                                              Effectiveness for the Period October
                                      PRIVACY                               1, 2004, Through March 31, 2005  
Resulting from Fiscal Year 2005
Base Closure and Realignment                                                (FOR OFFICIAL USE ONLY)  
(06/06/06)                            DoD OIG                               (08/18/06)

N2006-0036  Acquisition Program       D-2006-074  Technical Report on       D-2006-110  Summary of
Staffing and Management Control       the Defense Civilian Pay System       Information Assurance Weaknesses
at Naval Air Systems Command          General and Application Controls      Found in Audit Reports Issued From
(07/18/06)                            (FOR OFFICIAL USE ONLY)               August 1, 2005, Through July 31,
                                      (04/12/06)                            2006  (09/14/06)
Air Force Audit                       D-2006-078  Defense Information
Agency                                                                      Army Audit Agency
                                      Systems Agency (DISA) Encore II
                                      Information Technology Solutions      A-2006-0152-FFH  Information
F-2006-0005-FD4000  Affirmative       Contract  (FOR OFFICIAL USE           Assurance for Medical
Employment  (08/03/2006)              ONLY)  (04/21/06)                     Communications for Combat
                                                                            Casualty Care, Product Manager,
F-2006-0006-FD1000  Air               D-2006-079  Review of the             Medical Communications for
Force Reserve Command Base            Information Security Operational      Combat Casualty Care, Fort Detrick,
Realignment and Closure               Controls of the Defense Logistics     Maryland  (06/30/06)
Requirements Planning                 Agency s Business Systems
(08/03/2006)                          Modernization-Energy  (04/24/06)      A-2006-0213-FFI  Information
                                                                            Assurance—Internal Control
                                      D-2006-084  Information               Management and Reporting Process  
F-2006-0007-FD1000  Pacific           Assurance of Commercially             (09/29/06)
Air Forces Base Realignment and       Managed Collaboration Services
Closure Requirements Planning         for the Global Information Grid  
(08/23/2006)                          (FOR OFFICIAL USE ONLY)  
                                                                            Naval Audit Service
                                      (05/17/06)
F-2006-0008-FD1000  Air                                                     N2006-0035  Communications
Education and Training Command                                              Security Equipment  
                                      D-2006-086  General and
Base Realignment and Closure                                                (CLASSIFIED)  (07/17/06)
                                      Application Controls at the Defense
Requirements Planning                 Information Systems Agency
(08/23/2006)                                                                N2006-0045  Disposal of Protected
                                      Center for Computing Services  
                                                                            Personal Information at Naval Air
                                      (FOR OFFICIAL USE ONLY)  
F-2006-0009-FD1000  Air Combat                                              Station Pensacola, FL  (09/13/06)
                                      (05/18/06)
Command Base Realignment and
Closure Requirements Planning  
(08/23/2006)

                                                                                  Office of the Inspector General 75
Appendix A

N2006-0048  Disposal of Protected     D-2006-090  Allegation Concerning     D-2006-020  Report on the Defense
Personal Information at Naval         the Mobile Detection Assessment       Civilian Pay System Controls Placed
Station Great Lakes, IL  (09/27/06)   Response System Program               in Operation and Tests of Operating
                                      (05/18/06)                            Effectiveness for the Period July
Air Force Audit                                                             1, 2005, Through June 30, 2006  
                                      D-2006-093  Contracting and           (09/28/06)
Agency
                                      Funding for the C-130J Aircraft
                                      Program  (06/21/06)                   D-2006-023  Program Management
F-2006-0004-FB2000  
                                                                            of the Objective Individual
Implementation of Selected
                                      D-2006-097  Source Selection          Combat Weapon Increment I  
Aspects of Security in Air Force      for the National Polar-Orbiting       (FOR OFFICIAL USE ONLY)  
Systems  (04/17/2006)                 Operational Environmental Satellite   (09/29/06)
                                      System – Conical Microwave
F-2006-0007-FB4000  Security          Imager/Sounder  (07/10/06)            Army Audit Agency
of Deployed Networks  
(CLASSIFIED)  (06/30/2006)            D-2006-099  Purchase Card             A-2006-0085-ALA  Funding
                                      Program Controls at Selected Army     and Fielding Training Software
ACQUISITION                           Locations  (07/21/06)                 and Hardware for Army Battle
PROCESSES AND                                                               Command System Components  
                                      D-2006-100  Procurement               (04/10/06)
CONTRACT                              Procedures Used for Next              A-2006-0092-ALA  Followup
MANAGEMENT                            Generation Small Loader Contracts     on the Audit of Requirements for
                                      (08/01/06)                            Models and Simulations, Future
                                                                            Combat Systems, Office of the
DoD OIG                               D-2006-101  Procurement               Program Manager, Future Combat
                                      Procedures Used for C-17              Systems, Brigade Combat Teams  
D-2006-071  Capabilities Definition   Globemaster III Sustainment           (04/06/06)
Process at the Missile Defense        Partnership Total System Support  
Agency  (04/05/06)                    (07/21/06)                            A-2006-0096-FFD  Army Military
                                                                            Construction Program, U.S. Army
D-2006-075  Acquisition of the        D-2006-106  Allegations               Garrison, Fort Bragg and U.S.
Joint Primary Aircraft Training       Concerning Mismanagement of the       Army Corps of Engineers Savannah
System  (04/12/06)                    Aerial Targets Program  (08/04/06)    District  (05/19/06)

D-2006-087  Acquisition of the        D-2006-109  Response to               A-2006-0108-ALA  Army Software
Objective Individual Combat           Congressional Requests on the         Blocking Process  (04/28/06)
Weapon Increments II and III          Water Delivery Contract Between
(FOR OFFICIAL USE ONLY)               the Lipsey Mountain Spring            A-2006-0110-ALE  Followup Audit
(05/15/06)                            Water Company and the United          of Dental Services Contracting in
                                      States Army Corps of Engineers        Europe, Europe Regional Dental
D-2006-088  Adjusting the Price       (08/29/06)                            Command  (06/08/06)
and Restructuring the KC-135
Depot Maintenance Contract            D-2006-117  American Forces           A-2006-0125-ALL  Management
(Contract No. F42620-98-D-0054)       Network Radio Programming             Controls Over Contracts for
(05/18/06)                            Decisions  (09/27/06)                 Logistics Services, U.S. Army
                                                                            Reserve Command, Fort
D-2006-089  Acquisition of the                                              McPherson, Georgia  (05/19/06)
Armed Forces Health Longitudinal
Technology Application  (05/18/06)



76 Semiannual Report to Congress
                                                                                                    Appendix A

A-2006-0133-FFP  Corps of              A-2006-0165-ALA  Risk                  A-2006-0205-ALL  Followup Audit
Engineers Contracting, Far East        Management Program - Future            of Small Purchases of Supplies and
District, Corps of Engineers, Seoul,   Combat System, Office of the           Equipment, South Carolina Army
Korea  (06/07/06)                      Program Manager, Future Combat         National Guard  (08/29/06)
                                       System, Brigade Combat Team  
A-2006-0134-ALO  Garrison              (07/27/06)                             A-2006-0210-FFE  Oversight
Utilities and Energy Services, Fort                                           for the Chemical Demilitarization
McCoy, Wisconsin  (06/19/06)           A-2006-0179-FFI  Installation          Program  (09/15/06)
                                       Campus Area Network
A-2006-0139-ALO  Programming,          Connectivity-Wireless Networks,        A-2006-0214-FFH  Capital
Administration, and Execution          U.S. Army Garrison, Fort Gordon,       Purchases and Minor Construction
System DD Form 1391s, Assistant        Georgia  (09/15/06)                    Projects, Fort Benning, Georgia  
Chief of Staff for Installation                                               (09/19/06)
Management  (06/21/06)                 A-2006-0180-FFI  Installation
                                       Campus Area Network                    A-2006-0216-ALE  Followup
A-2006-0140-ALI  Contract              Connectivity-Wireless Networks,        Audit of the Army Communities
Administration for the Directorate     U.S. Army Garrison, Fort Huachuca,     of Excellence Program, U.S. Army
of Support Services Contract, Fort     Arizona  (09/28/06)                    Installation Management Agency,
McCoy, Wisconsin  (06/22/06)                                                  Europe Region  (09/15/06)
                                       A-2006-0181-FFI  Installation
A-2006-0144-FFP  Review of             Campus Area Network                    A-2006-0220-ALA  Followup Audit
U.S. Forces Korea--Contract            Connectivity-Wireless Networks,        of Force XXI Battle Command,
Requirements  (06/27/06)               U.S. Army Garrison, Aberdeen           Brigade and Below, Fort Monmouth,
                                       Proving Ground, Maryland               New Jersey  (09/20/06)
A-2006-0151-ALA  Followup Audit        (09/28/06)
of the Simulation Based Acquisition                                           A-2006-0222-FFM  Army
Program, Office of the Assistant       A-2006-0189-FFE  Hazardous             Environmental Database-
Secretary of the Army (Acquisition,    Waste Disposal Costs  (08/15/06)       Restoration and Compliance
Logistics and Technology)                                                     Cleanup Federal Financial
(06/30/06)                             A-2006-0192-FFE  Environmental         Management Improvement Act
                                       Performance Assessment System,         Compliance, Army Environmental
A-2006-0153-ALO  Audit of              U.S. Army Environmental Center         Center, Aberdeen, Maryland  
Enterprise Resource Planning           (08/16/06)                             (09/29/06)
System, Picatinny Arsenal, New
Jersey (07/05/06)                      A-2006-0193-FFE  Followup Audit        A-2006-0223-FFI  Information
                                       of Alternative Fuel Vehicle Program,   Technology Asset Authorizations for
A-2006-0156-ALR  Procurement           Office of the Assistant Chief of       Tactical Units, Chief Information
Lead Times, U.S. Army Aviation         Staff for Installation Management      Officer/G-6  (09/18/06)
and Missile Life Cycle Management      (08/17/06)
Command  (07/17/06)                                                           A-2006-0224-ALA  Army’s
                                       A-2006-0194-FFP  Public Works          Capabilities Determination Process  
A-2006-0160-FFD  Boiler                Requirements Contracts-Area I,         (09/27/06)
Refurbishment--Picatinny Arsenal       Installation Management Agency,
(07/27/06)                             Korea Region Office  (08/24/06)        A-2006-0229-FFH  Capital
                                                                              Purchases and Minor Construction
A-2006-0161-ALO  Barracks              A-2006-0199-FFI  Installation          Projects, Fort Lewis, Washington  
Improvement Program  (07/19/06)        Campus Area Network                    (09/26/06)
                                       Connectivity-Wireless Networks,
                                       Terrestrial-Based Connections          A-2006-0232-ALA  Followup Audit
                                       (09/29/06)                             of G-2 Foreign Intelligence Support
                                                                              to Acquisition  (09/22/06)
                                                                                    Office of the Inspector General 77
Appendix A

A-2006-0243-FFI  Enterprise            F-2006-0002-FC3000  Launch and         D-2006-076  DoD Compliance
Software Agreements Using              Test Range System Modernization        with the Prompt Payment Act on
Unit Purchase Practices, Chief         Program  (08/03/2006)                  Payments to Contractors  (04/19/06)
Information Office G-6  (09/29/06)
                                       F-2006-0007-FD3000  Central            D-2006-081  Recording and
A-2006-0244-FFI  Information           Command Air Forces Deployed            Reporting of Transactions by Others
Technology Contracts With the U.S.     Locations Blanket Purchase             for the National Security Agency  
General Services Administration--      Agreements  (08/21/2006)               (CLASSIFIED)  (04/26/06)
Contracting Process  (09/29/06)
                                       F-2006-0003-FC3000  Theater            D-2006-082  Allegations to the
A-2006-0248-ALA  Warfighter            Battle Management Core                 Defense Hotline Concerning
Information Network - Tactical, Fort   System Contract Management             Funds “Parked” at the U.S. Special
Monmouth, New Jersey  (09/29/06)       (08/22/2006)                           Operations Command  (04/28/06)

Naval Audit Service                    F-2006-0004-FC3000                     D-2006-083  Information
                                       Implementation of the Fiscal           Operations in U.S. European
N2006-0046  National Security          Year 2003 National Defense             Command  (CLASSIFIED)  
Agency Military Interdepartmental      Authorization Act, Major Range and     (05/12/06)
Purchase Request (CLASSIFIED)          Test Facility Base Funding Process     D-2006-085  Vendor Pay
(09/21/06)                             (08/23/2006)                           Disbursement Cycle, Air Force
                                                                              General Fund: Funds Control  
N2006-0050  H-1 Upgrades               F-2006-0005-FC3000  Use of Prime       (05/15/06)
Program  (09/28/06)                    Vendor Contracts  (08/23/2006)
                                                                              D-2006-092  Controls Over
                                       F-2006-0010-FB2000  Quarterly          Abnormal Balances in Financial
Air Force Audit                        Enterprise Buy Program                 Data Supporting Financial
Agency                                 (08/23/2006)                           Statements for Other Defense
                                                                              Organizations  (06/08/06)
F-2006-0006-FB4000  Combat             F-2006-0008-FB4000  Follow-up
Communications Equipment               Audit, Controls Over Access to         D-2006-094  Improper Payments
(04/17/2006)                           Air Force Networks and Systems         for Defense Fuel  (06/29/06)
                                       (FOR OFFICIAL USE ONLY)  
F-2006-0005-FC2000  C-17               (09/11/2006)                           D-2006-098  Military Retirement
Contract Maintenance  (05/08/2006)                                            Fund Processes Related to Deceased
                                       F-2006-0006-FC3000  Justification      Former Military Spouses  (07/17/06)
F-2006-0005-FB2000  Enterprise         and Approval for Non-Competitive
Environmental Safety and               Acquisitions  (09/25/2006)             D-2006-102  Marine Corps
Occupational Health System             F-2006-0011-FB2000  Air Force          Governmental Purchases  (07/31/06)
Development  (05/19/2006)              Equipment Management System
                                       Controls  (09/25/2006)                 D-2006-104  Contract Award
F-2006-0003-FC1000  Keesler AFB                                               Process for the Financial Information
Little Base Operating Support (A-                                             Resource System  (08/03/06)
76 Cost Comparison)  (06/21/2006)
                                       FINANCIAL
                                       MANAGEMENT                             D-2006-108  Providing Interim
F-2006-0004-FC1000  Keesler AFB                                               Payments to Contractors in
Big Base Operating Support (A-76       DoD OIG                                Accordance With the Prompt
Cost Comparison)  (06/21/2006)                                                Payment Act  (09/01/06)
                                       D-2006-072  Internal Controls
F-2006-0005-FC1000  Most               Related to Department of Defense       D-2006-112  Selected Controls
Efficient Organization Performance     Real Property  (04/06/06)              Over the Military Personnel, Army
Review  (06/21/2006)                                                          Appropriation  (09/22/06)
78 Semiannual Report to Congress
                                                                                                   Appendix A

D-2006-113  Consolidation of           A-2006-0101-FFH  Attestation          A-2006-0119-ALO  Family
Northrop Grumman Pension               Review of Morale, Welfare, and        Housing Operations and
Accounting Records for the             Recreation Financial Statements-      Maintenance Funding, U.S. Army
Acquisition of TRW  (09/22/06)         -Army Morale, Welfare, and            Garrison, Fort Sill; Fort Sill,
                                       Recreation Fund, U.S. Army            Oklahoma  (05/11/06)
D-2006-114  Budget Execution           Community and Family Support
Reporting at Defense Finance and       Center  (04/27/06)                    A-2006-0121-ALC  Attestation
Accounting Service Indianapolis                                              Review of Army Ideas for
(09/25/06)                             A-2006-0102-FFH  Attestation          Excellence Program Idea Number
                                       Review of Morale, Welfare, and        NEPA06004C  (05/10/06)
D-2006-118  Financial Management       Recreation Financial Statements--
of Hurricane Katrina Relief Efforts    Army Recreation Machine Program,      A-2006-0123-FFM  Defense
at Selected DoD Components             U.S. Army Community and Family        Property Accountability System
(09/27/06)                             Support Center  (04/27/06)            Material Weakness Closeout, Special
                                                                             Operations Command, Fort Bragg,
D-2006-119  Civilian Payroll and       A-2006-0103-FFH  Attestation          North Carolina  (05/30/06)
Withholding Data for FY 2006           Review of Morale, Welfare, and        A-2006-0127-ALA  Army Voyager
(09/27/06)                             Recreation Financial Statements--     Fleet Card Program, 88th Regional
                                       Army Special Purpose Funds, U.S.      Readiness Command, Fort Snelling,
Army Audit Agency                      Army Community and Family             Minnesota  (05/30/06)
                                       Support Center  (04/27/06)
A-2006-0001-FFI  Audit Followup                                              A-2006-0129-FFM  The Army’s
Tracking System, Assistant Secretary   A-2006-0105-FFH  Attestation          Recovery Audit Initiative  
of the Army (Financial Management      Review of Morale, Welfare, and        (06/09/06)
and Comptroller)  (06/05/06)           Recreation Financial Statements-
                                       -Army Lodging Fund, U.S. Army         A-2006-0130-FFD  Corps
A-2006-0067-FFM  Military Pay          Community and Family Support          Balance Sheet--Corrective Actions,
for Operation Enduring Freedom/        Center  (04/27/06)                    Headquarters, U.S. Army Corps of
Operation Iraqi Freedom--Active                                              Engineers, (06/16/06)
Component  (04/05/06)                  A-2006-0106-ALO  Attestation
                                       Examination of the Certified          A-2006-0131-ALO  Review of
A-2006-0078-FFH  Morale,               Financial Statements for the Period   Revenues and Expenses for the 2005
Welfare, and Recreation and the Post   Ended June 30, 2004 for the Fort      Army Birthday Ball  (06/06/06)
Restaurant Funds, Red River Army       Ord Authority for Economic
Depot, Texarkana, Texas  (09/08/06)    Development Conveyance                A-2006-0135-ALR  Followup on
                                       (04/24/06)                            Unliquidated Obligations, Office
A-2006-0094-ALA  Army Voyager                                                of the Project Manager, Cargo
Fleet Card Program, Saint Paul         A-2006-0109-FFM  Defense              Helicopters  (06/16/06)
District, U.S. Army Corps of           Property Accountability System
Engineers, Saint Paul, Minnesota       Material Weakness Closeout, Fort      A-2006-0137-FFM  Logistics
(04/21/06)                             Gillem, Georgia  (04/26/06)           Modernization Program System
                                       A-2006-0113-ALO  Family               Federal Financial Management
A-2006-0100-FFH  Attestation           Housing Operations and                Improvement Act Compliance—
Review of Morale, Welfare, and         Maintenance Funding, U.S. Army        Revalidation  (06/20/06)
Recreation Financial Statements-       Garrison, Fort Bragg; Fort Bragg,
-Hospitality Cash Management           North Carolina  (05/11/06)            A-2006-0141-FFH  Financial
Fund, U.S. Army Community and                                                Management Structure for the Army
Family Support Center  (04/27/06)                                            Morale, Welfare, and Recreation
                                                                             Program, U.S. Army Installation
                                                                             Management Agency  (06/22/06)

                                                                                   Office of the Inspector General 79
Appendix A

A-2006-0143-ALA  Army Voyager          A-2006-0186-ALR  Followup Audit         A-2006-0234-FFM  Attestation of
Fleet Card Program, 101st Airborne     of Disbursing Station Expenditure       Logistics Modernization Program,
Division, Fort Campbell, Kentucky      Operations, DOD Disbursing              Federal Financial Management
(06/27/06)                             Station 5570, Accounting Services,      Improvement Act of 1996 – FY
                                       Army  (08/22/06)                        06 Phase 1 Quality Assurance
A-2006-0145-ALR  Followup on           A-2006-0187-ALR  Followup               Environment Testing  (09/21/06)
Unliquidated Obligations, Office of    Audit of Acquisition and Financial
the Project Manager, Apache Attack     File Reconciliations, Office of the     A-2006-0236-FFM  Review of the
Helicopter  (06/27/06)                 Program Executive Officer, Aviation     Army Management Control Process
                                       (08/11/06)                              FY 06, U.S. Military Academy, West
A-2006-0150-FFE  Financial                                                     Point, New York  (09/25/06)
Controls for Chemical Agents           A-2006-0190-ALO  Expenditures
and Munitions Destruction and          for the 2005 National Scout             A-2006-0238-FFM  Review of the
Chemical Stockpile Storage             Jamboree, Phase I--FY’s 02-04, Fort     Army Management Control Process
Funding, U.S. Army Chemical            A.P. Hill, Virginia  (08/16/06)         FY 06, U.S. Army Developmental
Materials Agency  (06/29/06)                                                   Test Command  (09/25/06)
                                       A-2006-0191-ALO  Expenditures
A-2006-0164-ALL  Followup Audit        for the 2005 National Scout          A-2006-0239-FFM  Review of the
of Use of Accommodation Checks,        Jamboree, Phase II--FY 05, Fort A.P. Army Management Control Process
South Carolina Army National           Hill, Virginia  (08/16/06)           FY 06, U.S. Army Reserve Military
Guard  (07/20/06)                                                           Readiness Intelligence Command  
                                       A-2006-0211-FFH  Controls Over       (09/26/06)
A-2006-0166-FFM  Army                  Overtime, Red River Army Depot,
Government Travel Card -               Texarkana, Texas  (09/08/06)         A-2006-0240-FFM  Review of
Individual Pay, U.S. Army Reserve                                           the Army Management Control
Command  (08/01/06)                    A-2006-0212-ALR  Followup            Process FY 06, U.S. Army Reserve
                                       Audit of Accounts Receivable and     99th Regional Readiness Command  
A-2006-0169-ALA  Army Voyager          Other Assets, U.S. Army Materiel     (09/26/06)
Fleet Card Program  (07/27/06)         Command  (09/06/06)
                                                                            A-2006-0241-FFM  Review of the
A-2006-0172-FFM  Defense               A-2006-0221-ALR  Followup Audit Army Management Control Process
Property Accountability System         of Accounts Receivable and Other     FY 06, U.S. Army Operational Test
Material Weakness Closeout, U.S.       Assets, Accounting Services, Army    Command  (09/27/06)
Army Recruiting Command, Fort          (09/13/06)
Knox, Kentucky  (08/04/06)                                                  A-2006-0242-FFM  Managerial
A-2006-0175-FFM  Federal               A-2006-0226-FFM  Army                Account DA Task Matrix  
Financial Management Improvement       Government Travel Card -             (09/27/06)
Act Attestation of Funds Control       Individual Pay, U.S. Army National
Module, Colonial Heights, Virginia     Guard  (09/26/06)                    A-2006-0249-FFM  Defense
(08/03/06)                                                                  Property Accountability System
                                       A-2006-0228-FFH  Community           Material Weakness Closeout-
A-2006-0183-FFM  Joint Oil             Club Operations, Fort Hamilton,      Summary Report  (09/28/06)
Analysis Program Technical             New York  (09/29/06)
Support Center, Pensacola, Florida                                          A-2006-0250-FFM  Review of
(08/09/06)                             A-2006-0231-FFH  Followup Audit the Army Management Control
                                       of Army Overhead Lodging Costs,      Process FY 06, US Army Test and
A-2006-0185-ALR  Followup Audit        Fort Bliss, Texas  (09/28/06)        Evaluation Command  (09/28/06)
of Validation of the Army’s Fund
Balance With Treasury, Accounting
Services, Army  (08/21/06)


80 Semiannual Report to Congress
                                                                                                     Appendix A

A-2006-0251-FFM  Review of             N2006-0038  Auditor General             F-2006-0003-FD2000  Public
the Army Management Control            Advisory – Office of Naval Research     Accountant Contract Audits  
Process FY 06, US Army Reserve         Free Electron Laser Special Property    (05/30/2006)
87th Division-Training Support         Review  (08/04/06)                      F-2006-0007-FB2000  Missile
(09/29/06)                                                                     Readiness Integrated Support
                                       N2006-0042  Department of the           Facility/Integrated Missile Database
A-2006-0252-FFM  Review of             Navy’s Government Commercial            System Controls  (05/30/2006)
Army Management Control Process        Purchase Cards used for Hurricane
FY 06, Assistant Secretary of the      Relief Efforts  (08/25/06)              F-2006-0008-FB2000  System
Army for Acquisition, Logistics, and                                           Controls for Item Manager
Technology  (09/29/06)                 N2006-0044  Naval Audit Service         Wholesale Requisition Process
                                       Opinion on the Fiscal Year 2006         System  (06/21/2006)
Naval Audit Service                    Annual Statement of Assurance  
                                       (09/12/06)                              F-2006-0006-FD3000  Central
N2006-0020  Independent                                                        Command Air Forces Deployed
Attestation Report – Agreed-Upon       N2006-0047  Cash Accountability of      Locations Cash Management  
Procedures Attestation Engagement      Department of the Navy Disbursing       (08/03/2006)
of Marine Corps General Fund Line      Officers for Hurricane Katrina Relief
Item, Fund Balance with Treasury       Funds  (09/22/06)                       F-2006-0009-FB2000  Contract
(04/04/06)                                                                     Writing System Controls  
                                       N2006-0049  Interagency                 (08/03/2006)
N2006-0021  Fleet Forces               Procurements at the Naval Sea
Command Activities Government          Systems Command  (09/27/06)             F-2006-0002-FB1000  Official
Purchase Card Program  (04/05/06)                                              Representation Funds  (08/23/2006)
                                       Air Force Audit
N2006-0023  Navy Fleet Credit                                                  F-2006-0007-FB3000  General
                                       Agency
Card  (05/16/06)                                                               Fund and Working Capital Fund
                                                                               Real Property Adjustments  
                                       F-2006-0003-FB2000  Automated
N2006-0026  Marine Corps                                                       (09/06/2006)
                                       Civil Engineer System - Real
Implementation of the Prompt           Property Controls  (04/12/2006)
Payment Act  (05/24/06)                                                        HEALTH CARE
                                       F-2006-0004-FB3000  General
N2006-0027  Government                 Fund Obligations  (05/04/2006)          Army Audit Agency
Purchase Card Program at Selected
Commander, U.S. Pacific Fleet          F-2006-0005-FB3000  General             A-2006-0112-FFH  Selected
Activities  (05/26/06)                 Fund Real Property Valuation            Aspects of Medical Modeling for the
                                       (05/04/2006)                            Total Army Analysis Process, U.S.
N2006-0031  Performing Efficient                                               Army Medical Department Center
and Effective Unliquidated             F-2006-0006-FB3000  General             and School, Fort Sam Houston,
Obligation Reviews  (06/23/06)         Fund Tri-Annual Review                  Texas  (06/02/06)
                                       (05/05/2006)
N2006-0032  Government Purchase                                                A-2006-0170-FFH  Armed Forces
Card Program Controls at the Office    F-2006-0001-FB1000  Certified           Institute of Pathology  (08/02/06)
of Naval Research and the Naval        Invoice Procedures  (05/10/2006)        A-2006-0171-FFH  Contracting
Research Laboratory  (06/29/06)                                                for Medical Goods and Services,
                                       F-2006-0006-FB2000  Controls for        Southeast Regional Medical
N2006-0037  Interface Between          the Wholesale and Retail Receiving      Command  (08/04/06)
Databases Supporting Marine Corps      and Shipping System  (05/19/2006)
Military Pay  (07/25/06)


                                                                                     Office of the Inspector General 81
Appendix A

A-2006-0215-ALE  Followup Audit
of Third Party Collection Program,
Europe Regional Medical Command  
(09/19/06)

Air Force Audit
Agency
F-2006-0005-FD1000  
Groundwater Cleanup Actions  
(06/21/2006)
F-2006-0004-FD2000  Surgeon
General Modernization Programs  
(08/03/2006)

F-2006-0005-FD2000  Weapons
of Mass Destruction Emergency
Medical Response Capabilities  
(08/03/2006)

F-2006-0006-FD2000  Optometry
Productivity  (09/06/2006)

OTHER
Naval Audit Service
N2006-0022  Implementation of the
Department of the Navy Electronic
Business Strategic Plan  (05/16/06)

N2006-0040  Department of the
Navy Hotline Program  (08/17/06)




82 Semiannual Report to Congress
                                         appendix B
       dod oig audit reports issued containing quantifiable
                   potential monetary benefit


                                                                                Potential Monetary Benefits
                           Audit Reports Issued                                 Disallowed     Funds Put to
                                                                                  Costs 1
                                                                                                 Better Use
D-2006-076 DoD Compliance with the Prompt Payment Act on
Payments to Contractors (4/19/2006)                                                  N/A                 $919,000
D-2006-087 Acquisition of the Objective Individual Combat Weapon
Increments II and III (05/15/06)                                                     N/A                $9,100,000
D-2006-100 Procurement Procedures Used for Next Generation Small
Loader Contracts (8/1/2006)                                                          N/A               $31,200,000
D-2006-108 Providing Interim Payments to Contractors in Compliance
With the Prompt Payment Act (9/1/2006)                                               N/A               $56,400,000
D-2006-122 Commercial Contract for Noncompetitive Spare Parts
With Hamilton Sundstrand Corporation (9/29/2006)                                     N/A               $22,300,000
D-2006-123 Program Management of the Objective Individual Combat
Weapon Increment I 09/29/06                                                          N/A               $10,000,000
Totals                                                                                               $129,919,000
1
    There were no OIG audit reports during the period involving disallowed costs.

*Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix A).

**Additional work performed this reporting period relating to report number D-2006-051, “TRICARE Overseas
Controls Over Third Party Billing Agencies and Supplemental Health Insurance Plans,” February 10, 2006, resulted
in potential monetary benefits of $2.4 million not previously identified.  The $2.4 million is not included in the
potential monetary benefits of $129.9 million shown above since it is associated with a report issued prior to April 1,
2006.




                                                                                        Office of the Inspector General 83
                                                   appendix C
                                                   followup activities


DECISION STATUS OF DOD OIG ISSUED AUDIT REPORTS AND DOLLAR VALUE OF
  RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE ($ in thousands)

                                         Status                                               Number
                                                                                                              Funds Put To Better Use 1
A.        For which no management decision had been made by the
            beginning of the reporting period.                                                     42                        $50,613
B.	         Which were issued during the reporting period.                                         56                       $129,919
            Subtotals (A+B)                                                                        98                       $180,532
C.	         For which a management decision was made during the                                    62                        $57,432
            reporting period.                                                                                                   	
                                                                                                                                	
           (i) 	        dollar value of recommendations that were agreed to                                                     	
                        by management.                                                                                          	
                        -  based on proposed management action
                        -  based on proposed legislative action                                  	
          (ii)	         dollar value of recommendations that were not agreed                     	
                        to by management.                                                    $57,4322
D.	         For which no management decision has been made by the     
            end of the reporting period.                                          36         $123,100
            Reports for which no management decision was made within     
            6 months of issue (as of March 31, 2006).                             93          $34,400
1  There were no DoD OIG audit reports issued during the period involving “questioned costs.”
2  On these audit reports management has agreed to take the recommended actions, but the   
    amount of agreed monetary benefits cannot be determined until those actions are completed.
3  OIG DoD Report Nos. D-2005-054, “DoD Information Technology Security Certification and Accreditation
Process,” April 28, 2005; D-2005-062, “Audit of Contract Financing Payments,” May 10, 2005; D-2005-094,
“Proposed DoD Information Assurance Certification and Accreditation Process,” July 21, 2005; D-2005-099,
“Status of Selected DoD Policies on Information Technology Governance,” August 19, 2005; D-2006-0039,
“Internal Controls Over the Compilation of the Air Force, General Fund, Fund Balance With Treasury for FY
2004,” December 22, 2005; D-2006-041, “Operational Mobility: Gap-Crossing Resources for the Korean Theater,”
December 26, 2005; D 2006-042, “Security Status for Systems Reported in DoD Information Technology
Databases,” December 30, 2005; D-2006-044, “Controls Over the Export of Joint Strike Fighter Technology,”
January 11, 2006; and, D-2006-055, “Audit of Spare Parts Procurements from Transdigm, Inc.,” February 23,
2006, had no management decision as of September 30, 2006, but action to achieve a decision is in process.
*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(8)(9) & (10).




84 Semiannual Report to the Congress
                                                                                                        Appendix C

                                   FOLLOWUP STATUS REPORT*

                     STATUS OF ACTION ON CENTRAL INTERNAL AUDITS	
                                Period ending September30, 2006	
                                         ($ in thousands)
                                                                        Funds Put
                                 Status                          Number to Better
                                                                          Use 1
         OIG DoD
              Action in Progress - Beginning of Period                                242            $0
              Action Initiated - During Period                                         62          57,432
              Action Completed - During Period                                         55        20,998,171
              Action in Progress - End of Period                                      249          2,1002
         Military Departments
              Action in Progress - Beginning of Period                                516         1,815,776
              Action Initiated - During Period                                        254          689,170
              Action Completed - During Period                                        138          624,722
              Action in Progress - End of Period                                      632         1,691,999

         1  There were no OIG DoD audit reports issued during the period involving “questioned costs.”
         2  On certain reports (from prior periods) with audit estimated monetary benefits of $6,750
             million, we agreed that the resulting monetary benefits can only be estimated after completion   
             of management action, which is ongoing.

             * Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
                Section 5(b)(2) & (3).




                                                                                        Office of the Inspector General 85
                                         appendix D
                              CONTRACT AUDIT REPORTS ISSUED1
                                          ($ in millions)
                            April 1, 2006 through September 30, 2006


                                           REPORTS          QUESTIONED FUNDS PUT TO
TYPE OF AUDIT           2
                                            ISSUED EXAMINED   COSTS3    BETTER USE
Incurred Costs, Ops Audits,    
Special Audits                                13,190           $65,020.9             $855.0                 $111.04
Forward Pricing Proposals                      4,744          $121,444.2               ---                 $6,129.35
Cost Accounting Standards                      1,411            $138.7                $42.4                    ---
Defective Pricing                               311             (Note 6)              $73.5                    ---
Totals                                       19,656          $186,603.8             $970.9                $6,240.3


Note 1. This schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the 6
months ended September 30, 2006. This includes any audits that DCAA performed on a reimbursable basis for other gov-
ernment agencies and the associated statistics may also be reported in other OIGs’ Semiannual Reports to Congress. Both
“Questioned Costs” and “Funds Put to Better Use” represent potential cost savings. Because of limited time between avail-
ability of management information system data and legislative reporting requirements, there is minimal opportunity for
DCAA to verify the accuracy of reported data. Accordingly, submitted data is subject to change based on subsequent DCAA
authentication.
Note 2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined
as:
Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are reason-
able, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation,
and provisions of the contract. Also included under incurred cost audits are Operations Audits, which evaluate a contrac-
tor’s operations and management practices to identify opportunities for increased efficiency and economy; and Special
Audits, which include audits of terminations and claims.
Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders,
costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed practices,
failure to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS regulation.
Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing
data (the Truth in Negotiations Act).
Note 3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations,
laws, and/or contractual terms.
Note 4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that
funds could be used more effectively if management took action to implement cost reduction recommendations.
Note 5. Represents potential cost reductions that may be realized during contract negotiations.
Note 6. Defective pricing dollars examined are not reported because the original value was included in the audits associated
with the original forward pricing proposals.




86 Semiannual Report to the Congress
                                                            appendix E
                                        STATUS OF action on
                             significant post‑award contract audits1
                                   Period Ending September 30, 2006
                                            ($ in millions)
                   	                                               Number of
                                                                    Reports Costs Questioned Disallowed Costs6

                   Open Reports:
                   	                                                      	                              	                            	
                       Within Guidelines2                                238                          $359.6                         N/A7
                   	
                        Overage, greater than 6                            	                         	                                    	
                        months3                                            	                         	                                    	
                                                                         455                     $1,311.7                                N/A
                   	                                                       	                         	                                    	
                        Overage, greater than 12                           	                         	                                    	
                       months4                                           324                      $639.5                                 N/A
                   	                                                       	                         	                                    	
                        In Litigation5                                    95                     $1,634.7                                N/A
                                                                            	                        	                                    	
                   Total Open Reports                                    1,112                   $3,945.5                                N/A
                                                                          	                              	                          	
                   Closed Reports                                        225                          $764.7                 $102.9 (13.5%)
                                                                            	                        	                                    	
                   All Reports                                           1,337                   $4,710.2                                N/A
1 This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable adjustments, accounting and related

internal control systems, and noncompliances with the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense Contract Management Agency, and

TRICARE.  Contract audit follow-up is reported in accordance with DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports.”  Because of limited time

between availability of the data and reporting requirements, there is minimal opportunity to verify the accuracy of the reported data.

2 These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Directive 7640.2 as described in footnotes 3 and 4 below.

3 OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance.  Generally, an audit is resolved when the contracting officer determines

a course of action which is documented and approved in accordance with agency policy.

4 DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of issuance.  Generally, disposition is achieved when the

contractor implements audit recommendations, the contracting officer negotiates a settlement with the contractor, or the contracting officer issues a final decision pursuant

to the Disputes Clause.

5 Of the 95 reports in litigation, 4 are under criminal investigation.

6 Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.

7 N/A (not applicable)




                                                                                                                                Office of the Inspector General 87
                                              appendix F
  Status of Dod oig reports more than 12 months old with
                  final action pending 1,2
                   (As of September 30, 2006)
        Report                                                                        Reason Action Not                     Principle
                                           Description of Action
    Number/Title/Date                                                                    Completed                        Action Office
  94-062, Financial Status of Air    Changes to policy guidance to include         Coordination issues within DoD            USD(C)
Force Expired Year Appropriations, refunds receivable arising from matters in         continue to be addressed.
            3/18/1994                              litigation.

  96-156, Implementation of the   Implement system changes to correct                 Correction of this material             DFAS
DoD Plan to Match Disbursement weaknesses in the automated prevalidation             weakness involves a long-term
 to Obligations Prior to Payment,               process.                                        effort.
            6/11/1996

 97-112, Air Mobility Command          AMC is to develop a methodology for             Competing management               USTRANSCOM
  (AMC) Financial Reporting of         keeping PP&E current and providing                   priorities.                       DFAS
 Property, Plant, and Equipment      accurate and useful information to DFAS
      (PP&E), 3/19/1997               for preparation of financial statements.

97-134, Disposal of Munitions List        Change regulations to advance             Personnel turnover has delayed         USD(AT&L),
Items in the Possession of Defense identification of munitions list items to the          implementation.                     DLA
     Contractors, 4/22/1997           early stages of the acquisition process.

                                                 Report is classified.                 Corrective actions are on              USD(I)
 98-049, DoD Sensitive Support
                                                                                              schedule.
Focal Point System (U), 1/20/1998

                                      Issue accounting and billing policy for
 98-052, Defense Logistics Agency                                                    Publication of the DoD FMR              USD(C)
                                       requisitions under the Shelter for the
    Past Due Federal Accounts                                                      revision has been delayed pending
                                      Homeless Program.  Chapter 5 of DoD
      Receivable, 1/22/1998                                                        the resolution of significant policy
                                       FMR Volume 11B is being revised to
                                                                                                 issues.
                                                  implement the
                                                     guidance.

 98-063, Defense Logistics Agency     Revisions to DLA Instruction 4155.24,         A decision was made to combine             DLA
    Product Quality Deficiency        “Quality Assurance Program for DLA           the draft directive and instruction
       Program, 2/5/1998                    Inventory Control Points.”                back into a single regulation
                                                                                                 format.
    98-067, Access Reciprocity       Standardize Special Access Program (SAP)                                              USD(I), Army,
   Between DoD Special Access           eligibility implementing criteria and                                                Navy,  AF
                                                                                       Competing management
      Programs, 2/10/1998               develop a centralized SAP database.
                                                                                       priorities; however, some
                                                                                    corrective actions are predicated
                                                                                   upon actions by outside agencies.



1  Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(b)(4).
2  For this reporting period, there are no disallowed costs on reports over 12 months old with final action pending.




88 Semiannual Report to the Congress
                                                                                                                        Appendix F

   98-100, Fund Balance With      Issue Standard Operating Procedures to the Implementation strategy changes              DFAS
   Treasury Account in the FY      DFAS centers for reporting undistributed     and unique reporting issues
 1996 Financial Statements of the balances in the monthly Accounting Report caused delays.  DFAS revised the
Defense Business Operations Fund,                   1307.                     format for the report, but  the
            4/2/1998                                                          related DoD FMR guidance is
                                                                                   still being developed.

 98-116, Accounting for Defense
                                      Revise procedures for handling accounts          Competing management               DFAS
     Logistics Agency Supply
                                      receivable.  Implement standard general               priorities.
    Management Receivables,
                                            ledger in accounting systems.
            4/20/1998
                                                                                   Competing management priorities
                                        Implement peer review program and             and extended time needed to         USD(I)
 98-124, Department of Defense
                                      establish continuing education standards     coordinate and issue DoD policy.  
Adjudication Program, 4/27/1998
                                         and a program for the professional          Impacted by transformation of
                                            certification for adjudicators.         the personnel security program.


                                  Revise and issue NGB Regulation 385-15
  98-170, Army National Guard                                               Lack of funding and personnel.                 NGB
                                 and NGB Pamphlet 385-15 that addresses
and U.S. Army Reserve Command
                                    identification and abatement of lead
Small Arms Indoor Firing Ranges,
                                 contamination for indoor ranges, including
           6/30/1998
                                   migration outside the immediate range
                                                     area.

                                                                                    Delays due to change in related
 99-102, Chemical and Biological                Report is classified.                                                      Army
                                                                                   Army guidance and extended time
 Warfare Defense Resources in the
                                                                                    needed to coordinate and issue
  U.S. European Command (U),
                                                                                            theater policy.
            3/4/1999


 99-159, Interservice Availability    Revise Joint Service Regulation to require Delays have been experienced in           Army
   of Multiservice Used Items,          consistent item management wherever      coordinating and issuing policy.
           5/14/1999                    economical and safe.  Services provide
                                       training on disposal authority for multi-
                                     service used items and requirements related
                                              to excess assets quantities.

                                       Develop a process for identifying and
 99-186, DoD Export Licensing                                                         Delays in coordinating and         USD(P)
                                      establishing assessment priorities related
     Processes for Dual-Use                                                                 issuing policy.
                                       to the cumulative effect of technology
  Commodities and Munitions,
                                                      transfers.
           6/18/1999


 99-191, Compilation of the FY          Explain material abnormal balances          The Defense Financial Auditing        DFAS
  1998 Financial Statements for        reported on the financial statements,       Service is awaiting management’s
  Other Defense Organizations,        and disclose and explain in the financial    response to OIG Report No. D-
          6/24/1999                               statement notes.                             2006-092.

                                      Revise and issue NGB Regulation 385-15
    99-250, Construction and                                                    Lack of funding and personnel.             NGB
                                     and NGB Pamphlet 385-15 that addresses
    Rehabilitation of Reserve
                                        identification and abatement of lead
     Component, 9/13/1999
                                     contamination for indoor ranges, including
                                       migration outside the immediate range
                                                         area.



                                                                                                      Office of the Inspector General 89
Appendix F

                                       Improve administration and management
 D-2000-075, Administration and                                                                                             AF
                                             of the Civil Air Patrol Program
 Management of Civil Air Patrol,
                                       nonexpendable equipment items. Update Lack of personnel, and changes in
          2/15/2000
                                         regulations and Statement of Work to         property disposal requirements.
                                      establish roles, responsibilities, policies and
                                                        procedures.


  D-2000-110, Export Licensing             Improve guidance regarding the             Delays in coordinating and         USD(P),
   at DoD Research Facilities,         determination of the need for “deemed”               issuing policy.             USD(AT&L)
          3/24/2000                     export licenses in the event of foreign
                                      national visits to, or assignments to, DoD
                                                   research facilities.

 D-2000-111, Security Clearance        Establishment of timeframes to expedite        Corrective action delayed by      USD(I), DSS
 Investigative Priorities, 4/5/2000             investigative priorities.             the transfer of the personnel
                                                                                     security investigative function
                                                                                   from DSS to OPM. Impacted by
                                                                                    transformation of the personnel
                                                                                            security program.

  D-2000-134, Tracking Security         The current database will be modified to Extensive time/resources needed           DSS
  Clearance Requests, 5/30/2000        retain all pertinent historical information to modify an automated system.  
                                      (including dates/times for every occurrence Impacted by transformation of
                                          -- e.g., deletions, case type, changes,  the personnel security program.
                                         cancellations, duplicates, conversions,
                                                    reinstatements, etc.)

    D-2000-139, Controls Over            Awaiting revisions to the Financial          Delays in coordinating and
                                                                                                                         USD(C)
  the Integrated Accounts Payable       Management Regulation, Volume 10,                   issuing policy.
         System, 6/5/2000                       Chapters 3 and 12.


 D-2000-140, Compilation of the       DFAS has initiated the Business       Delays in coordinating and                    DFAS
 FY 1999 Department of the Navy Management Redesign to better integrate issuing policy, and extensive time
  Working Capital Fund Financial financial and business management data.    needed for system changes.
      Statements, 6/7/2000        DFAS is also working with the Navy to
                                 reconcile inventory-related general ledger
                                  account balances to supporting records.


 D-2000-153, Compilation of the          DFAS is implementing procedures to        An audit found that uncorrected        DFAS
   FY 1999 Financial Statements        remove duplicate and abnormal balances.        and unexplained abnormal
 for Other Defense Organizations        Any remaining abnormal balances are to         balances continued to be
     (ODO) - General Funds,             be accompanied by footnotes that fully     submitted for the preparation of
           6/23/2000                     disclose the causes for these balances.    the ODO financial statements
                                      DFAS is documenting the processes used to
                                        compile the ODO financial statements.

                                     USD(C) evaluating policy and systems
  D-2000-177, Revaluation of                                                          Delays in coordinating and         USD(C)
                                   changes to implement and support a latest
   Inventory for the FY 1999                                                                issuing policy.
                                    acquisition cost valuation method and a
Department of the Navy Working
                                     direct cost historical valuation method.  
Capital Fund Financial Statements,
                                     These would be long-term solutions for
           8/18/2000
                                   improving the financial presentation of net
                                                     inventory.



90 Semiannual Report to the Congress
                                                                                                                      Appendix F


 D-2001-016, Security Controls     Navy will assess the potential risks to the Personnel reductions have delayed           Navy
Over Contractor Support for Year security baseline requirements for renovated implementation of corrective
 2000 Renovation, 12/12/2000        systems for which risk assessments are                  actions.
                                 lacking and accredit or reaccredit renovated
                                 systems in accordance with DoD guidance.


 D-2001-018, Management and          Army assumed responsibility to update                                                Army
                                                                                     Delays in coordination and
 Oversight of the DoD Weather          Joint Instruction AR 115-10/ AFI
                                                                                           staffing issues.
     Program, 12/14/2000               15-157, to require coordination of
                                    meteorological, oceanographic, and space
                                    weather requirements across all Military
                                    Departments to promote interoperability
                                             and avoid duplication.


  D-2001-037, Collection and          Develop, test and deploy Patient Safety       Additional time required to         ASD(HA)
 Reporting of Patient Safety Data              Reporting Program.                  obtain operational capabilities.
   Within the Military Health
       System, 1/29/2001

D-2001-044, Accreditation Policies                                                 Delays continue in coordinating        DISA
                                      Issues such as Information Assurance
  and Information Technology                                                             and issuing policy.
                                       Governance, metrics, and roles and
 Control at the Enterprise Center
                                   responsibilities are addressed and  covered
   Mechanicsburg, 2/9/2001
                                             by the new draft policy.


                                   Actions are underway to improve the      Extensive time needed to establish        Army, Navy, AF
D-2001-059, Armed Service Blood
                                Defense Blood Standard System (DBSS) to        policy and implement other
 Program Readiness, 2/23/2001
                                 ensure that the system meets all user and               changes.
                                mission needs, ensures asset accountability
                                 and inventory accuracy.  Also actions are
                                underway to ensure consistent deployment
                                   and use of DBSS throughout DoD.


D-2001-065, DoD Adjudication Identify and process additional adjudicative                                              DSS, USD(I)
of Contractor Security Clearances resources for Defense Industrial Security    Impacted by transformation of
Granted by the Defense Security Clearance Office (DISCO).  Establishment the personnel security program
      Service, 2/28/2001            of continuing education standards to          and BRAC decisions.
                                  facilitate the certification of professional
                                       adjudicators.  Issue guidance on
                                  professional certification and continuous
                                    training program for all adjudicators.

  D-2001-071, Navy Financial           Revise the Defense FAR Supplement                                               USD(AT&L)
                                                                                     Delays in coordinating and
Reporting of Government-Owned         to include the updated DoD property
                                                                                           issuing policy.
 Material Held by Commercial                accountability procedures.
  Shipyard Contracts, 3/2/2001
D-2001-081, Financial Reporting        Modify the Washington Headquarters                                                 WHS
at the Washington Headquarters      Services Allotment Accounting System to
       Services, 3/15/2001            correctly post prior period adjustments.       Extensive time required for
                                       Also, develop query interfaces for each      changes to financial policies.
                                    general ledger account that can be used to
                                     research detailed transactions supporting
                                                  account balances.


                                                                                                      Office of the Inspector General 91
Appendix F

                                         Modify the Financial Management
   D-2001-099, Use of Contract                                                       Extensive time required for       USD(C)
                                        Regulation, Volume 11B, to include
 Authority for Distribution Depots                                                  changes to financial policies.
                                        procedures that require that all use of
  by the Defense Logistics Agency,
                                       contract authority is adequately posted
             4/16/2001
                                     and liquidated in the DoD working capital
                                       fund accounting records at the activity
                                                     group level.
   D-2001-109, DoD Payroll                                                          Management stated that the          DFAS
                                      Develop the capability to maintain, and
  Withholding Data for FY 2000,                                                    recommended action was too
                                          query, historical payroll data.
           4/27/2001                                                               costly.  Alternative long-term
                                                                                       action is being taken.

    D-2001-124, U.S. Special                    Report is classified.               Extensive time required for           JS
  Operations Command Use of                                                       coordination and publication of
   Alternative or Compensatory                                                           DoD document.
 Control Measures (U), 5/18/2001
     D-2001-129, Contracting      Implement procedures to better assess price                                            DLA
  Officer Determinations of Price   reasonableness and institute corrective           Funding shortages and a
   Reasonableness When Cost or           actions for future contracts.              reassessment of the planned
 Pricing Data Were Not Obtained,                                                         corrective actions.
            5/30/2001
                                      EUCOM to update meteorological and
      D-2001-133, Deliberate                                                           Lack of management              EUCOM
                                       oceanographic (METOC) operations
    Planning for Meteorological                                                          responsiveness.
                                     portion of the U.S. European Command’s
  and Oceanographic Operations,
                                                  deliberate plans.
             6/1/2001

   D-2001-135, Prevalidation of      Develop cost-effective automated methods       Correction of this material         DFAS
  Intergovernmental Transactions,            to expand prevalidation.              weakness involves a long-term
             6/6/2001                                                                         effort.
 D-2001-136, Defense Clearance Establish procedures to revise and maintain Additional time needed to develop            USD(I)
and Investigations Index Database,    DCII user codes.  Issue guidance to       and implement procedures.
            6/7/2001                implement OPM policy on constructing       Impacted by transformation of
                                   pseudo social security numbers for foreign the personnel security program.
                                    nationals require CAFs to determine the
                                    use of pseudo SSNs for payroll purposes
                                      and use these numbers in the DCII.
 D-2001-141, Allegations to the                                                                                      USD(I), DSCA
 Defense Hotline on the Defense
                                     Amend DoD 5200.2-R to address security
 Security Assistance Management                                                     Delays in coordinating and
                                      investigation requirements for foreign
        System, 6/19/2001                                                                 issuing policy.
                                         national contractor employees.


     D-2001-148, Automated              Issue policy to address information         Personnel turnover has delayed ASD(NII), USD(C)
     Transportation Payments,         assurance requirements for commercial       issuing and implementing policy.
            6/22/2001                          automated processes.
D-2001-153, Pentagon Reservation Forms are to be developed to identify the Implementation has been delayed              WHS
  Maintenance Revolving Fund,    appropriate construction costs to be used by higher management priorities.
           7/2/2001             in transferring completed projects from the
                                construction in progress account to the real
                                             property accounts.




92 Semiannual Report to the Congress
                                                                                                                      Appendix F

 D-2001-155, Compilation of the       Maintain standard operating procedures        Corrective actions are being         DFAS
 FY 2000 Navy Working Capital           and documentation to provide an          verified during an on-going audit,
   Fund Financial Statements,           audit trail, and maintain complete         and the status of the corrective
           7/3/2001                    documentation and audit trails for           actions should be known by
                                             budgetary information.                       December 2006.
   D-2001-158, Compilation of          Management will establish an action       Management corrective actions on        DFAS
 the FY 2000 Army General Fund         plan to meet revised requirements for              schedule.
Financial Statements at the Defense       reconciling suspense accounts.
  Finance and Accounting Service
 Indianapolis (Sustaining Forces),
             7/13/2001

 D-2001-163, Accounting Entries Revise FMR, Volume 11B, Chapter 5 to           Publication of the DoD FMR               USD(C)
    Made in Compiling the FY      reflect changes to inventory valuation and revisions has been delayed due to
   2000 Financial Statements of   reporting; and revise DoD FMR, Volume           significant policy issues.
  the Working Capital Funds of      4, Chapter 3 to require the recoding of
 the Air Force and Other Defense accounts receivable for credits due when
    Organizations, 7/26/2001     DoD working capital fund supply activities
                                 return inventory items that do not conform
                                    to the purchase agreement or contract.


  D-2001-164, Implementation       USD(AT&L) define and build a financial         Organizational realignment of       USD(AT&L)
 of a Cost-Accounting System for     architecture that incorporates cost          program has delayed actions.
Visibility of Weapon Systems Life-  accounting requirements for weapon
      Cycle Costs, 8/1/2001                system life cycle costs.


                                   Develop system changes to differentiate Management corrective actions on USTRANSCOM
D-2001-170, U.S. Transportation
                                   among USTRANSCOM, Air Mobility                   schedule.
Command’s Reporting of Property,
                                  Command (AMC), and Defense Courier
 Plant, and Equipment Assets on
                                 Service (DCS) assets.  Reconcile all system
 the FY 2000 DoD Agency-wide
                                  records for USTRANSCOM, AMC and
 Financial Statements, 8/3/2001
                                    DCS against actual assets, and make a
                                 prior period adjustment.  Create electronic
                                   interfaces between the logistics and the
                                  accounting systems for transferring data.


 D-2001-189, Multiple Award              Reemphasize the need to ensure          Management actions are delayed       USD(AT&L)
Contracts for Services, 9/30/2001     competition on multiple award tasks and      pending an audit of GSA
                                             delivery order contracts.            contracts awarded for DoD.


 D-2002-004, Import Processing           Revise USFK Regulation 55-72 to                                                 USFK
                                                                                  Funding shortfalls in FY 2005,
  of DoD Cargo Arriving in the         update requirements and implement a
                                                                                  but USTRANSCOM received
 Republic of Korea, 10/4/2001          cost-efficient system for the automated
                                                                                      funding in July 2006.
                                        processing of customs forms using an
                                             electronic data interchange.

                                          Improve guidance on criteria for          Delays in coordinating and          USD(C)
 D-2002-008, Controls Over the
                                      proper and accurate receipt and invoice             issuing policy.
 Computerized Accounts Payable
                                      documentation; improve organizational
System (CAPS) at Defense Finance
                                        structures to provide better internal
  and Accounting Service Kansas
                                                      controls.
  City (DFAS-KC), 10/19/2002




                                                                                                     Office of the Inspector General 93
Appendix F


   D-2002-010, Armed Services           Establish a plan, controls, assessment Long-term actions on schedule.           Army, Navy, AF,
   Blood Program Defense Blood        requirements and training related to the                                            ASD(HA)
   Standard System, 10/22/2001        Defense Blood Standard System (DBSS)
                                       upgrade.  Also, establish procedures to
                                     ensure effective deployment of those DBSS
                                                       upgrades.

  D-2002-020, Audit Report on                                                                                             Navy, MC
    General Officer Quarters at        SECNAVINSTR 11101.73B has been               Extensive time needed to revise
   Kaneohe Bay, Hawaii Camp            revised.  The Marine Corps will update                   policies
 Pendleton California, and Albany,    their policies and a resident guide will be
       Georgia, 12/5/2001                             developed.  

                                                 Report is classified.                 Corrective actions are on        Navy, PACOM
 D-2002-024, Navy Fleet Hospital
                                                                                              schedule.
  Requirements (U), 12/12/2001

    D-2002-035, Protection of                    Report is classified.              Long range corrective actions are
                                                                                                                          ASD(NII)
  Strategic Systems Against Radio                                                             on target.
 Frequency Threats (U), 1/4/2002
      D-2002-038, Financial            Review all abnormal general ledger      Corrective actions have not                  DFAS
  Reporting for the Other Defense     accounts; identify and document the     yet been verified.  Due to the
 Organization General Funds at the causes of net abnormal balances; and when DFAS reorganization, DFAS San
 Defense Finance and Accounting           possible correct the balances.      Antonio is scheduled to close.
  Service San Antonio, 1/14/2002
    D-2002-056, Controls Over                                                                                              USD(C)
  Vendor Payments Made for the
 Army and Defense Agencies Using   Revise the Financial Management                    Delays in coordinating and
   the Computerized Accounting Regulation to incorporate the requirements                   issuing policy.
 Payable System (CAPS), 3/6/2002            of 5 CFR 1315.  



                                        Revise procedures to review terminal
   D-2002-060, Management of                                                    Original action is no longer the             DLA
                                         items with no registered users in the
   Terminal Items at the Defense                                                optimum solution, alternative
                                     Defense Inactive Item Program (DIIP), for
    Logistics Agency, 3/13/2002                                                      action is being taken.
                                     obsolescence, and quantify the number of
                                     terminal National Stock Numbers (NSNs)
                                       that are determined to be obsolete after
                                     NATO and foreign governments review the
                                                       NSNs.


                                        Track each prefinanced project in the
 D-2002-071, DoD Management                                                   Extended time required to recover            EUCOM
                                       NATO Security Investment Program,
   of the North Atlantic Treaty                                                   forecasted recoupments.
                                         including the likelihood of NATO
 Organization Security Investment
                                      Infrastructure Committee authorization,
       Program, 3/26/2002
                                          actions required to obtain NATO
                                           authorization, and an estimated
                                                  recoupment date.




94 Semiannual Report to the Congress
                                                                                                                      Appendix F

     D-2002-073, Financial       Use transactional data from a centralized Slow system development process.               DFAS
  Management Ending Balance         database to populate general ledger
 Adjustments to General Ledger    accounts in the Defense Departmental
Data for the Army General Fund, Reporting System (DDRS) Budgetary and
           3/27/2002              continue efforts to analyze and correct
                                    causes for current adjustments; Use
                                  transactional data to generate a general
                                   ledger data file for DDRS Budgetary.

                                                                                                                       USD(AT&L)
                                     Strengthen controls to modify contract
 D-2002-075, Controls Over the                                                        Corrective action requires
                                    with banks to prevent accounts from being
  DoD Purchase Card Program,                                                       long-term development of risk-
                                     reopened after notification to close, and  
         3/29/2002                                                                        assessment tools.
                                       provide reports on oversight reviews.  


                                   Revise Financial Management Regulation, Lack of management emphasis.                  USD(C)
D-2002-076, Funding Invoices to
                                     Chapter 10, Appendix B, number 7,
Expedite the Closure of Contracts
                                  “Accounting Requirements for Expired and
 Before Transitioning to A New
                                  Closed Accounts, “ to require that the DoD
DoD Payment System, 3/29/2002
                                  activity to which a program has transferred
                                   be responsible for providing current-year
                                                    funding.


                                  USFK Regulation 55-355, “Korea Traffic           Extensive personnel turnover in        USFK
D-2002-079, Delivery and Receipt
                                  Management” is being revised to include              Eighth U.S. Army G4.
 of DoD Cargo Inbound to the
                                  specific cargo delivery information.  The
  Republic of Korea, 4/15/2002
                                  Eighth U.S. Army Command Inspection
                                     Program (CIP) will include delivery
                                    information.  A new checklist will be
                                 incorporated into the CIP schedule by the
                                            4th Quarter FY 2002.

 D-2002-084, Guidance for the                                                        Delays caused by personnel          EUCOM
 Global Command and Control                     Report is FOUO.                      turnover and extended time
 System Common Operational                                                          needed to coordinate and issue
       Picture, 5/1/2002                                                                        policy.
    D-2002-088, Acquisition of        Implement improvements in defining                                               USD(AT&L)
                                                                                      Delays caused by successive
   the Joint Service Lightweight       operational requirements, evaluating
                                                                                   program restructures and need to
Standoff Chemical Agent Detector,    production readiness, and test planning.
                                                                                    reevaluate technology maturity.
             5/10/2002

                                     Comply with guidance for storage of                                                   Army
D-2002-091, Accountability and                                                       Corrective action is ongoing,
                                  maintenance materiel and the preparation
Control of Materiel at the Corpus                                                     however, constrained by
                                  and submission of management reports for
Christi Army Depot, 5/21/2002                                                           competing priorities.
                                  review; perform annual physical inventory
                                       and quarterly reviews of materiel.

   D-2002-095, Chemical and                                                        Delays due to changes in related        Army
  Biological Defense Individual                 Report is classified.                Army guidance and theater
 Protective Equipment in Central                                                   operations and to extended time
    Command and European                                                            needed to coordinate and issue
 Command Area (U), 5/30/2002                                                                    policy.




                                                                                                      Office of the Inspector General 95
Appendix F


 D-2002-103, Certification of the Through a contractor/government teaming          Transition from a sustainment      Army, NGB
 Reserve Component Automation      effort, establish functional performance      contract to a performance-based
   System (RCAS), 6/14/2002        measures to better assess both the initial    contract was delayed to allow the
                                  and future impact of RCAS on supported         contractor to perform against the
                                                 functionalities.                 established performance criteria
                                                                                     for a full 6-month period.


      D-2002-108, Standard
                                                                                   Delays in coordinating and          ASD(NII)
 Procurement System Certification
                                                                                         issuing policy.
    and Accreditation Process,                  Report is FOUO.
           6/19/2002



                                                                                    Extended time required to
    D-2002-109, Army Claims          Modify Chapters 1 and 3 of DoD FMR                                                 USD(C)
                                                                                   develop and coordinate new
 Service Military Interdepartmental Volume 11A to include specific guidance
                                                                                            guidance.
   Purchase Requests, 6/19/2002     for congressionally enacted pilot programs
                                      that authorize interagency orders, other
                                       than those used in the performance of
                                     Economy Act orders and project orders.

   D-2002-117, Review of FY                                                          Competing management                 DIA
 2001 Financial Statement for the              Report is classified.                      priorities.
 Defense Intelligence Agency (U),
           6/25/2002
   D-2002-122, Environmental    Develop a more detailed DoD instruction    Extended time required to                  USD(P&R)
 Community Involvement Program      on Sustainable Ranges Outreach.      develop and coordinate the new
   at Test and Training Ranges, Continue work on implementation of the          DoD Instruction.
            6/28/2002           new Directive and development of the new
                                               instruction.

  D-2002-127, Audit Report on         Implement a system to capture material                                             DFAS
  DoD Compliance with Internal           internal software costs; identify the  Long-term process to develop and
    Use Software Accounting            appropriate actions needed to properly    implement guidance; and slow
      Standards, 7/9/2002             value and support all financial statement   system development process.
                                        amounts and publish these actions in
                                    financial improvement plans; update DoD
                                    FMR Volume 4, Chapter 6; and develop a
                                         strategy and a Key Milestone Plan.

                                       DLA will modify the existing stock     Original action is no longer the            DLA
  D-2002-131, Terminal Items
                                    retention policy to review terminal items optimum solution, alternative
 Managed by the Defense Logistics
                                  that are excluded from the Defense Inactive      action is being taken.
 Agency for the Navy, 7/22/2002
                                      Program (DIIP).  In addition, plan to
                                   complete a new study to quantify the costs
                                                of inactive items.

 D-2002-140, Measurement of      Establish and implement procedures        Delays were caused by installation        Army, Navy, AF,
Water Usage by DoD Components to verify that the DCWASA routinely          and program compatibility issues              WHS
 Serviced by the DC Water and  inspects and reports results of inspections and other technical difficulties,
    Sewer Service, 8/20/2002    for DoD-owned water meters; develop           and contract terminations.
                                 and implement effective controls and
                                procedures to verify that the DCWASA
                              accurately reads water meters; establish and
                                  implement a maintenance program.

96 Semiannual Report to the Congress
                                                                                                                       Appendix F

D-2002-153, Reprocessed Medical Issue policy and guidance on the reuse of            Significant time required to     ASD(HA), Army,
  Single-Use Devices in DoD,    single-use devices (SUD) and work with             address/resolve issues with FDA       Navy, AF
          9/30/2002                FDA to work toward clarifying SUD                         and Services.
                                  labeling requirements.  The MILDEPs
                                   Surgeons General issue implementing
                                guidance and ensure adequate awareness
                                         and training is provided.

                                       Develop integrated natural resource
  D-2003-001, DoD Integrated                                                       The plans for two installations    Army, Navy, AF
                                    management plans for military installations
  Natural Resource Management                                                        have been held up pending
                                     and coordinate the plans with the other
        Plans, 10/1/2002                                                           the resolution of litigation and
                                    Federal and State agencies involved in the
                                                                                         coordination issues.
                                                     process.

                                                                                      Corrective actions are on
   D-2003-003, Controls for   The DLA and the Services need to improve                                                DLA, Navy, AF,
                                                                                             schedule.
  the DoD Aviation Info-Plan  management controls and establish written                                                   MC
Reimbursement Card, 10/3/2002    policies that define the methods and
                              responsibilities for using the Aviation Into-
                                     Plane Reimbursement Card.

                                    Establish procedures to withhold payments
    D-2003-018, Validity of                                                    Management corrective actions on           DFAS
                                       to contractors and vendors until they
   Registration in the Central                                                          schedule.
                                      are properly registered with a valid Tax
  Contractor Registration (CCR)
                                        Identification Number in the CCR
     Database, 10/30/2002
                                                      database.

  D-2003-021, Export Controls                  Report is confidential.               Extensive time is needed to         USD(P),
   Over Biological Agents (U),                                                       coordinate and issue policy       USD(AT&L),
          11/12/2002                                                                         guidance.                DATSD(C/BD)
                                  Revise DoD FMR to allow the Air Force            Publication of the DoD FMR            USD(C)
 D-2003-030, Financial Reporting
                                     to present all material categories of         revisions has been delayed due
     of Deferred Maintenance
                                 deferred maintenance as major asset classes        to significant policy changes
Information on Air Force Weapons
                                   in accordance with Federal accounting            resulting from OMB A-136
 Systems for FY 2002, 11/27/2002
                                                requirements.                                  revisions.
                                         Revise the Financial Management
   D-2003-034, Adjustments to                                                 Management corrective actions on           USD(C)
                                     Regulation to specify the documentation
 the Intergovernmental Payments                                                        schedule.
                                          required to support adjustments
       Account, 12/10/2002
                                       from account F3885, ‘Undistributed
                                      Intergovernmental Payments,’ to closed
                                       appropriations.  The guidance should
                                      describe the documentation required to
                                     identify the proper expenditure account,
                                        the responsible fund holder, and the
                                                   payment date.
                                    AT&L is working with OMB to address               Corrective actions are on        USD(AT&L)
   D-2003-056, Public/Private
                                   any overhead ambiguities in OMB Circular                  schedule.
  Competition for the Defense
                                     A-76, proposing additional guidance to
 Finance and Accounting Service
                                      clarify costing policies, and providing
Military Retired and Annuitant Pay
                                    definitions for direct and indirect costs as
       Functions, 3/21/2003
                                     well as a revised definition for overhead.




                                                                                                      Office of the Inspector General 97
Appendix F

                                                                                 Office of the Navy Comptroller
                                                                                  had provided approval in May
                                                                                2006 for inventory capitalization..  
                                   Perform inventories and quarterly review of                                              Navy
 D-2003-057, Accountability and                                                     Approval provided specific
                                    all materiel in storage, adjust records and
 Control of Materiel at the Naval                                                  requirements for inventory
                                   return excess materiel to the supply system.
 Air Depot, Jacksonville, 3/5/2003                                               capitalization and identification
                                                                                and subsequent disposal of excess
                                                                                inventory.  Capitalization has not
                                                                                         been completed.
 D-2003-067, Recoveries of Prior         Revise the Financial Management       Management corrective actions on         USD(C), DFAS
  Year Obligations, 3/21/2003        Regulation to be consistent with recovery          schedule.
                                      reporting guidance issued by the OMB
                                     and the Department of the Treasury; and
                                      program the DFAS accounting systems
                                      to properly capture, record, and report
                                        recoveries of prior year obligations.
  D-2003-0071, Acquisition of                    Report is classified.                Corrective actions are on             MC
 Marine Corps Aircraft Simulators                                                            schedule.
         (U), 4/2/2003
  D-2003-072, DoD Compliance          AF is updating guidance to be consistent Publication was delayed to include           AF
 with the Uniformed and Overseas             with DoD level guidance.             any findings from the Federal
   Citizens Absentee Voting Act,                                               Voting Assistance Program lessons
            3/31/2003                                                           learned report and 2004 Federal
                                                                                   Post Election Survey results.
  D-2003-073, Reliability of the                 Report is classified.                Corrective actions are on            NGA
 FY 2002 National Imagery and                                                                schedule.
    Mapping Agency Financial
   Statements and Adequacy of
 Related Procedures and Controls
          (U), 4/2/2003
                                                                                      Competing management
D-2003-074, Reliability of the FY                Report is classified.                                                      DIA
                                                                                           priorities.
 2002 Defense Intelligence Agency
Financial Statements and Adequacy
of Related Procedures and Controls
           (U), 4/7/2003

    D-2003-076, Document                         Report is FOUO.                      Corrective actions are on             DLA
   Automation and Production                                                                 schedule.
      Service Public/Private
     Competition, 4/8/2003

                                       Restructure the DoD Explosives Safety
   D-2003-081, DoD Explosives                                                    Management corrective actions on       USD(AT&L)
                                        Board and revise DoD guidance to
    Safety Program Oversight,                                                             schedule.
                                         accurately reflect the Board’s roles
            4/24/2003
                                       and responsibilities.  Develop a safety
                                        management strategy that requires a
                                       comprehensive DoD explosives safety
                                                      program.

   D-2003-083, Acquisition of                    Report is FOUO.                                                         USSOCOM
   the Suite of Integrated Radio                                                  Awaiting finalization of DOT&E
   Frequency Countermeasures,                                                                test report.
            4/29/2003




98 Semiannual Report to the Congress
                                                                                                                       Appendix F

                                                                                      Due to significant changes in
 D-2003-085, International DoD         AMC International Publication (AITP)                                            USTRANSCOM
                                                                                     the program, original action is
 Air Freight Tenders, 4/30/2003         No. 1 developed to articulate the air
                                                                                     not being continued.  A more
                                      transportation service needs of the DoD
                                                                                       appropriate action is being
                                      for movement of its international freight
                                                                                                pursued.
                                                       traffic.


D-2003-091, Reliability of the FY                Report is classified.                 Corrective actions are on            NSA
  2002 National Security Agency                                                               schedule.
Financial Statement and Adequacy
of Related Procedures and Controls
          (U), 5/14/2003


  D-2003-095, Accounting for          Develop business practices for Navy fund Long-term process to develop and         DFAS, Navy
  Reimbursable Work Orders at          administrators to properly account for   implement improved business
 Defense Finance and Accounting        reimbursable work orders.  Develop a      practices, methodologies, and
  Service Charleston, 6/4/2003         methodology and provide guidance to                  guidance.
                                      prevent Navy fund administrators from
                                        over obligating at the segment level.  
                                      Establish edit checks that align with the
                                           business practices of the Navy.


   D-2003-096, Protection of                     Report is classified.              Long-term corrective action on Army, Navy, AF, JS,
European Theater Systems Against                                                             schedule.                ASD(NII)
  Radio Frequency Threats (U),
           6/4/2003

  D-2003-098, Follow-Up Audit         Ensure that depot-level repair inventory                                              Army
 of Depot-Level Repairable Assets     at commercial contractors and at a DLA        Shortage of funding and lack of
    at Selected Army and Navy         storage facility is properly accounted for.        automated capability.
     Organizations, 6/5/2003

  D-2003-105, Management of                       Report is FOUO.                     Extensive time required for       USD(AT&L)
 Developmental and Operational                                                      approval process to update DoD
 Test Waivers for Defense System,                                                             Instructions.
           6/20/2003

                                         The Director, Defense Procurement
 D-2003-106, Administration of                                                        Corrective actions are on         USD(AT&L)
                                         and Acquisition Policy (DPAP), will
  Performance-Based Payments                                                      schedule.  Normal time required
                                       conduct an assessment of the benefits of
 Made to Defense Contractors,                                                     to update the FAR and DFARS.
                                       expanded performance-based payments
          6/25/2003
                                     implementation.  It will address contracting
                                      officer compliance with FAR Part 32.10,
                                       and whether any changes are needed to
                                        those policies, the Performance-Based
                                          Payments User’s Guide, or training
                                                       resources.

 D-2003-107, DoD Petroleum                       Report is classified.                Extensive time required to             AF
 War Reserve Requirements (U),                                                      coordinate and issue procedural
          6/26/2003                                                                            guidance.
   D-2003-110, Information                System enhancements to correct            Normal time needed to develop        USD(P&R)
   Technology Management:                    deficiencies are in process.              system enhancements.
 Defense Civilian Personnel Data
 System Functionality and User
     Satisfaction, 7/27/2003
                                                                                                       Office of the Inspector General 99
Appendix F

     D-2003-115, Allegations        Air Force will prepare an acquisition strategy                                     AF, DCMA
  Concerning the Administration       addressing logistics support for the 550-
 of Contracts for Electronic Flight series Electronic Flight Instruments (EFI)
                                                                                   Decision delayed due to the need
     Instruments, 6/30/2003          that address sustainment and spare parts.  
                                                                                        for additional analysis.
                                     DCMA (at Lockheed Martin, Fort Worth,
                                    TX)  will perform a Contractor Purchasing
                                              System Review (CPSR).
  D-2003-117, Systems Inventory        Establish a single repository for business                                        USD(C)
                                                                                       Correction of this weakness
 to Support the Business Enterprise    systems information, which includes all
                                                                                       involves a long-term effort.
      Architecture, 7/10/2003          data elements necessary for architecture
                                         development and budget.  Establish
                                      procedures to ensure that the data are kept
                                           current, consistent, and accurate.
                                    Comply with DoD investment policy for             Long-term corrective action on     USD(C)
 D-2003-119, Controls Over DoD
                                   the DoD Medicare Eligible Retiree Health                    schedule.
  Medicare Eligible Retiree Health
                                    Care Fund; issue oversight procedures to
 Care Fund Investments, 7/31/2003
                                     ensure that the DFAS complies with the
                                    investment policy for the DoD Medicare
                                       Eligible Retiree Health Care Fund.
   D-2003-121, DoD Fire and              Revise DoDI 6055.6 to address staffing         Extended time needed to        USD(AT&L),
   Emergency Services Program,        issues.  Develop modernization plans for fire    update directive and develop     Army, Navy
          8/12/2003                         and emergency services apparatus.             modernization plan.
     D-2003-122, Financial       Issue guidance for unreconcilable contracts; Guidance delayed due to re-                USD(C)
 Management:  Closing the Army’s update the DoD FMR to specifically address writing and coordination issues,
    1985 M1a1 Tank Contract       the requirement to maintain vouchers and     and competing priorities.
 (Contract DAAE07-85-C-A043),       supporting documentation to facilitate
           8/13/2003                  complete contract reconciliations.
      D-2003-124, Financial            Reconcile the approximately $2.2 million Management corrective actions on          DISA
    Management:  Certification        of invoices that have not been researched to       schedule.
       of a DoD Payment for           identify potential overpayments and require
   Telecommunications Services,          appropriate credit back to the Defense
             8/22/2003                    Information Technology Contracting
                                                     Organization.
   D-2003-128, The Chemical        As directed by USD(AT&L), Army develop Extensive time needed to develop USD(AT&L), Army
    Demilitarization Program:        and prioritize a plan for the disposal of DoD-wide strategy for disposal of
 Increased Costs for Stockpile and  buried chemical warfare materiel.  Upon buried chemical warfare materiel.
 Non-Stockpile Chemical Disposal     receipt of the Army plan, USD(AT&L)
       Programs, 9/4/2003          determine which DoD component should
                                       be assigned to implement the plan.

                                       Establish integrated product teams
                                                                                                                           AF
D-2003-132, Air Force Transaction    and charters for advanced technology
                                                                                           Uncertainty of various
 of Advanced Technology Program development efforts.  Revise and implement
                                                                                       transformation issues delayed
to Military Applications, 9/12/2003 Air Force Instruction 61-101 to ensure
                                                                                      completion of implementation
                                    the status of technology transition plans
                                                                                                 actions.
                                    are reviewed at the Applied Technology
                                                     Councils.




100 Semiannual Report to the Congress
                                                                                                                      Appendix F

                                          Emphasize the importance of controls
D-2003-133, Report on Controls                                                     Management corrective actions on   USD(C), DFAS
                                          over the use of closed appropriations
Over DoD Closed Appropriations,                                                             schedule.
                                        and monitor compliance with applicable
         9/15/2003
                                          laws and regulations. DFAS establish
                                       specific standard procedures to ensure that
                                      accounting personnel approve only legal and
                                      proper adjustments to closed appropriations,
                                         and validate the canceled balances and
                                         report any potential Antideficiency Act
                                                        violations.

                                                                                                                          Army

D-2003-134, System Security of the                 Report is FOUO
Army Corps of Engineers Financial                                                Competing management priorities.
 Management System, 9/15/2003


                                     Review conducted and new standard       Normal time to write, coordinate,            WHS
D-2004-002, Acquisition:  Selected
                                     operating procedures developed and      approve, and implement guidance.
   Purchase Card Transactions
                                   implemented.  Administrative instructions
  at Washington Headquarters
                                             are being rewritten.
 Services and Civilian Personnel
Management Service, 10/16/2003

   04-INTEL-02, DoD Security        Disparities between the contractor and    Extensive time required to update          USD(I)
Clearance Adjudication and Appeals military/civilian personnel adjudicative          DoD Regulations.
     Process (U), 12/12/2003      process will be eliminated with the pending
                                  revision to the DoD Regulation 5200.2-R.
  D-2004-003, Decontamination                     Report is classified.               Extensive time needed to          Navy, AF
    Operation Preparedness of                                                        coordinate and issue policy.
 Continental U.S. Based Navy and
  Air Force Units (U), 10/8/2003
    D-2004-006, Acquisition           Director, Operational Test and Evaluation Extensive time required to update Army, USD(AT&L)
    Management of the Army’s           will provide an assessment of operational   DoD Acquisition guidance.
    Allsource Analysis System,          effectiveness, survivability, and test the
           10/10/2003                 adequacy of the Allsource Analysis System
                                          (ASAS) Block II family of systems.  
                                       USD(AT&L) will evaluate in accordance
                                      with the dollar thresholds to determine the
                                       appropriate Major Defense Acquisition
                                                Program (MDAP) level.
                                                                                    Army, Navy, AF actions are
                                                  Report is classified.                                               USD(P), Army,
 D-2004-007, Force Protection in                                                   contingent on publication of
                                                                                                                        Navy, AF
the Pacific Theater (U), 10/14/2003                                              pending USD (P) guidance.  ECD
                                                                                     on guidance is 10/30/06.
   04-INTEL-07, Audit of the                      Report is classified.                                                ATSD(NCB)
                                                                                     Extensive time required for
   Physical Security of Nuclear
                                                                                  coordination of DoD documents.
    Weapons (U), 5/3/2004




                                                                                                    Office of the Inspector General 101
Appendix F

                                      Update Army Regulations 70-1and 71-9
                                       to require combat developers to identify
                                          interoperability and supportability
 D-2004-008, Implementation of                                                                                               Army
                                      requirements in requirements documents
 Interoperability and Information
                                      and update the requirements throughout
Assurance Policies for Acquisition of
                                        the life of the systems, as necessary, in       Coordination on issuance of
    Army Systems, 10/15/2003
                                       accordance with DoD Directive 4630.5             numerous related guidance.
                                         and  to require program managers to
                                         obtain the Joint Staff J6 certifications
                                        for interoperability in accordance with
                                         Chairman of the Joint Chiefs of Staff
                                                 Instruction 6212.01B.
     D-2004-009, Allegations          Develop policies and procedures requiring                                             Army, AF
    Concerning Controls Over           the reconciliation of all transit subsidy        Delay in completion on the
   DoD Transit Subsidies Within       billings received from the Department of        coordination of draft policy and
   the National Capital Region,                     Transportation.                             procedures.
           10/14/2003
04-INTEL-10, Audit of the Nuclear      Assistant to the Secretary of Defense for                                           ATSD(NCB)
   Weapons Personnel Reliability         Nuclear and Chemical and Biological
     Program (U), 6/21/2004             Defense Programs [ATSD{NCB}] will
                                        assess policies, practices, and oversight     Normal time required to update
                                       to strengthen the reliability program and           DoD Instructions.
                                      ensure the reliability of those working with
                                      and around nuclear weapons.  Regulations
                                             and Directives will be updated.
  D-2004-012, Sole-Source Spare        Report is FOUO.  Corrective actions are       Corrective actions are on schedule.   DLA, Army
 Parts Procured From an Exclusive       complete on all but 1 of the report’s 8
      Distributor, 10/16/2003                     recommendations.
    D-2004-020, Allegations              Implement a formal acquisition policy
   Concerning Improprieties In        that integrates the existing roles of various Delay in obtaining legal approval.
    Awarding National Guard                Army National Guard and Federal
     Contracts, 11/18/2003            communication and IT groups.  Develop a
                                       process with measurable IT standards and
                                        defined business processes.  Coordinate
                                       the requirements for help desk support to
                                           eliminate duplicate contract costs.

      D-2004-023, Financial       USACE is to prepare an information paper                 Lack of management                Army
 Management:  Corps of Engineers to outline a plan to address account phase                  responsiveness.
  Financial Management System general ledger correlation related weaknesses
 Accounting Processes, 11/18/2003    and system deficiencies, including a
                                    monthly status report that shows the
                                    progress in correcting these problems.

    D-2004-034, Environment:               Clarify requirements for internal         The Corps of Engineers guidance         Army
    Defense Hotline Allegations                       assessments.                    update is on hold pending the
   Regarding the Environmental                                                        revision of a higher level Army
  Compliance Assessment Process                                                                 regulation.
 at U.S. Army Corps of Engineers,
    Portland District, 12/4/2003




102 Semiannual Report to the Congress
                                                                                                                             Appendix F

 D-2004-037, Logistics:  Defense                   Report is FOUO.                     Corrective actions are on schedule.       DLA
   Reutilization and Marketing
   Services Commercial Venture
   Contracts for Privatization of
 the DoD Surplus Sales Program,
            12/30/2003
 D-2004-039, Cooperative Threat         Negotiate a transparency agreement that          Significant time is required for    USD(P), DTRA
 Reduction Construction Projects,       will allow US verification of the quantity         negotiations with sovereign
          12/18/2003                    and quality of the material stored in the                    nations.
                                       fissile material storage facility.  Undertake
                                      sufficient activities to come into compliance
                                       with Russian environmental requirements
                                                 for water discharge rates.
 D-2004-041, The Security of the                                                                                                Army
Army Corps of Engineers Enterprise
                                                   Report is FOUO.                     Competing management priorities.
 Infrastructure Services Wide-Area
       Network, 12/26/2003
   D-2004-042, Control Over                                                                                                     NGA
   Obligations at the National                    Report is classified.
Geospatial-Intelligence Agency (U),                                                    Corrective actions are on schedule.
            1/16/2004
 D-2004-047, Implementation of     Program Managers will be able to store                                                       Army
 the DoD Management Control       acquisition documents in Virtual Insight
                                                                            Corrective actions are on schedule.
Program for Army Category II and (VIS) so the Milestone Decision Authority
     III Programs, 1/23/2004          can review document status from
                                 development to document approval.  Army
                                 Regulations will be updated to reflect new
                                            reporting procedures.
                                       Revised DoD guidance to clarify the roles                                                DAM
    D-2004-050, Management
                                       of responsible offices for the Cooperative Management corrective actions on
Structure of the Cooperative Threat
                                              Threat Reduction Program.                    schedule.
   Reduction Program, 2/5/2004

   D-2004-053, Defense Threat          Develop detailed guidance on what should                                                 WHS
   Reduction Agency Relocation         be considered when determining whether Management corrective actions on
        Costs, 2/19/2004                the relocation cost cap in section 8020 of     schedule.
                                      the FY 2004 Appropriation Act has been, or
                                                     will be, exceeded.
D-2004-055, DoD Source Approval                                                                                                  DLA
 Process for Service & Sales, Inc.,                                                     Change in strategy and extended
                                    Develop guidance for the reevaluation of
  a Small Business Manufacturer,                                                         time needed to coordinate and
                                       critical application item sources.
            2/25/2004                                                                             issue policy.

   D-2004-057, Acquisition:      Conduct a study on existing DoD post- Management corrective actions on                       USD(AT&L)
   Contracts Awarded for the     war strategy and establish responsibilities,   schedule.
 Coalition Provisional Authority  policies, and procedures for the rapid
  by the Defense Contracting        acquisition of necessary goods and
Command-Washington, 3/18/2004 services in support of any future post-war
                                      occupation or relief operations.
     D-2004-059, Financial        Determine the appropriate useful life for             Long-term corrective action on          Army
Management:  Assets Depreciation all USACE-owned assets.  Request a waiver                       schedule.
Reported on the U.S. Army Corps    from the DoD FMR based on USACE-
 of Engineers FY 2002 Financial        unique mission requirements.
     Statements, 3/16/2004




                                                                                                           Office of the Inspector General 103
Appendix F

                                                                                      Although required management
  D-2004-060, Acquisition of the                   Report is FOUO.                                                         USD(AT&L)
                                                                                       actions are complete, followup
  Joint Chemical Agent Detector,
                                                                                      continues to quantify monetary
           3/30/2004
                                                                                                   benefits.

   D-2004-061, Export Controls:    Expand DoD guidance to encompass all Management corrective actions on                    USD(P),
   Export Controlled Technology export-controlled technology and enumerate       schedule.                                 USD(AT&L)
    at Contractor, University and     the roles and duties of responsible
   Federally Funded Research and     personnel.  Ensure incorporation of
   Development Center Facilities, appropriate export compliance clauses into
             3/25/2004                    solicitations and contracts.

     D-2004-063, Financial             Improve the financial accountability for      Management corrective actions on        Army
Management:  Controls Over U.S.        buildings and other structures owned by                schedule.
Army Corps of Engineers (USACE)                       USACE.
 Buildings and Other Structures,
           3/26/2004
                                                                                       Followup was held in abeyance
                                                                                        until Analysis of Alternatives
    D-2004-064, Acquisition:                                                                                               USD(AT&L)
                                                                                       was completed.  Now extended
Acquisition of the Boeing KC-767A                  Report is FOUO.
                                                                                      time will be needed to complete
   Tanker Aircraft, 3/29/2004
                                                                                         planning for a competitive
                                                                                                 acquisition.
D-2004-065, DoD Implementation Revise Voting Assistance Program guidance                                                      AF
 of the Voting Assistance Program, to reflect recent changes to DoD guidance.   AF publication was delayed to
             3/31/2004              Improve monitoring of voting assistance       include any findings from the
                                    program and training of service members Federal Voting Assistance Program
                                   and spouses.  Establish civilian position for lessons learned report and 2004
                                           Service Voting Action Officer.          Federal Post Election Survey
                                                                                              results.

                                                                                      Long term corrective action on
  D-2004-068, Global Command                      Report is classified.                                                      USFK
                                                                                               schedule.
  and Control System-Korea (U),
            4/6/2004

   D-2004-074, Reliability of the     The Army and the Air Force agreed to                                                  Army, AF
                                                                                      Long term corrective action on
     Automated Cost Estimating     jointly verify, validate, and accredit the next
                                                                                               schedule.
  Integrated Tools Software Model,           major release of software,
             4/23/2004
 D-2004-075, Reliability of the FY                                                                                           NGA
 2003 Financial Statements for the                Report is classified.
                                                                                     Corrective actions are on schedule.
  National Geospatial-Intelligence
      Agency (U), 4/23/2004
   D-2004-078, Summary Report          The Director supports using technology                                              USD(AT&L)
                                                                                      Changes to the Acquisition
    on the Military Departments’    transitioning as a performance rating criteria
                                                                                   workforce on hold pending further
 Transition of Advanced Technology for science and technology personnel that
                                                                                    implementation of the National
 Programs to Military Applications, manage technologies that are more advanced
                                                                                      Security Personnel System.
             4/29/2004                             in development.
  D-2004-079, Reliability of the                                                                                              DIA
  Defense Intelligence Agency FY                  Report is classified.
                                                                                     Competing management priorities.
  2003 Financial Statements (U),
            4/29/2004




104 Semiannual Report to the Congress
                                                                                                                           Appendix F

   D-2004-080, Environmental              Implement guidance to improve the
                                                                                                                         USD(AT&L),  Navy
Liabilities Required to be Reported     development, recording, and reporting
 on Annual Financial Statements,         of environmental liabilities.  Establish
              5/5/2004                     a quality control program to assess       DoD guidance has been delayed
                                         environmental liability processes and        due to unrelated issues; Navy
                                        controls.  Issue guidance requiring that    implementing guidance is on hold
                                       future environmental liability electronic               as a result.
                                         cost estimating system efforts comply
                                       with Defense Environmental Restoration
                                           Program Management Guidance.

                                                                                     Long-term corrective actions on
  D-2004-082, DoD Installation
                                                  Report is classified.              schedule (EUCOM).  Extended EUCOM, Navy, AF
    Disaster Preparedness and
                                                                                      time needed to coordinate and
 Consequence Management in the
                                                                                      issue policy (Navy, AF).  Other
  U.S. European Command (U),
                                                                                    implementation action delayed by
           5/24/2004
                                                                                    change in related guidance (Navy).

 D-2004-084, Antideficiency Act         Allocate all undistributed disbursements Management corrective actions on             DFAS
  Investigation of the Research,       to fund holders of DoD closed fixed-term           schedule.
Development, Test and Evaluation       appropriations at statutory time of closing
  Defense-Wide, Appropriation           or provide alternate procedures that will
Account 97 FY 1989/1990-0400,           provide positive assurance against future
            5/28/2004                              potential violations.
 D-2004-087, Health Care:  DoD     ASD (HA), in coordination with the
                                                                                                             Army, AF, ASD(HA)
 Management of Pharmaceutical Military Surgeons General, develop standard
   Inventory and Processing of  policies and procedures for pharmaceutical Additional time needed for update
    Returned Pharmaceuticals,     inventory management at the Military       of publications and award of
           6/17/2004           Treatment Facilities (MTFs) and also require             contract.
                                  MTFs to use a pharmaceutical returns
                                                 company.

 D-2004-089, Acquisition of the            The U.S. Army Special Operations       Corrective actions are on schedule.         Army
 MH-47G Helicopter Service Life           Command (USASOC) will produce
 Extension Program, 6/14/2004             and Information Support Plan (ISP),
                                         in concurrence with the Joint Staff.  In
                                      addition, USASOC will submit a request for
                                       a one-year Interim Certificate to Operate.

  D-2004-091, Management of                                                                                                ASD(NII), JS
 Network Centric Warfare Within
   the Department of Defense,
                                                                                    Delays in coordinating and issuing
          6/22/2004                                Report is FOUO.
                                                                                                  policy.



  D-2004-093, Acquisition and          The DLA will initiate a new fully        Normal time for implementation.           Army, AF, DLA
   Management of Specialized        competitive acquisition for the containers.
   Shipping and Unit-Owned             The  Army and the Air Force will
Containers and Related Accessories, improve controls over the acquisition and
            6/30/2004                management of specialized shipping and
                                             unit-owned containers.




                                                                                                      Office of the Inspector General 105
Appendix F

  D-2004-094, Acquisition: Direct         Develop a joint strategy for acquiring       Normal time for implementation.
  Care Medical Services Contracts,     direct care medical services and strengthen                                         USD(AT&L),
           6/24/2004                        guidance and oversight for those                                                USD(C),
                                      acquisitions.  If required, address the issue of                                      ASD(HA)
                                      required changes for withholding FICA and
                                        other payroll taxes for individual set aside
                                       contracts.  Develop an oversight process for
                                              the acquisition of direct care.
   D-2004-095, Navy Controls                                                                                                  Navy
   Over Materiel Sent to Defense
                                        Ensure that Navy organizations either
    Reutilization and Marketing                                                          Remaining items needing
                                           demilitarize materiel or provide
        Offices, 6/24/2004                                                               demilitarization had to be
                                      demilitarization instructions to the depots,
                                                                                               consolidated.
                                           prior to requesting for disposal.


                                                  Report is classified.              Corrective actions are on schedule.      NSA
D-2004-099, Reliability of National
Security Agency FY 2003 Financial
    Statements (U), 7/15/2004

 D-2004-102, Contracting for and         The C-130J Aircraft would go through                                                  AF
                                                                                      Awaiting new C-130J definitized
Performance of the C-130J Aircraft,       operational testing and the Air Force
                                                                                                 contract.
           7/23/2004                     expects to close out all known in-scope
                                      deficiencies prior to the start of future block
                                      upgrades.  In addition, future block upgrade
                                        modifications would be performed under
                                      separate Federal Acquisition Regulation Part
                                                       15 contracts.
   D-2004-103, Contract No.              NAVSEA will revise it’s Contracts               Normal time to revise the            Navy
N00024-02-C-6165 for Consulting Handbook and conduct refresher training                   Contracts Handbook.
Services at the Naval Shipbuilding, for it’s contracting officers to highlight key
 Conversion, and Repair Facility,     points in the justification and approval
              8/2/2004                                 process.
                                       Recommended actions are designed to Corrective actions are on schedule.                Army
 D-2004-104, Purchase Card Use
                                     provide guidance and strengthen controls
and Contracting Actions at the U.S.
                                    over use of the Government Purchase Card
Army Corps of Engineers, Louisville
                                      at the Louisville District and at USACE
       District, 7/27/2004
                                                Headquarters levels.

                                           Update the performance metric on
  D-2004-106, Selected Controls                                                    Management corrective actions on           DFAS
                                       suspense accounts to track the progress for
  Over Army Fund Balance With                                                               schedule.
                                         reconciling the field accounting records
   Treasury at Defense Finance &
                                          of suspense account balances with the
  Accounting Service Indianapolis,
                                         summary Fund Balance With Treasury
              8/5/2004
                                                         balance.

     D-2004-110, The Military            USD (AT&L) has undertaken several        Normal time for implementation.          USD(AT&L),
   Departments’ Implementation          initiatives related to Performance Based                                            Army, Navy
  of Performance-Based Logistics        Logistics (PBL).  The Services will issue
  in Support of Weapon Systems,       policies and procedures for implementation
            8/23/2004                                     of PBL.
  D-2004-114, The Followup on                                                                                                 Army
  the Government Accountability
    Office and U.S. Army Audit
                                                   Report is FOUO.                   Competing management priorities.
 Agency Recommendations for the
  U.S. Army Corps of Engineers,
             9/21/2004


106 Semiannual Report to the Congress
                                                                                                                       Appendix F

  D-2004-115, The Followup on                                                                                              Army
  the Government Accountability
    Office and U.S. Army Audit
                                                 Report is FOUO.                   Competing management priorities.
 Agency Recommendations for the
  U.S. Army Corps of Engineers,
             9/21/2004
  D-2004-117, Defense Hotline          Develop management control           Corrective actions are on schedule.              JS
   Allegations Concerning the       documentation for the Collaborative
  Collaborative Force-Building,  Force-Building, Analysis, Sustainment, and
   Analysis, Sustainment, and         Transportation System (CFAST).
Transportation System, 9/24/2004
                                       Update the DoD FMR to require the
D-2004-118, Army General Fund                                                                                          USD(C), DFAS
                                         disclosure of unresolved abnormal      Corrective actions are on schedule.
Controls Over Abnormal Balances
                                     balances for all proprietary and budgetary
 for Field Accounting Activities,
                                      general ledger accounts in the footnotes
            9/28/2004
                                        to the financial statements.  Identify
                                        abnormal conditions impacting both
                                         budgetary and proprietary account
                                      balances; notify accounting activities of
                                    abnormal proprietary balances and require
                                       explanations of corrective actions; and
                                    resolve abnormal balances in the budgetary
                                                       accounts.
                                    Review and revise  the DoD FMR,
     D-2005-003, Financial                                                                                                USD(C)
                                  Volume 14, Chapter 9 guidance on the
Management:  DoD Antideficiency                                              The DoD FMR is currently being
                                 administrative controls and requirements
 Act Reporting and Disciplinary                                                  revised and coordinated.
                                over Antideficiency Act appropriations and  
      Process, 10/14/2004
                                                violations.

 D-2005-009, Pueblo Chemical-
                                                                                      Extensive time required to
 Agent-Destruction Pilot Plant                  Report is FOUO.                                                       USD(AT&L), Army
                                                                                      complete facility redesign.
      Project, 11/1/2004
05-INTEL-12, Defense Contract
 Management Agency Oversight
   of Contractor Information                    Report is classified.                    Report is classified.            Classified
 Technology Security Posture for
Special Programs (U), 5/26/2005
05-INTEL-13, Incident Reporting
                                                                                       Normal time needed for
  and Forensic Capabilities (U),                Report is classified.                                                    ASD(NII)
                                                                                          implementation.
           5/27/2005
 D-2005-020, Defense Logistics
                                    DLA is identifying cost savings realized for
  Agency Processing of Special                                                         Normal time needed for
                                    the Special Program Requirements (SPR)                                                  DLA
    Program Requirements,                                                                 implementation.
                                                Support Program.
         11/17/2004
                                 The contract has been logged and assigned to
    D-2005-022, Financial        a contractor supporting the Commercial Pay
Management:  Contract Classified Services Contract Reconciliation office for
as Unreconcilable by the Defense reconciliation.  Based on the reconciliation,      Reconciliation work continues.         DFAS
Finance and Accounting Service,     recovery actions will be initiated for any
          12/2/2005                   identified overpayments made to the
                                                   contractor.
D-2005-023, Information Systems
  Security:  Assessment of DoD                                                           Lack of management
                                                Report is FOUO.                                                          ASD(NII)
 Plan of Action and Milestones                                                             responsiveness.
      Process, 12/13/2004


                                                                                                     Office of the Inspector General 107
Appendix F

                                        Update Navy manpower and personnel
 D-2005-024, Management of           guidance to clearly define acceptable senior      Deployment of Total Force
 Navy Senior Enlisted Personnel        enlisted manning levels by establishing a    Authorization and Requirements
  Assignments in Support of          minimum senior enlisted manning level as        System (TFARS) delayed due to         Navy
   Operation Iraqi Freedom,           the baseline for identifying senior enlisted large discrepancies reported during
         12/15/2004                    manning deficiencies that would require                   testing.
                                                  immediate action.
    D-2005-026, Financial
  Management:  Reliability of         USACE is implementing system changes
 U.S. Army Corps of Engineers,       to improve the reliability or recording and Management corrective actions on
                                                                                                                           Army
  Civil Works, Fund Balance          reporting Fund Balance With Treasury and             schedule.
 With Treasury and Unexpended          Unexpended Appropriations accounts.
  Appropriations, 12/28/2004
                                                                                       Corrective action deferred
  D-2005-027, Contract With           Consider the audit findings before making
                                                                                     indefinitely until completion
  Reliant Energy Solutions East,     a determination to proceed with suspension                                             DLA
                                                                                      of criminal proceedings by
           1/28/2005                        action against the contractor.
                                                                                    Government against contractor.
                                     Establish minimum training standards for
                                     competition officials and DoD functional
  D-2005-028, DoD Workforce
                                       and technical experts assigned to work
  Employed to Conduct Public
                                        on public-private competitions, and
   Private Competitions Under                                                     Corrective actions are on schedule.    USD(AT&L)
                                      advise the DoD component competitive
 the DoD Competitive Sourcing
                                     sourcing officials concerning defining and
        Program, 2/1/2005
                                     documenting minimum education and/or
                                              experience requirements.
   D-2005-033, Acquisition:  
       Implementation of
                                                                                         Lack of management
Interoperability and Information                 Report is FOUO.                                                          ASD(NII)
                                                                                           responsiveness.
Assurance Policies for Acquisition
   of Navy Systems, 2/2/2005

 D-2005-034, Implementation of Issue policy to require program managers to
                                                                                       Extensive time needed for
 Interoperability and Information prepare information support plans and obtain                                              AF
                                                                                   coordination and issuance of policy
 Assurance Policies for Acquisition supportability certifications before milestone
  of Air Force Systems, 2/2/2005     decisions for system acquisition programs.

   D-2005-035, Existence of
                                     USACE-wide implementation of corrective       Management corrective actions on
 U.S. Army Corps of Engineers                                                                                              Army
                                      actions regarding Buildings and Other                 schedule.
 Buildings and Other Structures,
                                          Structures is being performed.
           2/15/2005
   D-2005-037, Implementation
                                     Army is developing policy for Performance
  of Performance Based Logistics
                                            Based Agreements (PBAs).               Normal time for implementation.         Army
  for the Javelin Weapon System,
              3/7/2005
D-2005-045, FY 2004 Emergency                                                      Normal time for implementation.
    Supplemental Funding for
                                        DLA establish and distribute standard
  the Defense Logistics Agency,
                                       operating procedures for calculating and                                             DLA
           5/9/2005
                                       reporting incremental cost information.




108 Semiannual Report to the Congress
                                                                                                                             Appendix F

                                                                                      Correct the identified errors and
     D-2005-046, Financial            Correct the identified errors and perform       perform a review of other leased
  Management:  Independent             a review of other leased and transferred     and transferred structures for similar
  Examination of the Rights to       structures for similar types of rights errors;   types of rights errors; review and
 U.S. Army Corps of Engineers        review and update policies and procedures         update policies and procedures           Army
 Buildings and Other Structures,      to prevent future errors; and provide and         to prevent future errors; and
           3/25/2005                document training to consistently implement provide and document training to
                                           the new policies and procedures.           consistently implement the new
                                                                                           policies and procedures
                                                                                                                                Army
   D-2005-051, Independent        USACE will establish an oversight process
 Examination of the Land Assets that provides periodic reviews by Civil Works
                                                                                Corrective actions are on schedule.
   at the U.S. Army Corps of     headquarters of land asset transactions at the
Engineers, Civil Works, 4/6/2005                activity level.

D-2005-056, Reliability of the FY
2004 Financial Statements for the
                                                 Report is classified.              Corrective actions are on schedule.         NGA
 National Geospatial-Intelligence
     Agency (U) 4/29/2005

D-2005-069, Audit of the General
                                                                                    Corrective actions are on schedule.
 and Application Controls of the
                                                  Report is FOUO.                                                              DFAS
  Defense Civilian Pay System,
           5/13/2005

   D-2005-074, Support for
  Reported Obligations for the
                                                 Report is classified.              Corrective actions are on schedule.         NSA
  National Security Agency (U),
           6/28/2005
                                     Ensure that ERGM program provides for
  D-2005-078, Audit of the          appropriate validation, testing, and funding      Long-term corrective action on
   Extended Range Guided               of requirements.  Revise guidance on                    schedule.                        Navy
 Munitions Program, 6/15/2005       munitions requirements approval authority
                                            to conform to U.S. statute.
   D-2005-083, Reporting of         Implement the withhold process and submit
  DoD Capital Investments for         a change to the Financial Management
                                                                                            Lack of management
   Information Technology in            Regulation to require the Statement                                                   ASD(NII)
                                                                                              responsiveness.
 Support of the FY 2006 Budget         of Compliance for President’s Budget
 Submission Report, 6/10/2005                    submissions only
                                      The OUSD(AT&L) will review policy
  D-2005-091, Source Selection       guidance and the Air Force will execute a
   Decisions for the Air Force      revised acquisition strategy and strengthen
                                                                                Corrective actions are on schedule           USD(AT&L)
 Small Diameter Bomb Program,        guidance related to spiral or incremental
          7/15/2005                 development programs for critical products
                                                 and technologies
  D-2005-096, DoD Purchases             DoD is establishing new policies and
   Made Through the General              revising the DoD FMR to improve
                                                                                        Corrective actions are being         USD(AT&L),
    Services Administration,         intergovernmental transactions, the use of
                                                                                               implemented                     USD(C)
           7/29/2005                 Military Departmental Purchase Requests
                                          (MIPR), and assisted acquisitions.
    D-2005-097, Auditability
   Assessment of the Financial
   Statements  for the Defense                   Report is classified.              Competing management priorities.            DIA
    Intelligence Agency (U),
            8/18/2005



                                                                                                         Office of the Inspector General 109
Appendix F

D-2005-100, Identification and   The USD(C) stated that DFAS will               Corrective actions are on schedule. USD(C)
Reporting of DoD Erroneous       identify a lack of a statistically valid
Payments, 8/17/2005              method of estimating improper payments
                                 for commercial payments as a material
                                 weakness in its FY 2005 Performance and
                                 Accountability Report. DFAS will develop a
                                 process for estimating improper commercial
                                 payments that will provide reasonable
                                 assurance that it represents the actual amount
                                 of such payments.
                                 The DFAS Director has designated the
                                 Program Manager for the DoD Recovery
D-2005-101, DoD Recovery                                                 Corrective actions are on
                                 Audit Program, and an appointment memo                                          USD(C)
Audit Program, 8/17/2005                                                 schedule.
                                 will be drafted and coordinated for the
                                 Director’s signature.
                                                                              Corrective actions are on
                                                                              schedule.
                            Develop new controls and fully implement
D-2005-103, Development and existing controls to ensure that all resources
Management of the Army Game are safeguarded; and revise Navy guidance                                            Navy
Project, 8/24/2005          on accountability over pilferable property
                            to be consistent with the DoD guidance.


                                 The USACE is establishing a
D-2005-108, Review of the U.S.
                                 comprehensive correction action program
Army Corps of Engineers, Civil
                                 to ensure that the instructions provided     Corrective actions are on
Works Balance Sheet Reporting                                                                                    Army
                                 in the information papers are fully and      schedule.
and Financial Statement
                                 consistently executed at all USACE
Compilation, 9/16/2005
                                 activities.




110 Semiannual Report to the Congress
                                                   appendix G
                                                                        	
           Defense Criminal Investigative Organizations Statistics
	       The     Defense      Criminal      Investigative
                                                                                                 1600
Organizations (DCIOs), comprised of DCIS, the U.S.                                                                                1,474
Army Criminal Investigation Command, the Naval                                                   1400

Criminal Investigative Service, and the Air Force                                                1200
Office of Special Investigations, protect the military
and civilian men and women of the Department by                                                  1000

combating crimes, both domestic and overseas, with                                                800
highly trained special agents, forensic experts, analysts,
and support personnel. Examples of the DCIO’s                                                     600

mission initiatives and investigative accomplishments                                             400
                                                                                                                402
are detailed in Chapter 3 under the nine management
challenges.                                                                                       200

                                                                                                    0
	       Monetary recoveries of approximately                                                                  Indicted            Convicted

$1.948 billion resulted from the investigations by                                  Terrorism                    9                    8

the DCIOs, and are displayed by major categories in                                 Procurement                  43                  24

Figure 1 (below).  Figure 2  (right) displays the total                             Health Care                  10                  15
                                                                                    Fraud
companies and individuals indicted and convicted is                                 General Crimes               58                  785
402 and 1,474 respectively. Figure 3 (bottom, right)                                Drug Related                136                  410
displays the number of companies and individuals                                    Public                       18                  18
suspended or debarred for this period were 15 and 54,                               Corruption
respectively.  	                                                                    Other                       128                  214

                                                                                                        Figure 2
                             All dollars are in the $1,000
           $1,800,000                                                                       50
                                                                                                  Total Suspensions – 15   Total Debarments – 54
                                   $1,577,061                                               45
           $1,600,000
                                                                                            40
           $1,400,000
                                                                                            35
           $1,200,000
                                                                                            30
           $1,000,000
                                                                                            25
            $800,000                                                                        20

            $600,000                                                                        15

            $400,000                             $339,679                                   10

                                                                                             5
            $200,000
                        $30,399                               $800                           0
                  $0                                                                              Suspend- Suspend-         Debar-        Debar-
                        Criminal       Civil      Admin.     Seizures                             Company   People         Company        People
   Terrorism             $1,006         $0          $0         $0           Terrorism                   0              0      0             0
   Procurement          $18,301       $27,506     $289,260     $0           Procurement                 0              5      7             16
   Health Care Fraud     $772         $981,179      $0         $0           Health Care Fraud           0              0      0             0
   General Crimes        $3,889         $54        $189        $3           General Crimes              0              5      0             2
   Drug Related          $988           $25        $166        $0           Drug Related                0              5      0             20

   Public Corruption     $671          $3,282       $1         $0           Public Corruption           0              0      2             6

                         $4,772       $565,015    $50,063     $797          Other                       0              0      0             1
   Other

                                  Figure 1                                                                  Figure 3
                                                                                                             Office of the Inspector General 111
                                        aCRONYMS
AF	   	    	            Air Force	
ASD(HA)	   	            Assistant Secretary of Defense (Health Affairs)	
ASD(NII)	  	            Assistant Secretary of Defense (Networks Information Integration)	
ATSD{NCB}	 	            Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense
	     	    	            Programs 	
DAM	 	     	            Director, Administration and Management	
DATSD(C/BD)	            Deputy Assistant to the Secretary of Defense for Chemical/Biological Defense	
DCMA	      	            Defense Contract Management Agency	
DeCA	 	    	            Defense Commissary Agency	
DFAS	 	    	            Defense Finance and Accounting Service	
DIA	 	     	            Defense Intelligence Agency	
DISA	 	    	            Defense Information Systems Agency	
DLA	 	     	            Defense Logistics Agency	
DoDEA	     	            Department of Defense Education Activity	
DSS	 	     	            Defense Security Service	
DSCA	 	    	            Defense Security Cooperation Agency	
DTRA		     	            Defense Threat Reduction Agency	
EUCOM	     	            European Command	
JFCOM	     	            Joint Forces Command	
JS	   	    	            Joint Staff	
MC	 	      	            Marine Corps	
NGA	 	     	            National Geospatial-Intelligence Agency	
NGB	 	     	            National Guard Bureau	
NSA	 	     	            National Security Agency	
PACOM	     	            Pacific Command	
USD(AT&L)	 	            Under Secretary of Defense for Acquisition, Technology and Logistics	
USD(C)	    	            Under Secretary of Defense (Comptroller)	
USD(I)	    	            Under Secretary of Defense (Intelligence)	
USD(P)	    	            Under Secretary of Defense for Policy	
USD(P&R)	 	             Under Secretary of Defense for Personnel and Readiness	
USFJ	 	    	            United States Forces - Japan	
USFK	 	    	            United States Forces – Korea 	
USSOCOM	 	              United States Special Operations Command	
USTRANSCOM	             United States Transportation Command 	
WHS	 	     	            Washington Headquarters Service




112 Semiannual Report to the Congress
           Department of Defense
          Inspector General Hotline
                  1-877-363-3348
          Protect the Total Force




 Military	 	 	 	 Contractors	 	 	 	 Civilians
Report: Fraud, Waste, and Abuse
                     Send written complaints to:
                          Defense Hotline
                           The Pentagon
                     Washington, DC 20301-1900

DSN: 312-664-1151 	 Email: hotline@dodig.mil www.dodig.mil/hotline
i
 srepo
     rt,a
        swel
           lasa
              uditr
                  epo
                    rta
                      ndtes
                          ti
                           monytex
                                 t,a
                                   reav
                                      ail
                                        abl
                                          eontheI
                                                nte
                                                  rneta
                                                      t:www.
                                                           dodi
                                                              g.mi
                                                                 l
  Addi
     tio
       nali
          nfo
            rmat
               iononorc
                      opi
                        esoft
                            hisr
                               epo
                                 rtmaybeobt
                                          aine
                                             dbywri
                                                  tingorc
                                                        ont
                                                          act
                                                            ing
                                                              :
            OﬃceoftheI
                     nspe
                        ctorGenera
                                 loftheDepa
                                          rtmentofDe f
                                                     ens
                                                       e
              Oﬃc eofCommunica
                             tionsandCongre
                                          ssi
                                            onalLi
                                                 ais
                                                   on
               40
                0Ar myNa v
                         yDr i
                             ve,Arl
                                  ingt
                                     on,VA 22202-470
                                                   4
               Mr
                .Jo
                  hnR.
                     Cra
                       ne 7
                          0 3
                            -60
                              4-8324;
                                    DSN664
                                         -8324
